           Report No. D-2011-061                           May 3, 2011




    Excess Inventory and Contract Pricing Problems
     Jeopardize the Army Contract with Boeing to
        Support the Corpus Christi Army Depot




                                      Special Warning
This report contains contractor information that may be company confidential or proprietary.
Section 1905, title 18, United States Code, and section 423, title 41, United States Code,
provide specific penalties for the unauthorized disclosure of company confidential or
proprietary information. You must safeguard this report in accordance with DoD Regulation
5200.1-R.
Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AMC                           Army Materiel Command
AMCOM                         Aviation and Missile Life Cycle Management Command
BRAC                          Base Realignment and Closure
CCAD                          Corpus Christi Army Depot
CIT                           Consumable Item Transfer
DCAA                          Defense Contract Audit Agency
DCMA                          Defense Contract Management Agency
DLA                           Defense Logistics Agency
EBS                           Enterprise Business System
FAR                           Federal Acquisition Regulation
GAO                           Government Accountability Office
GOLD                          Government On-Line Data System
IG                            Inspector General
LMP                           Logistics Modernization Program
MES                           Material Estimating System
NSN                           National Stock Number
OEM                           Original Equipment Manufacturer
PO                            Purchase Order
RTAT                          Repair Turnaround Time
U.S.C.                        United States Code


                             FOR OFFICIAL USE ONLY
                                            INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                          400 ARMY NAVY DRIVE
                                     ARLINGTO N, VIRGIN IA 222 02- 4704




                                                                                                       May 3,2011

    MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                     TECHNOLOGY, AND LOGISTICS
                  DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
                  DIRECTOR, DEFENSE LOGISTICS AGENCY
                  AUDITOR GENERAL, DEPARTMENT OF THE ARMY

    SUBJECT: Excess Inventory and Contract Pricing Problems Jeopardize the Anny Contract With
             Boeing to Support the Corpus Christi Army Depot (RepOlt No. D-20 11-061)

    We are providing this report for review and comment. We identified $242.8 million to
    $277.8 million of excess DoD inventory that could be used to satisfy current and future contract
    requirements for the Apache and Chinook weapon systems. In addition, we calculated that
    Boeing charged the fumy about $13 million (131.5 percent) more than the fair and reasonable
    prices for 18 patts. Also, Boeing contract prices were $8.0 million (51.2 percent) higher than
    Defense Logistics Agency prices for 1,635 parts. We considered management comments on a
    draft of this repOlt when preparing the final report.
/


    DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments from
    the Principal Deputy Assistant Secretary of Defense (Logistics and Materiel Readiness) and the
    Conm1ander, Army Aviation and Missile Life Cycle Management Command, were partially
    responsive or nonresponsive. In addition, we revised Recommendation B.3.a to clarify actions to
    be taken by the Director, Defense Procurement and Acquisition Policy. Therefore, we request
    additional comments on Recommendations A.2.a, B.3.a, C.1, and D.2.a by June G, 2011.

    Ifpossible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of your
    comments must have the actual signature of the authorizing official for your organization. We
    are unable to accept the ISignedl symbol in place of the actual signature. If you arrange to send
    classified conunents electronically, you must send them over the SECRET Internet Protocol
    Router Network (SIPRNET).

    We appreciate the courtesies extended to the staff. Please direct questions to Mr. Henry F.
    Kleinknecht at (703) 604-9324 (DSN 664-9324).




                                                         Richard B. Jolliffe
                                                         Assistant Inspector General
                                                         Acquisition and Contract Management



                                                SPECIAL W ARI~NG
    This rcport contains contractor information that may be company confidential or proprietary. Section 1905,
    title 18, United States Code, and section 423, title 41, United States Code, provide specific penalties for the
    unauthorized disclosure of company confidential or propriet:ny information. You must safeguard this report
    in accordance with DoD Regulation S200.1-R.


                                          FOR OFFICIAL USE ONLY
Report No. D-2011-061 (Project No. D2010-D000CH-0077.000)                           May 3, 2011

               Excess Inventory and Contract Pricing Problems
               Jeopardize the Army Contract With Boeing to
               Support the Corpus Christi Army Depot

What We Did                                             baseline and actual performance, showing a
                                                        46.7 percent improvement instead of an actual
We evaluated the Army Aviation and Missile Life
                                                        improvement of 26.1 percent to 36.9 percent.
Cycle Management Command (AMCOM)
                                                        AMCOM officials overpaid incentives for the
material purchases from The Boeing Company
                                                        repair turnaround time improvements, and Boeing
(Boeing) supporting the Corpus Christi Army
                                                        owes the Army a refund of $6.3 million to
Depot (CCAD) to determine whether the
                                                        $10.9 million. Boeing also owes the Army an
partnership agreement effectively minimized the
                                                        additional refund of $538,688 because it did not
cost of direct materials to the depot. AMCOM
                                                        meet requirements in a subsequent contract phase.
entered into the partnership to address parts
availability problems and improve readiness.
                                                        Also, AMCOM officials did not use the most cost-
                                                        effective source of supply for consumable items
What We Found                                           because DoD had not developed an effective material
AMCOM officials did not effectively use                 management strategy. We identified that the Defense
$339.7 million of existing DoD inventory before         Logistics Agency (DLA) had sufficient inventory to
procuring the same parts from Boeing because DoD        satisfy annual contract requirements for 1,635 parts
had inadequate policies and procedures addressing       on the follow-on contract, and the Boeing contract
inventory use. We identified $242.8 million to          price for those items was $8.0 million, or
$277.8 million of excess inventory that AMCOM           51.2 percent, higher than the DLA price.
could use to satisfy CCAD contract requirements.
(See Excess Inventory on adjacent page.)                Recommendations, Management
In addition, AMCOM officials did not effectively
                                                        Comments, and Our Response
negotiate prices for 18 of 24 high-dollar parts         Among other recommendations, the Office of the
reviewed because neither AMCOM officials nor            Under Secretary of Defense for Acquisition,
Boeing officials performed adequate cost or price       Technology, and Logistics should issue policies and
analyses, and Boeing officials submitted cost or        procedures addressing the inventory and pricing
pricing data that were not current, complete, and       issues identified in this report. Also, DoD needs to
accurate (7 parts). We calculated that Boeing           develop an effective strategy to use on hand and
charged the Army about $13 million or                   due-in Government inventory before procuring the
131.5 percent more ($23 million versus $10 million)     same parts on partnership agreements. Overall,
than fair and reasonable prices for the 18 parts.       management comments were responsive, and
During the audit, Boeing issued the Army a credit       management is taking action to address inventory
for $324,616 for one of the defectively priced parts.   and pricing issues. AMCOM is working with DLA
After we issued the draft report, Boeing provided       to develop an effective strategy to drawdown
additional refunds of about $1.3 million. (See          existing inventory before procuring new parts from
Pricing Problems on adjacent page.)                     Boeing and to effectively procure consumable
                                                        items. However, some management comments
Further, AMCOM officials overstated repair              were not fully responsive to the recommendations.
turnaround time improvements because they used          Therefore, we request additional comments by
inconsistent methodologies for calculating              June 6, 2011. Please see the recommendations table
                                                        on page iii.
                                               i
                                     FOR OFFICIAL USE ONLY
Report No. D-2011-061 (Project No. D2010-D000CH-0077.000)                                      May 3, 2011

Excess Inventory
The Army is procuring parts from Boeing instead of using $242.8 million to $277.8 million of
excess DoD inventory to satisfy CCAD requirements. (Finding A and Tables 2 and 3 of the
report provide additional details.)

             DoD Inventory Could Be Used to Meet CCAD Contract Requirements
                                       (in millions)
                                        Fiscal Year                                    Remaining
                                                                         Subtotal      for Future      Total
                      2010      2011       2012       2013      2014                  Requirement
CCAD Contract
                       $99.1     $103.9    $112.5     $118.1     $122.2     $555.8
Requirement
Excess Inventory –
                       $68.7     $ 49.8    $ 35.3     $ 23.9     $ 21.0     $198.7         $79.1       $277.8
3 year contingency
Excess Inventory –
                       $62.8     $ 42.1    $ 29.4     $ 22.0     $ 18.2     $174.5         $68.3       $242.8
5 year contingency
Excess inventory was calculated by removing 3 or 5 years of DoD demand requirements outside CCAD requirements.



Pricing Problems
The Army paid significantly higher prices to Boeing than if it would have procured the same parts
from DLA. (Finding B, Tables 9 and 12, and Figures 10 and 12 of the report provide additional
details.)

                     Spur Gear                                         Ramp Gate Roller Assembly




         DLA 2009 Unit Price: $12.51                               DLA 2009 Unit Price: $7.71
         Boeing 2009 Unit Price: $644.75                           Boeing 2009 Unit Price: $1,678.61
         Boeing Refunded: $556,006                                 Boeing Refunded: $76,849




                                                 ii
                                       FOR OFFICIAL USE ONLY
Report No. D-2011-061 (Project No. D2010-D000CH-0077.000)                  May 3, 2011

Recommendations Table

         Management                   Recommendations       No Additional Comments
                                     Requiring Comment             Required
Principal Deputy Assistant        A.2.a                     A.2.b
Secretary of Defense (Logistics
and Materiel Readiness)
Director, Defense Procurement     B.3.a                     B.3.b, D.1
and Acquisition Policy
Commander, Army Materiel                                    A.1
Command
Director, Defense Logistics                                 A.1
Agency
Commander, Army Aviation and      C.1, D.2.a                A.3, B.2, C.2, D.2.b
Missile Life Cycle Management
Command
Director, Defense Contract                                  B.1
Management Agency

Please provide comments by June 6, 2011.




                                        iii
                              FOR OFFICIAL USE ONLY
Table of Contents

Introduction                                                                   1

      Objectives                                                               1
      Background                                                               1
             Corpus Christi Army Depot                                         1
             Army Aviation and Missile Life Cycle Management Command           1
             Defense Logistics Agency                                          2
             Boeing                                                            2
             CCAD/Boeing Contracts                                             3
             Nonstatistical Audit Sample of Material                           4
      Review of Internal Controls                                              5

Finding A. Excess DoD Inventory                                                6

      DoD Inventory                                                            6
      Existing Inventory Could Satisfy CCAD Requirements                       8
             Maximum Velocity Drawdown of Inventory                            8
             Management Action Initiated                                      10
      Reasons for the Excessive Inventory                                     10
             Parts Explosion Not Stopped                                      11
             AMCOM Consumable Item Transfers                                  11
             No Total Asset Visibility and Unclear Responsibilities           14
             Inadequate DoD Policies and Procedures                           17
             Other Inventory Issues                                           19
      Management Comments on the Finding and Our Response                     20
      Recommendations, Management Comments, and Our Response                  22

Finding B. Spare Parts Pricing Problems                                       26

      Guidance                                                                26
             Contractor Purchasing System Reviews                             28
             Inadequate Subcontractor Cost or Price Analysis                  29
             No Subcontractor DCAA Assist Audits                              30
             Proposed Follow-On CCAD/Boeing Contract Is Not Acceptable
              for the Negotiation of a Fair and Reasonable Price              31
      Spare Parts Pricing Problems for Sampled Parts                          31
             Boeing Owes the Army Refunds for Defective Certified Cost or
              Pricing Data and Unnecessary Pass-Through Costs                 32
             Boeing Obtained Quantity Discounts and Negotiated Lower Prices
              That Were Not Passed on to the Army                             42
Table of Contents (cont’d)

Finding B. Spare Parts Pricing Problems (cont’d)

             Costs for Boeing to Manufacture Parts Are Much More Than if
              Boeing Purchased the Parts                                         50
             Costs for Some Parts Were In Line With Negotiated Contract Prices   53
      Boeing’s Actual Costs Are Significantly Lower Than the Estimates
       Used to Establish Firm-Fixed Prices                                       54
      Poor Communication Between CCAD Workers and Boeing for
       Potential Nonconforming Parts at CCAD                                     54
      Management Comments on the Finding and Our Response                        55
      Recommendations, Management Comments, and Our Response                     56

Finding C. Payments for Unachieved Repair Turnaround
             Time Improvements                                                   64

      AMCOM RTAT Expectations                                                    64
      Contract Requirements Were Different From Baseline                         64
             Baseline Included Shiftwork for Phase II Components                 65
             Baseline Did Not Include Shiftwork for Phase III Components         68
      Incorrect Incentive Payments                                               68
             Incorrect Payments for Phase II Performance                         69
             Refunds Not Requested for Phase III Performance                     70
      Recommendations, Management Comments, and Our Response                     71

Finding D. Splitting Requirements for Consumable Items Was Not
            Cost-Effective                                                       73

      Consolidation Goals for Consumable Items Not Being Met                     73
             Consolidation of Inventory Control Points                           74
             2005 BRAC Recommendations                                           74
             CCAD/Boeing Contract Acquisition Strategy                           75
             AMCOM and DLA Purchases                                             76
      DoD Needs an Effective Strategy for Procuring Consumable Items             77
             Economic Order Quantities                                           77
             Using the DoD EMALL is a Valuable Pricing Tool and
              Can Stimulate Competition Between DLA and Boeing                   77
      Boeing Already Purchased Consumable Items From DLA                         79
      Management Comments on the Finding and Our Response                        79
      Recommendations, Management Comments, and Our Response                     80
Table of Contents (cont’d)

Appendices

      A. Scope and Methodology                                             84
             Interviews and Documentation                                  84
             Nonstatistical Sample Selection                               85
             Inventory Analysis                                            85
             Cost and Price Analysis                                       86
             RTAT Analysis                                                 86
             Consumable Item Acquisition Analysis                          87
             Use of Computer-Processed Data                                87
             Prior Coverage                                                87
      B. Additional Examples of Excess Inventory                           89
      C. Sample Parts With Pricing Issues                                  91
             Additional Examples of Defective Data                         91
             Additional Examples of Boeing Negotiating Better Prices       94
      D. Potential Nonconforming Parts                                     97
      E. Calculation of Cost Impact on Sample Parts                       100

Management Comments

      Assistant Secretary of Defense (Logistics and Materiel Readiness)   109
      Defense Procurement and Acquisition Policy                          113
      Department of the Army                                              115
      Defense Logistics Agency                                            140
      Defense Contract Management Agency                                  141
Introduction
Objectives
The overall objective of the audit was to evaluate material purchases made at Corpus Christi
Army Depot (CCAD) through the partnership agreement with The Boeing Company
(Boeing). Specifically, we determined whether the partnership agreement1 in place with
Boeing effectively minimized the cost of direct materials to the depot.2 See Appendix A for
a discussion of the scope and methodology.

We also have an ongoing audit of the material purchases made at CCAD through the
partnership agreement with Sikorsky Aircraft Corporation (Project No. D2010-D000CH-
0077.001). Additionally, CCAD has similar partnership agreements with Honeywell
International, Inc. (Honeywell) and General Electric Aircraft Engines.

We performed this audit pursuant to Public Law 110-417, “Duncan Hunter National Defense
Authorization Act for Fiscal Year 2009,” section 852, “Comprehensive Audit of Spare Parts
Purchases and Depot Overhaul and Maintenance of Equipment for Operations in Iraq and
Afghanistan,” October 14, 2008. Section 852 requires:

                 . . . thorough audits to identify potential waste, fraud, and abuse in the
                 performance of the following: (1) Department of Defense contracts,
                 subcontracts, and task and delivery orders for—(A) depot overhaul and
                 maintenance of equipment for the military in Iraq and Afghanistan; and
                 (B) spare parts for military equipment used in Iraq and Afghanistan . . .

Background
Corpus Christi Army Depot
CCAD, located in Corpus Christi, Texas, is a maintenance depot in the Army Working
Capital Fund Industrial Operations activity group whose mission is to overhaul, repair,
modify, retrofit, test, and modernize helicopters, engines, and components for all Services
and foreign military customers. CCAD also is actively engaged in resetting equipment
returning from operations in Iraq and Afghanistan. CCAD is under the operational control of
the Army Aviation and Missile Life Cycle Management Command (AMCOM).

Army Aviation and Missile Life Cycle Management Command
AMCOM is headquartered at Redstone Arsenal, Alabama, and is a major subordinate
command of the Army Materiel Command (AMC). AMCOM was established as a readiness



1
  The partnership agreement is a contract for technical, engineering, and logistics services support and for
material parts support.
2
  The DoD Office of the Assistant Inspector General for Defense Business Operations originally announced the
audit in February 2009. In November 2009, the audit was transferred to the DoD Office of the Assistant
Inspector General for Acquisition and Contract Management and reannounced.

                                    FOR OFFICIAL USE ONLY
                                              1
command to develop, acquire, field, and sustain aviation and missile weapon systems.
AMCOM provides life-cycle management of Army aviation and missile systems from
research and development to procurement and production, from spare parts availability to
flight safety, and from maintenance and overhaul to retirement. In addition, AMCOM strives
to ensure that the Army’s aviation and missile weapon systems are technologically superior,
affordable, and always ready for use.

Defense Logistics Agency
The Defense Logistics Agency (DLA) is DoD’s largest logistics combat support agency.
Headquartered at Fort Belvoir, Virginia, DLA provides logistics, acquisition, and technical
services to the Army, Navy, Air Force, Marine Corps, other Federal agencies, and joint and
allied forces. DLA reportedly supplies 84 percent of the military’s spare parts. The DLA
primary-level field activities include DLA Land and Maritime (Columbus, Ohio); DLA
Troop Support (Philadelphia, Pennsylvania); and DLA Aviation (Richmond, Virginia).

Boeing
Boeing is the world’s leading aerospace company and the largest manufacturer of
commercial jetliners and military aircraft combined. Additionally, Boeing designs and
manufactures rotorcraft (rotary-wing aircraft), electronic and Defense systems, missiles,
satellites, launch vehicles, and advanced information and communication systems.

AH-64 Apache Helicopter
The Army began using the AH-64 Apache (Apache) helicopter in 1984. It is the Army’s
heavy division/corps attack helicopter. Its mission is to conduct rear, close, and shaping
missions including deep, precision strikes. In addition, it conducts precision strikes against
moving targets and provides armed reconnaissance when required in day, night, obscured
battle field, and adverse weather conditions. The Apache, shown in Figure 1, is
manufactured by Boeing in Mesa, Arizona.
                            Figure 1. AH-64 Apache Helicopter




                                    Source: www.army.mil

                                FOR OFFICIAL USE ONLY
                                          2
CH-47 Chinook Helicopter
The venerable twin-engine, tandem rotor CH-47 Chinook (Chinook) helicopter was first used
in 1962 in Vietnam. Its mission is to transport ground forces, supplies, ammunition, and
other battle-critical cargo in support of worldwide combat and contingency operations. The
Chinook, shown in Figure 2, is manufactured by Boeing in Philadelphia, Pennsylvania.

                               Figure 2. CH-47 Chinook Helicopter




                                         Source: www.army.mil

CCAD/Boeing Contracts
In an effort to streamline its logistic infrastructure, CCAD officials reviewed ways to implement
the most successful business practices that would result in reductions in Apache and Chinook
weapon systems repair turnaround time, lower required inventory levels, improved readiness,
increased depot capacity, and reduction in total cost. As a result, CCAD officials entered into a
partnership agreement3 with Boeing to support the warfighter in an efficient and cost-effective
manner. The AMCOM Contracting Center awarded two contracts to Boeing to provide
technical, engineering, and logistical services support and supplies to CCAD for the overhaul,
repair, and recapitalization of the Apache and Chinook weapon systems.

Contract W58RGZ-04-C-0203
The AMCOM Contracting Center awarded the initial CCAD/Boeing contract,
W58RGZ-04-C-0203, on June 30, 2004, for Phase I of the partnership. It was a firm-fixed-
price contract for technical, engineering, and logistical support and emergency parts from
July 1, 2004, through October 31, 2004. The total value of Phase I was $46.9 million.
Phases II and III of the contract continued technical, engineering, and logistical services
support and added material parts support for the Apache and Chinook weapon systems. The


3
  AMC defines a partnership agreement as a documented business relationship between two or more groups that
is characterized by mutual cooperation, trust, and responsibility to achieve a specified goal.

                                   FOR OFFICIAL USE ONLY
                                             3
AMCOM Contracting Center awarded Phase II on November 1, 2004, and Phase III on
June 19, 2006. The performance period of both phases was through October 31, 2009, and
was extended through April 30, 2010. As of September 9, 2010, the total value of Phases II
and III was $850.0 million; however, $275.1 million of the contract value was related to
performance-based logistics of the AH-64 Apache D-unique components.4

Contract W58RGZ-10-D-0027
On February 1, 2010, the AMCOM Contracting Center awarded the follow-on CCAD/Boeing
contract, W58RGZ-10-D-0027, as an unpriced contract action not to exceed $108.6 million,
and modified the contract on May 1, 2010, to incorporate services and supplies, which
increased the not to exceed amount to $121.6 million. The contract was to be definitized
within 6 months of award as a 5-year, firm-fixed-price contract (February 1, 2010 through
January 31, 2015). However, according to the Director, Aviation Logistics, AMCOM
Contracting Center, the planned completion date for contract definitization was extended to
December 31, 2010.

Nonstatistical Audit Sample of Material
We selected 437 national stock numbers (NSN) or parts,5 85 percent of the total dollar value
of material Boeing was required to furnish for the Apache and Chinook weapon systems for
contract years 2008 and 2009. As shown in Table 1, our sample of 437 parts included
98 Army-managed parts (Army Items); 120 DLA-managed parts that the Army transferred to
DLA at no cost in August 2008 as part of a consumable item transfer (CIT) required by the
2005 Base Realignment and Closure (BRAC) supply and storage recommendations; and
168 DLA-managed consumable items (DLA Consumables). We were unable to obtain
procurement history for 13 sample parts, and 38 parts were on the initial contract but not on
the follow-on contract. For more detailed information on the sample selection, see
Appendix A.

                                    Table 1. Sample of Material Parts
                                     Number          2008 & 2009 Contract            2010 Contract
                                     of Parts            Dollar Value                 Dollar Value
                                                          (in millions)               (in millions)
    Army Items                          98                   $ 77.5                       $24.1
    CITs                               120                     77.7                        41.7
    DLA Consumables                    168                     63.6                        24.6
     Subtotal                          386                   $218.8                      $90.4
    No Procurement History              13                      7.7                        2.3
    Not on Follow-on Contract           38                     19.3                        0.0
     Total                             437                   $245.8                      $92.7




4
  We did not review the portion of the contract related to performance-based logistics of the AH-64 Apache
D-unique components.
5
  We selected the sample of 437 NSNs based on the 2008 and 2009 contract requirements that were $100,000 or
greater when combined.

                                   FOR OFFICIAL USE ONLY
                                             4
Towards the end of the audit, we obtained access to the DoD EMALL6 and used inventory
and pricing information from that system for more than 3,000 NSNs on the follow-on
CCAD/Boeing contract.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and to
evaluate the effectiveness of the controls. We identified internal control weaknesses for the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics and
AMCOM.

Specifically, DoD has inadequate policies and procedures addressing the use of DoD
inventory before entering into contractor logistics support and performance-based logistics
arrangements or contracts. Additionally, the contracting officer and Boeing did not perform
adequate cost or price analyses to establish the reasonableness of proposed subcontract prices
that were used to support negotiated prices, and the contracting officer did not request
Defense Contract Audit Agency (DCAA) to conduct field pricing assist audits. Moreover,
DoD had inadequate policies and procedures addressing splitting versus consolidating
procurement and management requirements for consumable items.

For specific results of these weaknesses, see Findings A, B, and D of this report. We will
provide a copy of the report to the senior official responsible for internal controls in the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics and
AMCOM.




6
  The DoD EMALL is a full-service, eCommerce site that strives to be the single entry point for purchasers to
find and acquire off-the-shelf finished goods and services from the commercial marketplace and Government
sources. The DoD EMALL offers cross-store shopping to compare prices and other best value factors. The
DoD EMALL suppliers are Government-approved sources and comply with Federal Acquisition Regulation
requirements.

                                     FOR OFFICIAL USE ONLY
                                               5
Finding A. Excess DoD Inventory
AMCOM officials did not effectively use $339.7 million of DoD inventory before procuring
the same parts directly from Boeing under the CCAD/Boeing contract to support the Apache
and Chinook weapon systems. DoD inventory was not effectively used for the following
reasons.

       AMCOM officials did not initially stop “parts explosion”7 (primarily for the Chinook
        helicopter) after the CCAD/Boeing contract was awarded and they procured the parts
        from two sources to meet the same requirement.

       AMCOM officials transferred consumable item inventory to DLA Aviation in 2008
        as part of a 2005 BRAC supply and storage recommendation, but did not transfer
        requirements for the parts that are now being met by Boeing on the CCAD/Boeing
        contract.

       DLA, the Army, and Boeing all used different systems to manage inventory and
        requirements; no system exists that provides total asset visibility or requirements
        information; and no one had taken responsibility to periodically match available DLA
        inventory identified in the DoD EMALL with CCAD/Boeing contract requirements.

       DoD had inadequate policies and procedures addressing use of DoD inventory before
        entering into contractor logistics support and performance-based logistics sustainment
        strategies.

As a result, we identified $242.8 million to $277.8 million8 of excess DoD inventory that
could be used to satisfy CCAD Apache and Chinook helicopter contract requirements
($174.5 million to $198.7 million over the next 5 years with an additional $68.3 million to
$79.1 million that could be used to satisfy future contract requirements). In addition,
representatives from Boeing stated that they also had                 of Boeing inventory on
hand and                 due in for CCAD requirements.

DoD Inventory
According to the contractor-furnished material attachments to the follow-on CCAD/Boeing
contract, relating to our audit sample of 386 parts, AMCOM officials plan to buy
$555.8 million (contract requirements) of inventory from Boeing over the next 5 years.


7
  Parts explosion is a term used by AMCOM to define the process of buying the number of parts needed to
support the repair programs and depot rebuild requirements for a weapon system.
8
  Our calculation is based on the unit prices in the contractor-furnished material attachments in the follow-on
CCAD/Boeing unpriced contract action awarded February 1, 2010, which has not been fully negotiated and
definitized. We applied 2009 contract prices to requirements in the 2010-2014 contractor-furnished material
attachments that did not have an associated unit price due to Government-furnished material. The range of
excess inventory depends on whether DoD retains a 3-year or 5-year contingency stock for requirements outside
the CCAD/Boeing contract.

                                    FOR OFFICIAL USE ONLY
                                              6
However, based on June 2010 Federal Logistics Information System prices, we calculated
that DoD had $339.7 million of the same parts in inventory that must be used.

DoD warehouses contained high levels of inventory for much of the material in our audit
sample, but there was little to no demand for these materials outside the CCAD/Boeing
contract. Figure 3 shows a breakout of our audit sample by Army-managed parts, CITs, and
DLA Consumables, and the years of inventory in DoD warehouses. We used the 2009
demand levels as the basis to calculate the years of inventory or the time period before the
existing inventory will be consumed. The cutaway section of each pie graph depicts 0 to
5 years of demand or the amount of inventory that we think is reasonable to retain. In total,
DoD had greater than 5 years of inventory for 72 percent of the parts in our audit sample
(excluding CCAD/Boeing contract requirements).

Figure 3. Years of Existing Inventory Excluding CCAD/Boeing Contract Requirements




An example of the excess inventory is sample 218, a rotary tank assembly used on the
Chinook helicopter. AMCOM officials spent $143,065 to procure a quantity of 284 parts from
Boeing in 2009. The planned requirement on the follow-on contract is for 945 more during the
5-year performance period, at a total value of $485,974, or an average unit price of $514.26.
However, as of November 2009, DoD had 5,787 rotary tank assemblies in inventory–1,396 at

                               FOR OFFICIAL USE ONLY
                                         7
the Defense Distribution Depot Corpus Christi, Texas, and 4,391 at the Defense Distribution
Depot Red River, Texas. The value of this inventory, based on the June 2010 unit price listed
in the Federal Logistics Information System, was about $1.2 million or $203.00 per part.
According to DLA data, only 51 of the parts were requisitioned in 2009, and according to
AMCOM data, the annual requirement outside of the CCAD/Boeing contract was 27;
therefore, DoD had more than 100 years of inventory of this part. Figure 4 shows the rotary
tank assembly in storage at the Defense Distribution Depot Corpus Christi, Texas.

                     Figure 4. Sample 218 – Rotary Tank Assembly




See Appendix B for additional examples of excessive inventory.

Existing Inventory Could Satisfy CCAD Requirements
The existing DoD inventory could be used to satisfy requirements on the follow-on
CCAD/Boeing contract. Specifically, we identified $174.5 million to $198.7 million of
                                                       Apache and Chinook contract
         DoD has $242.8 million to                     requirements scheduled to be procured
   $277.8 million in existing inventory over                 the next 5 years that could be
                                                       satisfied with existing DoD inventory.
   that could be used to satisfy current We also identified an additional
      and future CCAD requirements.                    $68.3 million to $79.1 million that
                                                       could be used to satisfy future CCAD
requirements. Consequently, DoD has $242.8 million to $277.8 million in existing inventory
that could be used to satisfy current and future CCAD requirements.

Maximum Velocity Drawdown of Inventory
We developed two drawdown plans for the material on the follow-on CCAD/Boeing contract
relative to our audit sample of 386 NSNs that provide for retaining either 3 years or 5 years
of inventory as contingency stock. In both plans, DoD would then use the maximum amount
of remaining existing inventory to meet the planned workload requirements on the follow-on
contract.

DoD has $277.8 million of excess inventory (if 3 years of contingency stock is retained) that
could be used to meet CCAD contract requirements. Specifically, AMCOM officials could
                               FOR OFFICIAL USE ONLY
                                         8
use $198.7 million of the $277.8 million over the next 5 years, as shown in Table 2. For
example, the 2010 contract requirement for our sample of 386 NSNs was $99.1 million;
however, DoD has $68.7 million of excess inventory that could be used to satisfy this
requirement. If AMCOM officials used the excess inventory, they would have to fund the
contract for only $30.4 million in 2010.

         Table 2. DoD Inventory Could Be Used to Meet Contract Requirements
                           (3 Years of Contingency Stock)
                                     (in millions)
                                       Fiscal Year                                 Remaining
 386 NSNs*                                                             Subtotal    for Future   Total
                  2010      2011         2012        2013     2014                Requirement
Contract
                  $99.1    $103.9       $112.5       $118.1   $122.2   $555.8
Requirement
Army Items
                   24.5       20.9         16.8        12.1     10.5      84.8       $52.9      $137.7
(98 NSNs)
CITs
                   30.4       23.3         16.8        11.1     10.2      91.8        25.5       117.3
(120 NSNs)
DLA Items
                   13.8        5.6          1.7         0.7      0.3      22.1         0.7        22.8
(168 NSNs)

Excess DoD
                  $68.7     $ 49.8      $ 35.3       $ 23.9   $ 21.0   $198.7        $79.1      $277.8
Inventory
*
  Not all NSNs have excess inventory


Table 3 shows that DoD has $242.8 million of excess inventory (if 5 years of contingency
stock is retained) that could be used to meet CCAD contract requirements. Specifically,
AMCOM officials could use $174.5 million of the $242.8 million over the next 5 years.

         Table 3. DoD Inventory Could Be Used to Meet Contract Requirements
                           (5 Years of Contingency Stock)
                                     (in millions)
                                       Fiscal Year                                 Remaining
 386 NSNs*                                                             Subtotal    for Future   Total
                  2010      2011         2012        2013     2014                Requirement
Contract
                  $99.1    $103.9       $112.5       $118.1   $122.2   $555.8
Requirement
Army Items
                   22.9       17.0         13.6        11.1     10.3      74.9       $47.6      $122.5
(98 NSNs)
CITs
                   28.9       21.6         14.5        10.4      7.7      83.1        20.1       103.2
(120 NSNs)
DLA Items
                   11.0        3.5          1.3         0.5      0.2      16.5         0.6        17.1
(168 NSNs)

Excess DoD
                  $62.8     $ 42.1      $ 29.4       $ 22.0   $ 18.2   $174.5        $68.3      $242.8
Inventory
*
  Not all NSNs have excess inventory



                                     FOR OFFICIAL USE ONLY
                                               9
Our drawdown plans include first using the inventory identified by Boeing in January 2010
that the Army bought back under the initial CCAD/Boeing contract9 and inventory in the
Army work-in-process control account.10 Representatives from Boeing stated that they also
had                of Boeing inventory on hand and                 due in to support CCAD
contract requirements and that

Management Action Initiated
During the audit, we briefed AMCOM officials extensively on the excess inventory issue.
Subsequently, AMCOM officials developed a plan that addressed the Army-managed parts
for the Chinook helicopter. However, the AMCOM plan addressed only $83 million of the
$122.5 million to $137.7 million of existing Army-managed inventory over the next 10 years.
The Army had not taken any action to address the CITs or DLA-managed parts, which
accounted for $120.3 million to $140.1 million of the existing inventory we identified. The
Commander, AMC, and the Director, DLA, need to establish a team consisting of
representatives from AMCOM, DLA Aviation, CCAD, and Boeing to develop a plan to
drawdown excess DoD inventory that could be used to meet CCAD requirements.
Additionally, provisioning conferences should be held at least annually to revisit the excess
inventory situation until it is resolved. [Recommendation A.1]

Reasons for the Excessive Inventory
AMCOM officials did not effectively use DoD inventory because:

       the AMCOM Chinook team did not stop parts explosion during the performance
        period of the CCAD/Boeing contract;

       they transferred consumable items to DLA Aviation for management, but did not
        transfer demand requirements of those parts;

       there is no DoD system that provides total asset visibility of DLA, Army, and Boeing
        inventory; and

       DoD did not have adequate policies and procedures regarding the use of existing
        inventory before procuring material from private contractors under partnering
        agreements or performance-based logistics sustainment strategies.

However, an underlying reason for the excess inventory was that no one had taken
responsibility to periodically match available DLA inventory identified in the DoD EMALL
with CCAD/Boeing contract requirements.




9
  The initial CCAD/Boeing contract allowed for Boeing to identify excess material at the end of each option
year and the Army agreed to purchase the excess material, or buyback, for Boeing to then use as Government-
furnished material to support the requirements for subsequent option years. The Army’s obligation was to
purchase 100 percent of the excess contractor material at the end of each of the 4 option years.
10
   The work-in-process control account is a computer-controlled warehouse storage and retrieval system.

                                    FOR OFFICIAL USE ONLY
                                              10
Parts Explosion Not Stopped
AMCOM officials did not initially stop parts explosion, primarily for the Chinook, after
awarding the CCAD/Boeing contract and were procuring the parts from two sources to meet
the same requirement. In fact, almost 5 years after Boeing had been performing the contract
requirements, the parts explosion for the Chinook was still going on. The April 15, 2009,
business case analysis for the follow-on CCAD/Boeing contract indicated that the Chinook
parts explosion was still going on, but the Apache parts explosion had been stopped.

Although AMCOM officials placed the majority of the material on the CCAD/Boeing
contract by July 2006, they continued to purchase the Chinook parts from other sources. The
AMCOM Commander stated that at the beginning of the CCAD/Boeing contract, AMCOM
officials were not fully satisfied with the overall support Boeing was providing and were
concerned about the effect that Boeing’s nonperformance would have on the warfighter.
Their major concern was the amount of time the Army would need to obtain the parts if
Boeing did not provide the parts. Therefore, AMCOM officials kept a second source of
supply as a risk mitigation strategy because the overall mission of supporting the warfighter
would be seriously affected if the parts were not available when needed. However, the
Commander stated that over the life of the contract, confidence in Boeing as a partner greatly
increased, and AMCOM officials were very pleased with the results of the CCAD/Boeing
contract.

In April 2010, the Associate Director for Aviation, AMCOM Integrated Materiel
Management Center, stated that the Chinook parts explosion had stopped. However, there
was still inventory that was due in. The Chinook item manager stated that AMCOM officials
planned to drawdown the parts used in the depot on the follow-on contract and developed a
plan to offer these parts to Boeing as Government-furnished material.

AMCOM Consumable Item Transfers
In August 2008 AMCOM officials transferred the management of $91.3 million of
consumable items in our sample to DLA Aviation in accordance with a 2005 BRAC
recommendation. This was the value of 129 sample parts (54,565 individual parts) that we
                                             identified as transferred to DLA Aviation. (See
                                             Finding D for more details on consumable item
          AMCOM officials                    transfers, the 2005 BRAC supply and storage
   transferred $91.3 million of recommendation, and DoD’s strategy for
    inventory to DLA Aviation                managing parts.) In accordance with DoD
                                             Policy Manual 4140.26M, “Defense Integrated
         but did not transfer                Materiel Management Manual for Consumable
    requirements for the parts.              Items,” May 1997, AMCOM officials
                                             transferred the parts on a nonreimbursable basis
to DLA Aviation. Although AMCOM officials transferred the management of these parts to
DLA Aviation, they did not also transfer requirements for the majority of the parts, especially
those used mainly for depot-level repairs. Therefore, AMCOM officials transferred
$91.3 million of inventory to DLA Aviation but did not transfer requirements for the parts.
AMCOM officials procured the parts to fulfill CCAD requirements through the
CCAD/Boeing contract instead of using DLA inventory.

                               FOR OFFICIAL USE ONLY
                                         11
As shown in Figure 3, 75 percent of the CITs had more than 5 years of inventory. If
AMCOM officials continue to procure the parts from Boeing instead of using the existing
inventory transferred to DLA Aviation, the parts will remain unused in DLA warehouses,
and the Army will be paying for material twice, first when it purchased the parts that it
transferred to DLA Aviation, then again when it buys the same parts from Boeing.

For example, one of the consumable items that AMCOM officials transferred to DLA
Aviation was a linear actuating cylinder piston, NSN 1650-01-311-2580 (Sample 25). As of
April 2010, DLA had 439 on hand and 1,420 due in from an AMCOM contract, for a total of
1,859 in inventory at $4,864.50 each; a total of $9.0 million in inventory. Only 42 were
requisitioned from DLA in 2009, and these were requisitioned primarily by AMCOM in the
first 2 quarters of 2009. Since the second quarter of 2009, only one had been requisitioned;
therefore, DLA had more than 44 years of inventory for this part because there is almost no
demand for the part outside the CCAD/Boeing contract. AMCOM officials plan to spend an
additional $4.1 million to procure 868 more of this part from Boeing during the 5-year
performance period of the follow-on CCAD/Boeing contract. Figure 5 shows the linear
actuating cylinder piston, which is used on the Chinook helicopter.

                 Figure 5. Sample 25 – Linear Actuating Cylinder Piston




                 Source: Defense Distribution Depot Susquehanna, Pennsylvania

The parts that were due in to the DLA inventory were from an AMCOM contract with
Transaero, Inc., and were scheduled to be delivered through August 2012. In response to a
discussion draft of this report, AMCOM officials took prompt action to begin a review of due
in parts to determine the cost to terminate existing contract deliveries. AMCOM officials
stated that once the data are received, they will conduct a review and take action to terminate
the contracts when it is cost-effective. We commend AMCOM officials for their prompt
action, and no further action is required.

According to the AMCOM business case analysis for BRAC CITs, consumable items that
were part of contractor logistics support contracts, such as the CCAD/Boeing contract, were
to continue to be managed by the contractor within the Army system. The business case
analysis defined consumable items that are part of a contractor logistics support contract as
any item managed, stocked, stored, and issued by a contractor to military operations and

                               FOR OFFICIAL USE ONLY
                                         12
maintenance activities. The business case analysis also stated that removing the consumable
items from the contractor logistics support contracts and transferring them to DLA Aviation
for management would undermine the outsourcing efforts and result in inefficiencies and
readiness issues. Therefore, it appears that the consumable items AMCOM officials
transferred to DLA Aviation in August 2008 should have been coded to stay within the Army
system and been waived from 2005 BRAC transfer requirements. If the Army continues to
transfer items to DLA Aviation to meet BRAC requirements, it needs to ensure that those
items are coded correctly for transfer and also needs to transfer the demand and requirements
for those parts. If not, this situation will continue to occur, and existing inventory may go
unused while the Army pays twice to acquire the same items from private contractors under
partnering agreements and other performance-based logistics sustainment strategies.

The Principal Deputy Assistant Secretary of Defense (Logistics and Materiel Readiness)
needs to develop an equitable plan to use the consumable items transferred to DLA Aviation
under the 2005 BRAC recommendations that do not have sufficient demand outside the
CCAD/Boeing contract. [Recommendation A.2.a]

The Principal Deputy Assistant Secretary of Defense (Logistics and Materiel Readiness)
should also issue policies and procedures that instruct the Services not to transfer
consumable items to DLA when demand requirements are going to be met under contractor
logistic support or performance-based logistics contracts managed by the Services.
[Recommendation A.2.b.(1) – Internal Control]

CIT Pricing Error
The transfer price of the 129 consumable items that AMCOM officials transferred to DLA
Aviation in August 2008 included an Army cost recovery rate that DLA normally decrements
to establish the DLA cost-based price that DLA then marks up with its cost recovery rate to
                                          establish a standard unit price, or the DLA sell
    DLA Aviation applied its              price. However, because of system problems, DLA
       cost recovery rate to              did not decrement the Army transfer price but
                                          instead used the transfer price as the DLA standard
    Army transfer items that              unit price. Then when the DLA system updated
     also included the Army               prices for parts in 2010, the system automatically
        cost recovery rate.               used the DLA standard unit price as the cost-based
                                          price and marked that price up by the DLA cost
                                          recovery rate of 41 percent. Consequently, DLA
used the Army transfer price that included the Army markup and then added the DLA
41 percent cost recovery or, in essence, DLA Aviation applied its cost recovery rate to Army
transfer items that also included the Army cost recovery rate.

Management Action
After we informed DLA Aviation of this issue during the audit, the DLA Aviation Budget
Division Chief took prompt action and had DLA Aviation analysts implement a system
change request to rewrite the program and correct the prices of all CITs transferred in
August 2008, not just the 129 sample items. In addition, the Division Chief stated that the
system change should prevent such an error from occurring in future consumable item

                               FOR OFFICIAL USE ONLY
                                         13
transfers because the system will automatically apply a decrement to the standard unit price
when a cost-based price is not available. We commend DLA Aviation for its prompt action
during the audit to resolve the pricing issue, and no further action is required.

No Total Asset Visibility and Unclear Responsibilities
DLA, the Army, and Boeing all used different systems to manage inventory and
requirements, and no system exists that provides total asset visibility or requirements
information. The Army used the Logistics Modernization Program (LMP), Boeing used the
Government On-Line Data System (GOLD), and DLA used the Enterprise Business System
(EBS) to manage each of their inventories. Moreover, no one had taken responsibility to
periodically match available DoD inventory with requirements.

Logistics Modernization Program System
In February 1998, AMC began an effort to replace its existing materiel management systems
with LMP. Before LMP, AMC relied on a 30-year-old system to manage its logistics
operations and supply critical equipment and repair parts to the soldier. The lack of a single,
unified supply system across the Army fostered an environment in which numerous
organizations developed independent material management systems. As a result, the Army
faced serious challenges in managing its supply chain and distribution infrastructure. As of
February 2007, LMP managed $4.5 billion worth of inventory, processed transactions with
50,000 vendors, and integrated with more than 80 DoD systems. When fully implemented,
LMP is expected to include approximately 21,000 users at 104 locations across the globe,
and it will be used to manage more than $40 billion worth of goods and services, such as
inventory managed at the national level and repairs at depot facilities. According to the
Government Accountability Office (GAO), LMP was implemented at AMCOM and CCAD
in May 2009.11

Although the Army has visibility of inventory, requirements, and due in quantities of Army-
managed parts through LMP, LMP does not provide visibility of inventory or requirements
for DLA-managed parts or the consumable items that the Army transferred to DLA.
According to members of the AMCOM Apache and Chinook Airframe Divisions, LMP gives
AMCOM officials insight into only the Army inventory, stock on hand, and stock expected
to be received, as well as demand information; it does not allow AMCOM officials to see the
total amount of inventory DoD has as a whole. However, the DoD EMALL system can
provide this information for DLA-managed parts as discussed in the “Enterprise Business
System” section.

Government On-Line Data System
GOLD is Boeing’s inventory management system. I-GOLD is a system with additional
material requirement planning capabilities that supplements the GOLD system. I-GOLD
handles inventory control, financial tracking, and job tasks. In addition, I-GOLD ensures
that applications are integrated and communicating with each other. I-GOLD does not have


11
 GAO-10-461, “Defense Logistics: Actions Needed to Improve Implementation of the Army Logistics
Modernization Program,” April 2010.

                                 FOR OFFICIAL USE ONLY
                                           14
visibility of any other inventory that the Army or DLA may have that could meet CCAD
requirements. Boeing officials stated that they have limited access to DLA inventory and
AMCOM inventory data.

Enterprise Business System
EBS is DLA’s primary information technology solution to support the evolving logistics
needs of DoD. EBS provides functionality in five core process areas: (1) order fulfillment–
customer service and requisition processing, (2) planning–demand and supply planning,
(3) procurement–sourcing and supplier management, (4) technical quality–product data and
quality management, and (5) finance–financial processing and management. EBS includes
                                                    visibility of only DLA inventory levels
    The DoD EMALL provides easy                     and demands, not any Army-managed
                                                    inventory data. However, the DLA
     access to stock on hand levels,                Aviation performance-based logistics
    monthly consumption data, and                   program manager stated that all Service
   DLA standard unit prices for all                 personnel can access the DoD EMALL
                                                    through a common access card.
           DLA-managed parts.                       Contractors, such as Boeing, would need
                                                    Public Key Infrastructure certificates if
they do not have common access cards to access DoD EMALL. DLA is the DoD’s executive
agent for the DoD EMALL. The DoD EMALL provides easy access to stock on hand levels,
monthly consumption data, and DLA standard unit prices for all DLA-managed parts. DoD
customers and suppliers, such as Boeing, have the ability to upload thousands of NSNs using
the EMALL supportability analysis stock out report and then download the inventory data.

Using the DoD EMALL, we were able to obtain stock on hand data, consumption data, and
the DLA standard unit price for 3,484 of the 3,989 NSNs on the follow-on CCAD/Boeing
contract. As of September 2010, DLA had inventory valued at $141.0 million that could be
applied to the follow-on contract. This same inventory would cost $251.8 million if procured
from Boeing on the follow-on contract. See Findings B and D for pricing issues we
identified on the CCAD/Boeing contract.




                              FOR OFFICIAL USE ONLY
                                        15
As shown in Table 4, DLA has $157.0 million (using the contract value) of inventory with
either no demand or more than 5 years of demand that should be used to meet CCAD
requirements.

                  Table 4. DLA Has Excess Inventory That Should be Used
                              to Meet CCAD Requirements
                                      (in millions)
                                    Number of              DLA Inventory                 Contract
        Years to Buy                  NSNs                    Value                       Value*
      No demand                           441                    $  7.4                    $ 11.2
      >15                                 683                      78.3                     114.4
      > 5 to 15                           532                      16.6                      31.4
       Subtotal                         1,656                    $102.3                    $157.0
      <5                                1,418                      38.7                      94.8
      No inventory or not
      in DoD EMALL                        915                     N/A                       N/A
       Total                            3,989                    $141.0                    $251.8
      *
       The 2010 unit price or first available subsequent year price was used to calculate contract value.
      In addition, 297 NSNs were valued at 0 because no unit price was available or the unit of issue
      was not comparable.


This is not the first time we identified unused DoD inventory. During our review of the Air
Force Secondary Power Logistics Solution Contract,12 we identified about $70 million of
unused DoD inventory because the Air Force was buying the same parts from a private
contractor through a performance-based logistics arrangement. A clause in Army contracts
requiring the use of existing Government inventory before procuring from a private
contractor will help. However, DoD still needs to implement comprehensive policies and
procedures requiring reviews of inventory levels and the use of existing DoD inventory
before procuring the same parts from a private contractor under a contractor logistics support
contract or other performance-based logistics sustainment strategies. If this does not happen,
hundreds of millions of dollars will be wasted as the inventory sits in DLA warehouses, and
DoD pays private contractors to provide the same parts.

The Principal Deputy Assistant Secretary of Defense (Logistics and Materiel Readiness)
needs to develop and issue policy that requires the Services to use the DoD EMALL to
determine whether DLA has excess inventory for all consumable items being procured from
sources other than DLA under either contractor logistics support or performance-based
logistics support sustainment strategies. The policy should also require the Services to
quantify the excess inventory and develop a plan to use any excess inventory identified.
[Recommendation A.2.b.(2) – Internal Control]


12
 DoD IG Report No. D-2010-063, “Analysis of Air Force Secondary Power Logistics Solution Contract,”
May 21, 2010.

                                    FOR OFFICIAL USE ONLY
                                              16
Unclear Responsibilities
Each organization involved with material management for CCAD requirements has its own
system to track requirements, stock on hand, and stock due in; but none of these systems are
connected. Also, no one had taken responsibility to determine whether sufficient inventory
was available to meet the requirements before procuring new parts, and no one has been
assigned the responsibility to match CCAD requirements with excess DoD inventory.

The CCAD/Boeing contract did not include a clause requiring the use of existing inventory,
but authorized Boeing to use DLA as a source of supply. Specifically, the contract stated that
Boeing was authorized to use DLA as a Government source of supply if Boeing determined
that DLA was the best value to the Government in terms of price and delivery. The follow-
on contract contained similar language encouraging Boeing to use DLA as a source of supply
but still does not require Boeing to use existing inventory before procuring new parts.
Specifically, the follow-on contract requirement states that “Boeing is encouraged to utilize
DLA as the preferred supplier for DLA-managed parts that are determined to be the best
value to the Government in terms of price, delivery, and quality.” See Finding D for
information on the Boeing markup on parts obtained from DLA.

On February 23, 2004, AMCOM officials notified DLA of its intention to enter into a
partnership contract with Boeing to provide technical, engineering, and logistical services and
100 percent of depot-related material in support of the Apache and Chinook weapon systems at
CCAD. AMCOM officials informed DLA that Boeing would be the prime contractor, so DLA
and AMCOM would become less involved in the procurement of the materials; however, there
is no evidence that AMCOM officials provided DLA with the specific part-level requirements
that would be placed on the contract. Neither of the acquisition plans for the initial or follow-
on contracts indicated that DLA was involved with any of the planning for the contracts. The
bundling strategy, approved before the award of the initial CCAD/Boeing contract, stated that
for DLA-managed parts, Boeing would establish a memorandum of understanding to establish
DLA as the central source of supply, which would result in no impact to DLA. However, the
Boeing Program Manager for the contract stated that Boeing attempted to negotiate with DLA
to use DLA as a source of supply but an agreement was never finalized because DLA could
not guarantee availability of parts when needed.

If AMCOM officials want Boeing to manage consumables items for CCAD requirements,
they need to assign responsibility and make Boeing accountable through contract terms and
metrics for eliminating the excess DoD inventory. [Recommendation A.3.a – Internal
Control]

Inadequate DoD Policies and Procedures
DoD had inadequate policies and procedures for addressing use of DoD inventory before
entering into contractor logistics services and performance-based logistics sustainment
strategies wherein contractors provide materials that were previously provided by DoD. We
identified guidance encouraging the use of DLA inventory but were unable to identify any
policies or procedures requiring DoD inventory excess to requirements be used before
procuring the same parts from a private contractor.


                               FOR OFFICIAL USE ONLY
                                         17
DoD Guidance
DoD Instruction 4151.21, “Public-Private Partnership for Depot-Level Maintenance,”
April 25, 2007, implements policy, assigns responsibilities, and prescribes procedures for
depot-level maintenance public-private partnerships. This policy does not require that DLA
inventory be drawn down by contractors before procuring new inventory for the partnership;
however, it does acknowledge that DLA distribution centers may be affected and, therefore,
should be included in planning partnerships to reduce the effect on them. Specifically, the
policy states that DLA distribution depots co-located with depot-level maintenance activities,
and DLA or Military Department logistics activities managing materiel provided to depot-
level maintenance activities, may be affected by a depot-level public-private partnership.
The instruction states that these affected activities should be invited to participate in the
planning for depot-level partnerships, as appropriate.

The Defense Acquisition University, “Performance Based Logistics: A Program Manager’s
Product Support Guide,” March 2005, discusses developing the supply chain management
strategy, stating that this is critical to the success of any performance-based logistics effort.
The guide states that unique DoD inventory should always be considered and that a plan for
drawdown should be in place before buying spares and repairs from private sources; but the
guide does not require that this be done.

Management Action
In May 2010, we briefed the Principal Deputy Assistant Secretary of Defense for Logistics
and Materiel Readiness on the audit findings. He stated that his office should work with the
Office of Defense Procurement and Acquisition Policy to ensure that the excess inventory
issue does not occur in the future. During this meeting, the AMC Director of Support
Operations stated that he was drafting policy that would require a mandatory contract clause
in logistics support contracts with private contractors requiring the review and use of existing
DoD inventory before going to a second source of supply. Our recommendation relating to
the use of the DoD EMALL should be included in this policy.

On August 11, 2010, AMC issued a policy memorandum, “Order of Preference for Utilizing
Repair Parts from Various Source of Supply (SOS) Inventories in Fulfilling Depot-Level
Maintenance Oriented Performance Based Logistics (PBL) Agreements and Public-Private
Partnerships.” AMC issued the policy to ensure its Life Cycle Management Commands
establish requirements for contractors to “. . . first use Government inventories to meet depot-
level maintenance oriented performance-based logistics and public-private partnerships before
acquiring new parts from commercial sources of supply.” The policy requires Life Cycle
Management Commands to deplete AMC inventories first and then to use DLA inventory for
parts for which DLA is the primary source of supply. Maintenance support contactors can
purchase parts from commercial sources only after all Government inventory is exhausted.
The AMCOM contracting officer should incorporate this requirement into the undefinitized
follow-on CCAD/Boeing contract, as described in the recommendation for contractor
accountability.




                                FOR OFFICIAL USE ONLY
                                          18
Other Inventory Issues
We identified additional inventory issues on two parts that we reviewed during the audit.
DLA and Boeing had excess inventory for both of the parts, but AMCOM officials did not
have any planned requirements on the follow-on CCAD/Boeing contract for one of the parts
and was no longer procuring the other part in individually wrapped packages.

Sample 276 – Direct Current Motor (NSN 6105-01-120-4285)
AMCOM officials did not have any planned requirements for the direct current motor on the
follow-on CCAD/Boeing contract. According to CCAD officials, there is no need to replace
this part because it is reworked when it is sent to the depot for repair. However, as of
November 2009, AMCOM had 653 new direct current motors in inventory–572 at the
Defense Distribution Depot Corpus Christi, Texas, and 81 at other Defense Distribution
Depots that it purchased from General Electric for a unit price of about $877.85 or a total
inventory value of $573,236. Additionally, Boeing had 20 parts in its inventory and the
Boeing unit price for the part was            . AMCOM officials need to determine whether it
is more cost-effective to use some of the excess new motors in inventory versus reworking
older motors that are sent to the depot for repair. [Recommendation A.3.b]

Figure 6 shows the direct current motor, which is used on the Chinook helicopter, in storage
at the Defense Distribution Depot Corpus Christi, Texas.

                      Figure 6. Sample 276 – Direct Current Motor




Sample 290 – Shim (NSN 5365-00-859-6162)
AMCOM officials procured individually wrapped shims, which are used on the Chinook
helicopter. However, to more effectively meet requirements, AMCOM officials began
procuring the shims in packages of 25. According to DLA data, only one shim is used per
year. As of September 2010, DLA had 17,591 of the individually wrapped shims in
inventory, valued at $282,687, or a unit price of $16.07. Boeing officials stated that it had
865 of the individually wrapped shims and 115 of the packages of 25 shims in inventory. It
also had 354 more of the packages of 25 shims due in. AMCOM officials need to develop a
plan to use and/or repackage the shims in DLA inventory to meet current requirements and
consume the $282,687 of excess inventory. [Recommendation A.3.c]


                               FOR OFFICIAL USE ONLY
                                         19
Figure 7 shows the shim. The first picture is a shim from a package of 1, and the second
picture is a package of 25 shims on the aircraft.

                                Figure 7. Sample 290 – Shim




Source: Defense Distribution Depot Corpus Christi, Texas

Management Comments on the Finding and Our Response

Department of the Army Comments
The Commander, AMCOM, stated that the AMCOM Integrated Materiel Management
Center performed a detailed review of inventory available to support the Apache and
Chinook platforms at CCAD and identified an estimated value of AMCOM and DLA excess
inventory of $72.2 million versus the DoD IG estimate. The Commander stated that only
seven of the Apache items, valued at $108,446, would be offered to CCAD for consumption
before purchasing stock from Boeing. He stated that the other Apache items were not
considered to be in an excess position and would be consumed by non-partnership demands.
The Commander also stated that excess AMCOM-managed inventory for the Chinook was
estimated at $62.7 million and that excess DLA inventory specific to CCAD support for the
Chinook was $7.9 million.

Our Response
We disagree with the AMCOM calculations of total excess DoD inventory. We met with
AMCOM Integrated Materiel Management Center representatives on numerous occasions
and provided detailed worksheets of our calculations of excess inventory. As stated in
Appendix A of the report, we used data provided by AMCOM Integrated Materiel
Management Center and Boeing representatives as the starting point for our excess inventory
calculations for the Army-managed items. We stand by our calculations. Additionally, our
calculations of excess inventory were based on the contract price to procure the items from
Boeing versus the current Federal Logistics Information System inventory value, which
makes a difference in the value of the inventory. We believe our calculations in the report
are conservative.

After receiving the Commander’s comments on the draft of this report, we requested that
AMCOM provide its basis for the inventory value in the Commander’s comments. Based on
                                FOR OFFICIAL USE ONLY
                                          20
the data provided, Apache representatives did not consider DLA inventory levels in their
calculations of excess inventory. Although Chinook representatives appear to have
considered inventory of DLA-managed items, the data were not complete because DLA
personnel calculated inventory requirements based on the Army’s share of the annual
demand for each part. This approach is flawed because DLA personnel calculated the
Army’s share of the CITs as zero because the Army had never procured any of these parts
from DLA.

We obtained updated inventory data from the DoD EMALL for the NSNs on the follow-on
CCAD/Boeing contract on March 15, 2011. The DLA inventory value had increased since
we last checked the DoD EMALL in September 2010 (see Table 4). Specifically, for parts
with either no demand or greater than 5 years of demand, DLA inventory had increased from
$102.3 million ($157.0 million at the contract price) to $139.6 million ($200.0 million at the
contract price). As shown in Table 5, for just the parts with more than 15 years of demand,
DLA has $145.0 million of inventory at the contract price and only $4.0 million of
requirements for those parts, while CCAD has $29.0 million of requirements. The Army
must address this issue.

     Table 5. Excess DLA Inventory for CCAD Requirements as of March 15, 2011
                                    (in millions)
                                                                                Annual Requirements at
                                          Total DLA Inventory Value                Contract Price
                                            DLA
                         Number of        Standard           Contract
    Years to Buy           NSNs           Unit Price          Price1             DLA1,2            CCAD3
No demand                     430           $  7.7            $ 12.8              $ 0.0             $ 7.9
>15                           712            102.2             145.0                4.0              29.0
> 5 to 15                     542             29.7              42.2                4.9              13.6
 Subtotal                   1,684           $139.64           $200.0              $ 8.9             $50.65
<5                          1,427             44.9              86.4               80.3              28.1
No inventory or not
in DoD EMALL                  878            N/A               N/A                 N/A               N/A
 Total                      3,989           $184.5            $286.4              $89.2             $78.7
1
  We used the 2011 unit price or first available subsequent year price to calculate contract price and DLA
requirements values. In addition, 298 NSNs were valued at 0 because no unit price was available or the unit of
issue was not comparable.
2
  Includes any CCAD requirements requisitioned through DLA.
3
  We used the 2011 contract requirement and unit price or the first available subsequent year requirement and
price to calculate CCAD requirement value. In addition, 274 NSNs were valued at 0 because no unit price or
contract requirement was available.
4
  We compared our audit sample items to the excess DLA inventory and about half of the excess DLA
inventory ($67.5 million) is related to parts that the Army transferred to DLA as part of the BRAC 2005 CIT
requirements. There is an additional $18.0 million of contract due-in parts not included in our inventory on
hand calculation.
5
  Subtotal does not add due to rounding.



                                     FOR OFFICIAL USE ONLY
                                               21
As a result of this audit, the Office of the Secretary of Defense and the Department of the
Army issued policy memoranda addressing the use of existing inventories (Army- and DLA-
managed items) before procuring items from commercial supply sources. However, we have
concerns that AMCOM officials will address the extent of the inventory issue. Therefore, we
will closely monitor the situation over the years until it has been resolved. We will provide a
quarterly report of DoD EMALL inventory levels for parts on the follow-on CCAD/Boeing
contract to show progress that AMCOM has made in drawing down the excess inventory.
We will send a copy of the quarterly report to the Office of the Secretary of Defense and
Department of the Army officials addressed in this report.

Recommendations, Management Comments, and Our Response
A.1. We recommend that the Commander, Army Materiel Command, and the
Director, Defense Logistics Agency, establish a team consisting of representatives from
the Aviation and Missile Life Cycle Management Command, Defense Logistics Agency
Aviation, Corpus Christi Army Depot, and Boeing to develop a plan to drawdown
excess DoD inventory that could be used to meet Corpus Christi Army Depot
requirements. Additionally, provisioning conferences should be held at least annually
to revisit the excess inventory situation until it is resolved.

Department of the Army Comments
The Executive Deputy to the Commanding General, AMC, agreed but stated that the
recommendation should be redirected to Headquarters, Department of the Army, Deputy
Chief of Staff, G-4 (Logistics), as the lead agency to handle Army policy and regulations.
The Executive Deputy stated that AMC will participate in all teams formed and will monitor
the drawdown of excess inventory during the quarterly due diligence reviews chaired at the
senior executive level. The Executive Deputy also stated that memoranda recently released
by the Office of the Secretary of Defense and the Assistant Secretary of the Army for
Acquisition, Logistics, and Technology should satisfy all future requirements to use
Government-owned inventory as the first look.

Defense Logistics Agency Comments
The Executive Director, Material Policy, Process, and Assessment, DLA, agreed.

Our Response
The Executive Deputy to the Commanding General, AMC, and the Executive Director,
Material Policy, Process, and Assessment, DLA, are responsive. Although they did not
provide a detailed action plan, the Commander, AMCOM, provided a detailed plan in
response to Recommendation A.3.a that meets the intent of this recommendation. Therefore,
we did not redirect the recommendation, and no further comments are required.

A.2. We recommend that the Principal Deputy Assistant Secretary of Defense
(Logistics and Materiel Readiness):

       a. Develop an equitable plan to use the consumable items transferred to Defense
Logistics Agency Aviation under the 2005 Base Realignment and Closure

                               FOR OFFICIAL USE ONLY
                                         22
recommendations that do not have sufficient demand outside the Corpus Christi Army
Depot contract with Boeing.

Assistant Secretary of Defense (Logistics and Materiel Readiness)
Comments
The Principal Deputy Assistant Secretary of Defense (Logistics and Materiel Readiness)
agreed. The Principal Deputy stated that he issued a memorandum to the Military
Departments and DLA on December 20, 2010, (see Office of the Assistant Secretary of
Defense [Logistics and Materiel Readiness] comments in the Management Comments section
of this report) addressing the use of on hand and due-in Government inventory on
performance-based logistics and partnering arrangements. Therefore, he stated that no
additional plan is required.

Our Response
The Principal Deputy Assistant Secretary of Defense (Logistics and Materiel Readiness)
comments are partially responsive. The December 20, 2010, memorandum states that it
should be standard practice to use on hand and due-in Government inventory on all
performance-based logistics and partnering agreements. The memorandum also states that
when commercial sources are used for performance-based logistics arrangements, inventory
levels and forecasting need to be appropriately adjusted to meet changes in demand. Further,
in the memorandum, the Principal Deputy stated that he is currently strengthening policy to
emphasize the use of Government-owned inventory before procuring contractor-owned
inventory. However, his comments did not address an equitable plan to use the $91.3 million
of consumable items that AMCOM officials transferred at no cost to DLA Aviation in
August 2008 to ensure the Army does not pay for these items again. Because the items were
transferred to DLA at no cost, we do not believe it is appropriate for the Army to pay DLA
for these items when DLA is not going to support the items in the future. Therefore, we
request that the Principal Deputy provide additional comments in response to the final report.

       b. Develop and issue policy and procedures that:

               (1) Instruct the Services not to transfer consumable items to the Defense
Logistics Agency when demand requirements are going to be met under contractor
logistics support or performance-based logistics contracts managed by the Services.

Assistant Secretary of Defense (Logistics and Materiel Readiness)
Comments
The Principal Deputy Assistant Secretary of Defense (Logistics and Materiel Readiness)
partially agreed. The Principal Deputy stated that policy addressing the transfer of
consumable items already exists in DoD Manual 4140.26-M, volume 2, “The DoD Integrated
Materiel Management (IMM) for Consumable Items: Item Management Coding (IMC)
Criteria.” He also stated that the policy states that consumable items that have been included
in a performance-based life-cycle product support can be retained by the Military
Departments’ contractor or agent.



                               FOR OFFICIAL USE ONLY
                                         23
Our Response
Although the Principal Deputy Assistant Secretary of Defense (Logistics and Materiel
Readiness) partially agreed, his comments are responsive. No further comments are required.

               (2) Require the Services to use the DoD EMALL to determine whether
the Defense Logistics Agency has excess inventory for all consumable items being
procured from sources other than the Defense Logistics Agency under either contractor
logistics support or performance-based logistics sustainment strategies, quantify the
excess inventory, and develop a plan to use any excess inventory.

Assistant Secretary of Defense (Logistics and Materiel Readiness)
Comments
The Principal Deputy Assistant Secretary of Defense (Logistics and Materiel Readiness)
disagreed. The Principal Deputy stated that the DoD EMALL is a tool that can be used to
identify quantities and prices of DLA consumable inventory, but it is not a tool to identify
excess inventory, because excess inventory levels are based on demand at a given time. He
stated that DoD policy requires that Military Service program managers collaborate with
Military Service and DLA materiel managers and invite their participation in developing and
selecting performance-based materiel support strategies. He stated that this process should
also be used to assess the best inventory strategy, and his office would reinforce the guidance.

Our Response
The Principal Deputy Assistant Secretary of Defense (Logistics and Materiel Readiness)
comments are partially responsive. The Principal Deputy stated that his office would
reinforce DoD policy requiring Military Service program managers to collaborate with
Military Service and DLA materiel managers to assess inventory strategies. We believe
collaboration is a good practice, and that the DoD EMALL could and should be used to
identify existing inventory before procuring from contractors. We plan to conduct additional
audits in this area; therefore, we are not requesting the Principal Deputy to provide additional
comments in response to the final report.

A.3. We recommend that the Commander, Army Aviation and Missile Life Cycle
Management Command:

       a. Determine and assign responsibility for managing consumable item
requirements to meet Corpus Christi Army Depot demands and, if Boeing is assigned
responsibility, instruct the contracting officer to hold Boeing accountable through
contract terms, conditions, and appropriate metrics for eliminating the excess DoD
inventory.

Department of the Army Comments
The Commander, AMCOM, agreed, stating that a memorandum of agreement is currently
being developed between the AMCOM Integrated Materiel Management Center, CCAD,
DLA, and Boeing. He also stated that the memorandum will require DLA to set aside
available inventory for use on the partnership contract to effectively execute the requirement.

                               FOR OFFICIAL USE ONLY
                                         24
He further stated that the memorandum will ensure that Government inventory is used as a
first priority, and the contract will be modified to reflect the use of applicable Government-
furnished inventory. The Commander stated that inventory management is at the
Government’s discretion; therefore, Boeing will be directed to utilize Government inventory
and excess inventory will be appropriately managed under this contract. The Commander
also stated that the follow-on contract requires Boeing to use DLA as the preferred supplier
for DLA-managed items that are determined to be the best value to the Government in terms
of price, delivery, and quality. The Commander planned to execute the memorandum of
agreement by March 31, 2011.

Our Response
The Commander, AMCOM, comments are responsive. However, as of the date of this
report, the Commander had not executed the memorandum of agreement. We request that
the Commander, AMCOM, provide us with a copy when issued.

        b. Determine whether it is more cost-effective to use some of the 653 excess new
direct current motors in inventory (national stock number 6105-01-120-4285), valued at
$573,236, versus reworking motors sent to the Corpus Christi Army Depot for repair.

Department of the Army Comments
The Commander, AMCOM, agreed. The Commander stated that he queried CCAD to
identify the cost of reworking the motors. He stated that if it is cost-effective, AMCOM will
use the motors in its inventory to meet FY 2012 and part of FY 2013 requirements. He also
stated that using current workload projections, the AMCOM inventory would be depleted
during FY 2013.

Our Response
The Commander, AMCOM, comments are responsive. No further comments are required.

      c. Develop a plan to use and/or repackage the shims (national stock number
5365-00-859-6162) in Defense Logistics Agency inventory, valued at $282,687, to meet
current Corpus Christi Army Depot requirements.

Department of the Army Comments
The Commander, AMCOM, agreed. The Commander stated that if it is cost-effective,
AMCOM will use the shims in DLA inventory to meet FY 2012 and part of FY 2013
requirements. He also stated that using current workload projections, the DLA inventory
would be depleted during FY 2013.

Our Response
The Commander, AMCOM, comments are responsive. No further comments are required.




                               FOR OFFICIAL USE ONLY
                                         25
Finding B. Spare Parts Pricing Problems
AMCOM officials did not effectively negotiate fair and reasonable prices for noncompetitive
spare parts procured on the CCAD/Boeing contract. We reviewed costs for 24 high-dollar
parts valued at about $34.0 million and identified serious pricing problems with 18 of the
parts valued at about $23 million. These pricing problems occurred because neither the
Army13 nor Boeing officials performed adequate cost or price analyses to establish the
reasonableness of the proposed subcontract prices that were used to support negotiated
prices. The following pricing problems also occurred because Boeing officials routinely
proposed, and AMCOM officials accepted, egregiously deficient cost or pricing data based
on unrealistically low quantities that had no relationship to the quantities required or the
actual price Boeing negotiated with its subcontractors.

        Boeing furnished data to support prices based on dealer quotes, commercial catalog
         prices for quantities of one, outdated historical data for quantities of one, and
         competitive commercial quotes for quantities of one to three.

        Boeing furnished certified cost or pricing data that were not complete, accurate, and
         current at the time of the material certification cutoff date (seven parts).

        Boeing routinely negotiated significantly lower prices with its suppliers shortly after
         negotiating prices with AMCOM officials and did not share range pricing/quantity
         discounts with the Army when procurement quantities were increased or when
         Boeing combined buys, resulting in lower unit prices (seven parts).

        Two parts were priced incorrectly on the follow-on contract, and two other parts were
         switched from “buy” (purchased parts) to “make” (Boeing manufactured) at
         significantly higher prices without adequate justification (four parts).

As a result, we calculated that Boeing charged the Army about $13 million (131.5 percent)
more than the fair and reasonable prices for the 18 parts14 ($23 million versus $10 million).
Costs for six parts valued at $11.3 million were in line with negotiated prices. During the
audit, Boeing provided the Army a credit of $324,616 for one of the incorrectly priced parts.
If pricing problems are not addressed, the Army could experience similar overpricing issues
on the follow-on CCAD/Boeing contract. Additionally, several potential nonconforming
parts were brought to our attention that need to be addressed.

Guidance
Federal Acquisition Regulation (FAR) 15.403-4, “Requiring Certified Cost or Pricing Data,”
(section 2306a, title 10, United States Code [10 U.S.C. § 2306a] and 41 U.S.C. § 254b)
establishes the threshold for obtaining certified cost or pricing data at $700,000 unless an

13
   The Director Aviation Logistics, AMCOM Contracting Center, stated that a cost/price analysis team is being
developed to assist AMCOM in contract negotiations.
14
   Includes two parts priced incorrectly on the follow-on contract.

                                    FOR OFFICIAL USE ONLY
                                              26
exception applies. Government contractors are required to submit cost or pricing data and
certify that such data are accurate, complete, and current upon agreement on price. If it is
determined that the contract price was increased because the contractor submitted defective
cost or pricing data and the Government relied on the data submitted, a downward
adjustment to the contract price, including profit or fee, is required. The legislative intent
was to give the Government informational parity with contractors and subcontractors during
price negotiations so the Government could avoid excessive prices. The AMCOM
contracting officer obtained certified data from Boeing for several phases of the
CCAD/Boeing contract as additional parts were added to the contract. According to Boeing
officials, Boeing generally did not re-certify those parts that were already on contract.

FAR 15.406-2, “Certificate of Current Cost or Pricing Data,” states:

               (b) The certificate does not constitute a representation as to the accuracy of
               the contractor’s judgment on the estimate of future costs or projections. It
               applies to the data upon which the judgment or estimate was based. . . . If
               the contractor had information reasonably available at the time of
               agreement showing that the negotiated price was not based on accurate,
               complete, and current data, the contractor’s responsibility is not
               limited by any lack of personal knowledge of the information on the
               part of its negotiators. [emphasis added]

The section also states that “data should be updated by the contractor to the latest closing or
cutoff dates for which data are available.” Note 1 to FAR Table 15-2, “Instructions For
Submitting Cost/Price Proposals When Cost or Pricing Data Are Required,” states:

               As later information comes into your [contractor] possession, it should be
               submitted promptly to the Contracting Officer in a manner that clearly
               shows how the information relates to the offeror’s price proposal.

FAR clause 52.215-10, “Price Reduction for Defective Certified Cost or Pricing Data,” was
incorporated into the contract and requires a price reduction if the contractor or subcontractor
furnished certified cost or pricing data that were not complete, accurate, and current as
certified in its Certificate of Current Cost or Pricing Data.

FAR 15.404-3, “Subcontract pricing considerations,” requires contracting officers to
determine price reasonableness for the prime contract, including subcontracting costs.
Further, the prime contractor must evaluate subcontractor prices to establish price
reasonableness as part of the prime contract proposal. Specifically, it states:

               (a) The contracting officer is responsible for the determination of price
               reasonableness for the prime contract, including subcontracting costs. The
               contracting officer should consider whether a contractor or subcontractor
               has an approved purchasing system, has performed cost or price analysis
               of proposed subcontractor prices, or has negotiated the subcontract
               prices before negotiation of the prime contract, in determining the
               reasonableness of the prime contract price. This does not relieve the
               contracting officer from the responsibility to analyze the contractor’s
               submission, including the subcontractor’s cost or pricing data.
               [emphasis added]

                                  FOR OFFICIAL USE ONLY
                                            27
Contractor Purchasing System Reviews
FAR 44.3, “Contractors’ Purchasing System Reviews,” permits the administrative
contracting officer to perform contractor purchasing system reviews to evaluate the
efficiency and effectiveness with which the contractor spends Government funds and
complies with Government policy when subcontracting. DCAA and the Defense Contract
Management Agency (DCMA) conducted reviews of the Boeing purchasing systems at the
Mesa, Arizona, and Philadelphia, Pennsylvania, locations.

Boeing Mesa Purchasing System Review
The DCAA Arizona Branch conducted an audit of the McDonnell Douglas Helicopter Co.15
purchasing system to determine corrective actions as of August 31, 2007, for deficiencies
that it had previously identified on April 28, 2006.16 The DCAA Arizona Branch reported on
three specific conditions that were similar to the issues we identified on the CCAD/Boeing
contract that are discussed in the, “Spare Parts Pricing Problems for Sample Parts,” section.

In April 2006, the DCAA Arizona Branch found that Boeing had not been completing
subcontractor price cost analyses until after the prime contract had been negotiated.
Specifically, it found that Boeing completed only 20 percent of the price cost analyses on
                                               time. In November 2007, the DCAA Arizona
         Boeing had not been                   Branch reported that Boeing made significant
                                               progress in conducting price cost analyses on
     completing subcontractor                  time but continued to come to negotiations with
      price cost analyses until                tens of millions of dollars unsupported by price
   after the prime contract had cost analyses. The DCAA Arizona Branch also
                                               reported that Boeing purchased direct material
            been negotiated.                   using combined buys, resulting in lower unit
                                               prices than it proposed, but did not disclose this
information to the Government during contract negotiations. In addition, the DCAA Arizona
Branch reported that Boeing did not always use valid purchasing agreements with suppliers
to price its contract proposals.

Boeing Philadelphia Purchasing System Review
On December 15, 2006, DCMA-Boeing Philadelphia issued a report on its review of the
Boeing Integrated Defense Systems Rotorcraft Systems Division purchasing system.17
DCMA-Boeing Philadelphia reported that for the sample reviewed, Boeing effectively
accomplished price and cost analyses 92 percent of the time, and the deficient cases were
isolated instances of noncompliance. DCMA-Boeing Philadelphia approved the site’s
purchasing system as a result of its 2006 review. However, we discussed the report with the
DCMA-Boeing Philadelphia Divisional Administrative Contracting Officer, who stated that
the DCMA team only reviewed the percentage of price and cost analyses that were


15
   McDonnell Douglas Helicopter Co. is an indirect subsidiary of Boeing.
16
   DCAA Report No. 3901-2007R12030001, “Report on CPSR [Contractor Purchasing System Review]
Follow-up,” November 13, 2007.
17
   DCMA Case No. P-06-01, “Contractor Purchasing System Review,” December 15, 2006.

                                FOR OFFICIAL USE ONLY
                                          28
completed before the award of the subcontract, not before prime contract negotiations with
the Government. The review team did not identify whether price and cost analyses were
effectively accomplished before contract negotiations; but the DCMA contracting officer
stated that sometimes Boeing completed the cost and price analyses before negotiations, and
sometimes Boeing completed them after negotiations.18

FAR 15.404-3 requires the contracting officer to consider whether the prime contractor has
performed cost or price analyses of proposed subcontractor prices and negotiated
subcontractor prices before negotiating the prime contract. As we discuss further in this
finding, the majority of the pricing errors we identified were for parts on the Chinook
helicopter, which was manufactured at Boeing’s Philadelphia facility. The pricing errors we
identified were contradictory to the results of the DCMA-Boeing Philadelphia purchasing
system review. Based on the results of this audit, the DCMA Contractor Purchasing System
Review Division Director should ensure that purchasing system reviews determine whether
cost and price analyses are being done before negotiations with the Government and whether
quantity discounts are adequately passed on to the Government.

The Contractor Purchasing System Review Division Director should identify the purchasing
system at Boeing Philadelphia as high risk and schedule a purchasing system review to
determine whether Boeing conducts subcontractor price and cost analyses before prime
contract negotiations and whether quantity discounts are being adequately passed on to the
Government. [Recommendation B.1]

Inadequate Subcontractor Cost or Price Analysis
In addition, FAR 15.404-3 requires the prime contractor to conduct appropriate cost or price
analyses to establish the reasonableness of proposed subcontract prices and include the
results of those analyses in the price proposal. Based on data reported by the DCAA Arizona
Branch and the DCAA Southern New Jersey Branch in reports on the audits of the CCAD
bill of materials, Boeing did not complete all of the required cost or price analyses before
negotiating the CCAD/Boeing contract with the Army.

The DCAA Southern New Jersey Branch examined the Phase II bill of materials in
October 200419 and determined that the proposed bill of material was acceptable for
negotiation of a fair and reasonable price. However, the report stated that as of
September 29, 2004, Boeing had not completed the required cost analyses for nine
subcontractors. Four of the nine subcontractors (The Timken Corporation [Timken], Smiths
Aerospace, LLC [Smiths Aerospace], The Purdy Corporation [Purdy], and The Goodrich
Corporation [Goodrich]) were the same suppliers for parts for which we questioned the

18
   In an August 11, 2009, Commission on Wartime Contracting in Iraq and Afghanistan, Hearing on Contractor
Business Systems, the Director of Contract Business Operations, DCMA, stated that the DCMA workforce
conducting contractor purchasing system reviews had been downsized by 86 percent, from 102 to 14 personnel.
Additionally, the Commission stated that during contractor purchasing system reviews, DCMA identified
exceptions about 4 percent of the time, while DCAA identified problems 50 percent of the time; a troubling
difference between the two agencies.
19
   DCAA Report No. 6341-2004D22000006, “Report on Examination of Corpus Christi Army Depot Phase II
Bill of Material,” October 13, 2004.

                                   FOR OFFICIAL USE ONLY
                                             29
contract price on the CCAD/Boeing contract. The DCAA Southern New Jersey Branch also
examined the Phase III bill of materials in January 2006.20 The report stated that the
proposal was acceptable for negotiation of a fair and reasonable price but Boeing had not
completed the required cost analyses for four subcontractors. One of the four subcontractors
(Goodrich) was the supplier for a part that we questioned the price of on the contract.

Also, in the October 2004 review of the Phase II CCAD bill of materials, the DCAA
Southern New Jersey Branch reported that the estimating system and internal control policies
and procedures at Boeing Philadelphia were inadequate in part. Specifically, a certain
significant deficiency in the estimating system could result in higher proposal costs. In the
January 2006 review of the Phase III bill of materials, the DCAA Southern New Jersey
Branch reported that the estimating system was adequate.

The DCAA Arizona Branch February 2005 report on the Phase II bill of materials21 also
identified unsupported costs related to Boeing officials not obtaining and performing cost
analyses of cost or pricing data from subcontractors for material exceeding the FAR
threshold for the submission of cost or pricing data. The report for the Phase III bill of
materials22 was silent on subcontractor cost or price analyses. Further, DCAA Arizona
Branch also stated that Boeing’s material estimating system (MES) was inadequate in part
for ensuring that proposals and final certified contract prices were based on accurate,
complete, and current cost or pricing data. Specifically, one of the issues identified was the
timeliness of analyses of subcontract proposals.

In the December 2006 the DCAA Arizona Branch Office reviewed the Phase III bill of
materials. In its report, the DCAA Arizona Branch noted that in February 2006 the Boeing
McDonnell Douglas Helicopter Co.’s estimating system did not incorporate cost reductions
received for quantity discounts in proposed direct material costs based on range pricing
agreements as a result of combining known multiple contract requirements. This resulted in
increased prices for proposed direct materials in forward pricing proposals.

No Subcontractor DCAA Assist Audits
FAR 15.404-2, “Information to support proposal analysis,” states that the contracting officer
should request field pricing assistance when the information available at the buying activity
is inadequate to determine a fair and reasonable price. The Defense Federal Acquisition
Regulation Supplement Procedure, Guidance, and Information 215.404-2, “Information to
support proposal analysis,” states that the contracting officer should consider requesting field
pricing assistance for fixed-price proposals exceeding the cost or pricing data threshold.
Based on the DCAA Southern New Jersey Branch report on the proposed CCAD bill of
materials, the contracting officer did not request assist audits.


20
   DCAA Report No. 6341-2006D27000004, “Report on Audit of the Direct Material Portion for the Corpus
Christi Army Depot Phase 3 Spares Proposal,” January 24, 2006.
21
   DCAA Report No. 3901-2004R22000014, “Report on Audit of Definitization of CCAD Phase II, Proposal
RE 17972,” February 8, 2005.
22
   DCAA Report No. 3901-2006R22000003, “Report on Audit of CCAD Phase III Proposal Boeing Proposal
Number 30597,” December 6, 2006.

                                  FOR OFFICIAL USE ONLY
                                            30
In the October 2004 audit of the Phase II bill of materials, the DCAA Southern New Jersey
Branch report stated that the contracting officer instructed the DCAA auditors not to request
necessary assist audits of major subcontractors because the assist audits would not be completed
in time to incorporate into the report due to the accelerated negotiation schedule. However,
DCAA Southern New Jersey Branch officials stated that the results of the assist audits are
considered essential to the conclusion of the examination and qualified the audit results to the
extent that additional costs may have been questioned based on the results of the audit assist
reports. The DCAA Southern New Jersey Branch also qualified its report on the Phase III bill
of materials, stating that they requested assist audits from other cognizant DCAA field offices
for the proposed material costs but did not receive any results in time for incorporation in the
report. Both DCAA Arizona Branch audit reports were silent on assist audits.

Proposed Follow-On CCAD/Boeing Contract Is Not Acceptable for
the Negotiation of a Fair and Reasonable Price
The DCAA Southern New Jersey Branch also conducted a review of the proposed follow-on
contract bill of materials in December 2009.23 The DCAA Southern New Jersey Branch
reported that Boeing did not provide adequate support for proposed strategic agreements and
actual excess current contract costs. In addition, the DCAA Southern New Jersey Branch
reported that Boeing did not complete its cost analyses of subcontract proposals for eight of
the nine subcontract proposals. Therefore, the report determined that the consolidated bill of
materials was not acceptable for the negotiation of a fair and reasonable price. The DCAA
Arizona Branch completed its review of the proposed follow-on contract bill of materials in
July 2010.24 The DCAA Arizona Branch reported that Boeing did not provide adequate
supporting documentation for various proposed costs. The DCAA Arizona Branch
considered the cost or pricing data inadequacies to have a significant impact on the proposal
and determined that the proposal was not an acceptable basis for negotiation of a fair and
reasonable price.

Spare Parts Pricing Problems for Sampled Parts
Boeing was providing cost or pricing data based on unrealistically low quantities such as
dealer quotes, commercial catalog prices for quantities of one, outdated historical data for
quantities of one, and competitive commercial quotes for quantities of one to three that had
no relationship to the quantities required or the actual price Boeing negotiated with its
subcontractors. Boeing also furnished certified cost or pricing data that were not complete,
accurate, and current at the time of the material certification cutoff date and routinely
negotiated significantly lower prices with its suppliers shortly after negotiating prices with
AMCOM officials. Boeing also did not share range pricing/quantity discounts with the
Army when procurement quantities were increased or when Boeing combined buys, resulting
in lower unit prices. Also, two parts were switched from buy (purchased parts) to make
(Boeing manufactured) at significantly higher prices without adequate justification.


23
   DCAA Report No. 6341-2010D27000001, “Report on Audit of Firm Fixed Price Proposal for the
Consolidated Bill of Material Part of the CCAD Partnership Follow-on Proposal,” December 17, 2009.
24
   DCAA Report No. 4301-2009R21000050, “Report on Audit of the Corpus Christi Army Depot Overhaul,
Repair, and Recapitalization of AH-64 Weapon System Components,” July 8, 2010.

                                 FOR OFFICIAL USE ONLY
                                           31
Additionally, it appears that the AMCOM contracting officer relied on DCAA to conduct audits
of the material prices in Boeing’s proposal for the partnership contract, but there is no evidence
that the contracting officer conducted a part-by-part review of the contract bill of materials to
determine the price reasonableness of specific parts. Finally, without support from an
experienced cost/price analysis group, the AMCOM contracting officer will have difficulty
negotiating a firm-fixed-price contract that adequately protects the Government’s interests.

To calculate the DoD Inspector General (IG) fair and reasonable price, we reviewed Boeing
costs and applied a     percent addon or wrap rate to reach the burdened Boeing price. The
wrap rate includes Boeing’s costs of doing business such as overhead, general and
administrative costs, and the negotiated profit rate. Table 6 shows a summary of the pricing
problems for 18 of the 24 parts we reviewed. Each category of pricing problems is discussed
in detail following the summary table.

                     Table 6. Pricing Problems for 18 of 24 Parts Reviewed
                                                                                         Difference
                             Number          Contract          IG Fair             Amount
                               of            Price for           and               Boeing
                             Sample            Parts          Reasonable           Needs to
        Category              Parts          Procured           Price              Refund         Percent

 Defective Data                   7        $ 2,247,392        $                $
 Pass-Through Part1               1            629,291
 Price Incorrect for
 Follow-On Contract1              2           2,793,766
 Boeing Negotiated
 Better Prices                    7          13,777,838
 Switch from Buy to
 Make                             2          3,201,107            438,503        2,762,604            630.0
  Subtotal1                      18        $22,649,3932       $ 9,783,035      $12,866,3592           131.5
 Prices In Line                   6         11,334,911         11,555,646        (220,735)             (1.9)
  Total1                         24        $33,984,3052       $21,338,681      $12,645,624             59.3
 1
   The price for the pass-through part is also incorrect on the follow-on contract. The same part is included in
 both categories; the part is not counted twice in subtotal or total.
 2
   Totals do not add due to rounding.


Boeing Owes the Army Refunds for Defective Certified Cost or
Pricing Data and Unnecessary Pass-Through Costs
Boeing had information that was reasonably available before the material certification cutoff
dates that was not used to support CCAD/Boeing contract prices for seven parts valued at
about $2.2 million. The correct price should have been             a difference of about
             or       percent that Boeing needs to refund to the Army. During the audit,
Boeing issued a refund of $324,616 for sample 110 that was in line with our calculations.



                                      FOR OFFICIAL USE ONLY
                                                32
    Sample 45 was a pass-through part that should have been procured by Boeing from the
    original equipment manufacturer (OEM), not as a commercial catalog part from another
    supplier. We calculated that the Army paid            , or      percent, too much because
    Boeing did not procure the part from the OEM. Boeing needs to pursue a refund for this part
    from the dealer. We also found that the proposed prices on the follow-on contract for
    sample 45 and 415 were overpriced by about                 because of the pass-through issue
    and Boeing not using current data to price the parts. The proposed prices on the follow-on
    contract need to be corrected for these two parts. Boeing needs to provide the Army refunds
    for defective data and excessive pass-through costs and needs to correct the prices on the
    follow-on contract for the parts in Table 7.

            Table 7. Parts for Which Boeing Needs to Provide a Refund to the Army and
                      Correct Prices on the Follow-On CCAD/Boeing Contract
                                    Contract      IG Fair            Difference
                                    Price for       and
Sample                               Parts      Reasonable                                 Boeing
Number              NSN            Procured        Price        Amount        Percent      Refund1
                 Certified Cost or Pricing Data Were Not Complete, Accurate, and Current
   5           1680002451833 $ 563,418          $             $                          $ 376,635
   91          3020005662521         618,124                                                556,006
  110          5307011634676         566,073                                                324,616
  356          3120008341507         140,724
  371          3120008666099         173,626                                                159,164
  376          1650009559588         104,104
  398          1560004094101           81,324                                                76,849
                                              2           2
Subtotal                          $2,247,392    $                                        $1,493,270
                 Pass-Through Part Where Commercial Catalog Price for 1 Part Was Used
  45           1650008341430         629,291                                               Pending
Subtotal                          $ 629,291     $             $
                            Price Not Correct for Follow-on Contract Proposal
   45          1650008341430 $2,664,518         $             $                              N/A
  415          3110011369793          129,248                                                N/A
Subtotal                          $2,793,766    $             $
    Total                         $5,670,4482      $           2
                                                                    $                                $1,493,270
1
  After we issued the draft report, Boeing provided the Army refunds for samples 5, 91, 371, and 398, and stated
that it was pursuing a refund for sample 45.
2
  Totals do not add due to rounding.

    The AMCOM Contracting Officer needs to obtain refunds from Boeing for parts priced with
    defective data (            , less refunds already processed) and unnecessary pass-through
    costs (          ) and needs to correct prices on the follow-on contract (          ).
    [Recommendation B.2.a] The following section includes detailed information for most of the
    sample numbers in Table 7. See Appendix C for information on sample 356 and 376. For
    our calculation of the cost impact, see Appendix E.

                                      FOR OFFICIAL USE ONLY
                                                33
Sample 5 – Linear Electro Mechanical Actuator (NSN 1680-00-245-1833)
(Quantity Issue – Better Data Available Before Material Certification
Cutoff Date)
The Boeing proposed price was based on what Boeing identified as a “firm” range pricing
quote from            with quantities of      each at            (2005) and      each at
             (2006). However, in June 2005, Boeing issued two purchase orders (PO) to
          –one on June 2, 2005, for parts at a unit price of           (PO            and one
on June 10, 2005, for     parts at a unit price of           (PO          ). Boeing awarded
both POs before the material certification cutoff of June 30, 2005. Consequently, AMCOM
officials paid Boeing $22,101.31 to $23,093.82 for a part that Boeing purchased for only
            to         . We calculated that AMCOM officials paid Boeing $563,418 for the
25 electro mechanical actuators procured when it should have paid only              a difference
of             (    percent). Figure 8 shows the range pricing quote that Boeing used to
support its proposed prices, and Table 8 shows the pricing information.
        Figure 8. Sample 5 – Range Pricing “Firm” Quote Data from




 Table 8. Sample 5 – Pricing Information for the Linear Electro Mechanical Actuator
                                                                      Unit        Percent
                                        Date          Quantity     Cost/Price    Difference
   Army Procurement (Simmonds         8/25/2008         225        $ 5,350.00
   Precision Products, Inc.)
   Boeing PO                           6/2/2005
   Boeing PO                          6/10/2005
   Burdened Boeing PO Price
   (Weighted Average)
                    Phase IIA Material Certification Cutoff Date 6/30/2005
   CCAD/Boeing Contract            2005 (8/8/2005)        1/0       58,949.85
   (Modification Date)             2006 (8/8/2005)        8/0       20,692.89
   Negotiated/Procured Quantities
                                  2007 (6/15/2007)        7/6       22,101.31
                                  2008 (6/15/2007)      34/16       22,595.53
                                  2009 (11/1/2007)       34/3       23,093.82
   Proposed Follow-On Contract         2/1/2010         Range      6,929.00 to
   (2010-2014)                                         6-8/year     7,064.23

                               FOR OFFICIAL USE ONLY
                                         34
Figure 9 shows the linear electromechanical actuator, which is used on the Chinook
helicopter.

                Figure 9. Sample 5 – Linear Electro Mechanical Actuator




                       Source: Defense Distribution Depot Red River, Texas

Sample 91 – Spur Gear (NSN 3020-00-566-2521) (Quantity and Quote
Issue – Better Data Available Before Material Certification Cutoff Date)
AMCOM officials procured 991 spur gears from Boeing at a total price of $618,124 or a
weighted average unit price of $623.74 from 2007 through 2009. Boeing used a catalog
price list from                      for support, with a quoted unit price of        based on a
quantity of        However, Boeing had two POs with better data available before the material
certification date of April 24, 2007. Specifically, on July 18, 2006, Boeing purchased
     parts at a         unit price (PO           ), and on December 19, 2006, it purchased
     parts at a         unit price (PO           ). Additionally, DLA previously procured this
part in November 2006 at a unit price of $8.72; 98.6 percent less than what AMCOM
officials paid for the part under the CCAD/Boeing contract. We calculated that AMCOM
officials paid Boeing $618,124 for the 991 spur gears procured when it should have paid only
         , or a difference of            (      percent). Figure 10 shows the spur gear, which
attaches to a motor used on the Chinook helicopter.

               Figure 10. Sample 91 – Spur Gear and Attached to a Motor




                               FOR OFFICIAL USE ONLY
                                         35
Table 9 shows the pricing information for the spur gear.

              Table 9. Sample 91 – Pricing Information for the Spur Gear
                                                                      Unit        Percent
                                       Date            Quantity     Cost/Price   Difference
   DLA Procurement (Hoosier          11/1/2006           371         $ 8.72
   Industrial Supply, Inc.)
   DLA Standard Unit Price            FY 2009              ANY         12.51
                                                           (343)
   Boeing PO                         7/18/2006
   Boeing PO                         12/19/2006
   Burdened Boeing PO Price
   (Weighted Average)
   Commercial Quote (                3/23/2007

                    Phase IIB Material Certification Cutoff Date 4/24/2007
   CCAD/Boeing Contract          2007 (6/15/2007)       20/267         595.91
   (Modification Date)           2008 (6/15/2007)      615/267         615.60
   Negotiated/Procured
                                 2009 (6/15/2007)      453/457         644.75
   Quantities
   DCMA Review of Catalog           3/20/2007
   Prices
   (2007-2009 Average)
   Proposed Follow-On Contract       2/1/2010           Range        42.65 to
   (2010-2014)                                           444-         145.03
                                                       468/year

Sample 110 – Plain Stud (NSN 5307-01-163-4676) (Pricing Error)
Boeing proposed a unit price of            for      plain studs at a total price of        on
May 22, 2008. However, when the part was added to the CCAD/Boeing contract on
November 25, 2008, the parts were incorrectly priced at $3,369.48. AMCOM officials had
                                               previously procured the part for only
      On September 30, 2010,                   $190.00 each. Boeing provided us with a
                                               purchase contract from
    Boeing processed a credit to                                       that supported the
    AMCOM for $324,616 that                    original proposed contract price. Further, the
         was in line with our                  follow-on CCAD/Boeing contract proposed
                                               prices ranged from $80.33 to $309.02 in
      calculated overpayment.                  2010 to 2014 and appear in line with the
                                               previous AMCOM price. During the audit,
Boeing agreed that the part had been incorrectly priced, and on September 30, 2010, Boeing
processed a credit to AMCOM for $324,616 that was in line with our calculated
overpayment. No further action is required for this part.



                               FOR OFFICIAL USE ONLY
                                         36
Table 10 shows the pricing information for the plain stud, which is used on the Apache
helicopter.

              Table 10. Sample 110 – Pricing Information for the Plain Stud
                                                                       Unit          Percent
                                          Date          Quantity     Cost/Price     Difference
    AMCOM Procurement (SPX              2/21/2007         600        $ 190.00
    Corporation)
    Burdened Boeing Purchase            6/18/2007
    Contract (

    Boeing Proposal                      5/22/2008
    CCAD/Boeing Contract                   2009         168/168        3,369.48
    (Modification Date)                (11/25/2008)
    Negotiated/Procured Quantities
    Proposed Follow-On Contract          2/1/2010         840          80.33 to
    (2010-2014)                                        (168/year)      309.02

Sample 371 – Sleeve Bushing (NSN 3120-00-866-6099) (Quantity and
MES Issue – Better Data Available Before Material Certification Cutoff
Date)
Officials from AMCOM and Boeing negotiated a total contract price of $207,822 for
617 sleeve bushings from 2005 through 2009, and the Army procured 530 sleeve bushings
for $173,626; a weighted average unit price of $327.60. To support the contract price,
Boeing used outdated historical data from its MES from 1991 through 1994 for low
quantities of     to      parts. Boeing had a current PO, which was awarded on May 23,
2005, before the material certification cutoff date of June 30, 2005, that was not used for
                                                  parts at a unit price of         (PO           ).
     The fair and reasonable                 Using  a weighted   average   cost that included four
                                             of the outdated POs and the May 23, 2005, PO,
    price was                  versus        we calculated that the proposed unit price should
    the $173,626 that Boeing                 have been           for a burdened Boeing contract
      charged the Army, or a                 price of         versus  the weighted average unit
                                             price of $327.60 that Boeing charged the Army or
              percent difference.            a difference of         percent. DCAA Southern
                                             New Jersey Branch officials reviewed the
outdated prices from the Boeing MES. Also, the historical price was considerably less than
the contract price, as DLA procured this part in July 2007 for $6.30; 98.1 percent less than
the weighted average contract price. We calculated that for the 530 parts procured, the fair
and reasonable price was            versus the $173,626 that Boeing charged the Army, or a
       percent difference. Boeing needs to refund AMCOM                   .




                                FOR OFFICIAL USE ONLY
                                          37
Table 11 shows the pricing information and Figure 11 shows a picture of the sleeve bushing,
which is used on the Chinook helicopter.

           Table 11. Sample 371 – Pricing Information for the Sleeve Bushing
                                                                        Unit        Percent
                                           Date           Quantity    Cost/Price   Difference
  DLA Procurement (All Power             7/3/2007           255        $ 6.30
  Manufacturing Co., Inc.)
  DLA Standard Unit Price                FY 2010           ANY             8.88
                                                           (123)
  DCAA Review of MES                     10/13/2004
  Averages (2005-2009 Average)*
  Boeing PO                               5/23/2005
  Burdened Boeing PO Price
  (Weighted Average)
                     Phase IIA Material Certification Cutoff Date 6/30/2005
  CCAD/Boeing Contract                2005 (8/8/2005)       13/0           39.36
  (Modification Date)                 2006 (8/8/2005)      98/154         271.02
  Negotiated/Procured Quantities
                                     2007 (6/15/2007)     130/168         337.64
                                     2008 (6/15/2007)      188/20         355.35
                                     2009 (6/15/2007)     188/188         362.01
  Proposed Follow-On Contract             2/1/2010          1,040       39.78 to
  (2010-2014)                                            (208/year)       41.06
  *
    Unit prices were based on MES data from 1991 to 1994 for low quantities.

                          Figure 11. Sample 371 – Sleeve Bushing




Sample 398 – Ramp Gate Roller Assembly (NSN 1560-00-409-4101)
(Competitive Commercial Price Quote Issue – Better Data Available
Before Material Certification Cutoff Date)
Officials from AMCOM and Boeing negotiated a total contract price of $121,204 for
76 ramp gate roller assemblies from 2008 through 2009, and the Army procured 50 ramp
                                FOR OFFICIAL USE ONLY
                                          38
gate roller assemblies for a total price of $81,324; a weighted average unit price of
$1,626.49. The negotiated price was supported by competitive commercial price quotes, as
classified by Boeing, on December 14, 2005. The competitive commercial price quote was
for a quantity range of     to        parts at a 2008 unit price of             and a 2009 unit
                                                           price of              Boeing
     The 2009 CCAD/Boeing contract                         previously purchased the part less
     unit price of $1,678.61 was more                      than 5 months earlier at a unit price of
                                                           only         , and this information was
    than 16,000 percent more than the                      available before the material
   DLA standard unit price of $10.25.                      certification cutoff date of June 1,
                                                           2006. In addition, the 2009
CCAD/Boeing contract unit price of $1,678.61 was more than 16,000 percent more than the
DLA standard unit price of $10.25. We calculated that the Army paid Boeing $81,324 for
the 50 ramp gate roller assemblies actually procured when they should have paid                 a
difference of          (         percent). During meetings with Boeing in September 2010,
Boeing agreed to provide the Army a credit for this part. Table 12 shows the pricing
information for the ramp gate roller assembly.

   Table 12. Sample 398 – Pricing Information for the Ramp Gate Roller Assembly
                                                                        Unit         Percent
                                          Date           Quantity     Cost/Price    Difference
   DLA Procurement (Ace                 8/4/2008           270        $    5.37
   Aviation Service, Inc.)
   DLA Standard Unit Price              FY 2009            ANY              7.71
   (Inventory)                                             (470)
                                        FY 2011            ANY             10.25
                                                           (214)
   Boeing PO                          4/30/2005
   Boeing PO                          6/25/2005
   Burdened Boeing PO Price
   Boeing “Competitive Quote”        12/14/2005
   from
   (2008-2009 Average)
   DCMA Review of                     1/24/2006
   Competitive Quotes
   (2008-2009 Average)
                     Phase III Material Certification Cutoff Date 6/1/2006
   CCAD/Boeing Contract           2008 (6/15/2007)        44/18       1,533.82
   (Modification Date)            2009 (6/15/2007)        32/32       1,678.61
   Negotiated/Procured
   Quantities
   Proposed Follow-On                 2/1/2010             160         50.04 to
   Contract (2010-2014)                                 (32/year)       52.47




                                FOR OFFICIAL USE ONLY
                                          39
Figure 12 shows the ramp gate roller assembly, which is used on the Chinook helicopter.

                        Figure 12. Sample 398 – Ramp Gate Roller Assembly




Sample 45 – Hydraulic Motor (NSN 1650-00-834-1430) (Commercial Price
Quote Issue and Pass-Through Problem)
Officials from AMCOM and Boeing negotiated a total price of about $1.4 million for 63 of
the hydraulic motors from 2006 through 2009; but procured only 29 hydraulic motors for a
total price of $629,291, or a weighted average unit price of $21,699.69. Boeing provided a
commercial catalog quote from               for a quantity of      to support negotiations for the
part. In November 2008, AMCOM officials procured this part from Eaton Aerospace, LLC25
(Eaton), the OEM of the part, for only $6,066.00; therefore, AMCOM officials were paying
257.7 percent more under the CCAD/Boeing contract than it previously paid for the same
part. Additionally, Boeing officials stated that they
                                  and that Boeing has 18 of the hydraulic motors in
inventory. In response to a discussion draft of this report, Boeing officials stated that it is
“investigating pursuing refund from             ,” if there is no value being added as the part is
passed-through from Eaton to              to Boeing.

Using the AMCOM procurement price from Eaton as a baseline and then applying the
Boeing wrap rate, we calculated that AMCOM officials paid Boeing $629,291 for the
29 hydraulic motors procured when it should have paid only             or a difference of
          (     percent). The total follow-on contract price of about $2.7 million for
84 hydraulic motors was also based on procuring the part as a pass-through part from
         . The Army could save about               if Boeing purchased the hydraulic
motors from the OEM instead.




25
     Eaton acquired Vickers, Incorporated in 1999.

                                       FOR OFFICIAL USE ONLY
                                                 40
Table 13 shows the pricing information and Figure 13 shows a picture of the hydraulic
motor, which is used on the Chinook helicopter.

          Table 13. Sample 45 – Pricing Information for the Hydraulic Motor
                                                                        Unit          Percent
                                        Date            Quantity     Cost/Price      Difference
    AMCOM Procurement                11/14/2008           73         $ 6,066.00
    (Eaton)
    Boeing Burdened Price
    (Based on the AMCOM
    OEM Price)
    Commercial Quote                  9/26/2006
    (         )*
    CCAD/Boeing Contract           2006 (8/8/2005)        4/0         20,068.35
    (Modification Date)           2007 (6/15/2007)        6/5         21,303.56
    Negotiated/Procured
                                  2008 (6/15/2007)       33/4         21,447.24
    Quantities
                                  2009 (6/15/2007)       20/20        21,849.21
    DCMA Review of                   10/13/2004
    Catalog Quotes
    (2006-2009 Average)
    Proposed Follow-On                2/1/2010          Range        31,164.51
    Contract (2010-2014)                                  16-            to
                                                        20/year      32,253.53
    *
     Unit price is based on a 2006          standard commercial catalog price with   percent
    escalations for 2007, 2008, and 2009.

                           Figure 13. Sample 45 – Hydraulic Motor




                        Source: DLA Distribution Susquehanna, Pennsylvania

Boeing needs to provide AMCOM a refund of               for this part for procuring the part
from anyone other than the OEM at a grossly inflated catalog price. We calculated that the
Army can save about                 on the follow-on CCAD/Boeing contract if Boeing
procures the part directly from the OEM instead of from            as a commercial part. The

                                FOR OFFICIAL USE ONLY
                                          41
AMCOM contracting officer should procure the part directly from Eaton, the OEM, unless
Boeing procures the part from the OEM at a fair and reasonable price.
[Recommendation B.2.b]

Sample 415 – Needle Roller Bearing (NSN 3110-01-136-9793) (Priced
Incorrectly on the Follow-On Contract)
The follow-on CCAD/Boeing contract proposal shows a requirement for 420 needle roller
bearings over the 5-year contract at a weighted average unit price of $307.73, for a total price
of $129,248. However, on January 16, 2008, Boeing procured           needle roller bearings at a
unit price of only     . We calculated that the burdened Boeing price should be            and
the total Army contract price for the 420 needle roller bearings should be only about
or a savings of          .

Boeing Obtained Quantity Discounts and Negotiated Lower Prices
That Were Not Passed on to the Army
Boeing negotiated lower prices with its suppliers shortly after negotiations with AMCOM
officials. For seven of the parts reviewed, we calculated that AMCOM officials paid Boeing
$13.8 million for parts that should have cost only               or a difference of
     percent. AMCOM officials need to request a refund from Boeing for these parts
because Boeing made an excessive profit.

Generally, the unit prices for spare parts that Boeing procures from its suppliers are set
within ranges based on quantities purchased; therefore, the larger the quantity purchased, the
less the per part price. When a contractor is able to purchase parts in large quantities, it is
                                                referred to as an economic order quantity
                                                discount. For the parts we reviewed, there
      Boeing purchased direct                   appears to be a recurring pattern of Boeing
      material using combined                   negotiating a price based on a specific quantity
    buys resulting in lower unit                with the Army and then either 1) purchasing
                                                larger quantities of the part at a cheaper price or
        prices than proposed.                   2) negotiating a lower price with its supplier
                                                shortly after the material certification cutoff
date with the Army. Boeing always charged the Army the higher price, even when its
contract requirements increased. Although the firm-fixed-price nature of the contract does
not specifically require the contractor to share range pricing with the Army after a price is
negotiated, the viability of the CCAD/Boeing contract is questionable unless AMCOM
officials can find a more effective way to negotiate prices.




                                FOR OFFICIAL USE ONLY
                                          42
Table 14 shows the seven sample parts that Boeing negotiated a better price for with its
supplier after negotiations with AMCOM and did not share the savings with the Army.

                   Table 14. Boeing Negotiated Better Prices with Its Suppliers
                               After Negotiations with AMCOM
                                      Contract       IG Fair        Difference
                                       Price for       and
Sample                                   Parts      Reasonable                        Boeing
Number              NSN               Procured        Price      Amount    Percent    Refund
   7            3110013560489        $ 6,728,618
   13           6105004634901           4,995,702
   20           6105002512494           1,143,949
  167           1615012198666             306,678
  200           5340011611199             273,354
  324           3120008810018             258,676
  338           1650009559586              70,862
 Total                               $13,777,838*
*
    Totals do not add due to rounding.


The AMCOM Contracting Officer needs to request a refund of                 from Boeing for
parts for which lower prices were negotiated with suppliers shortly after prices were
negotiated with the Army. [Recommendation B.2.c]

The following section includes detailed information for most of the sample numbers in
Table 14. See Appendix C for information on samples 20, 167, and 324. For our calculation
of the cost impact, see Appendix E.

Sample 7 – Annular Ball Bearing (NSN 3110-01-356-0489) (Quantity and
Quote Issue)
Officials from AMCOM and Boeing negotiated a contract price of $7.0 million for
686 annular ball bearings, and the Army procured 642 annular ball bearings at a total price of
$6.7 million; a weighted average unit price of $10,480.71. The Boeing proposed price was
based on a quote with range pricing for quantities of      to     for            to
            each. Boeing then combined buys to get a much lower price for the annular ball
bearings. On September 13, 2005, about 2 months after the material certification date of
June 30, 2005, Boeing procured a large quantity of annular ball bearings (        ) from its
supplier at prices that were      percent to     percent less than historical prices. The total
value of the PO was                 and the burdened unit price, based on the new purchase
price, would have been             . Using the prices that Boeing actually paid for the annular
ball bearings, we calculated that the Army paid Boeing $6.7 million for the 642 annular ball
bearings procured when it should have paid only                , or a difference of
(     percent).




                                         FOR OFFICIAL USE ONLY
                                                   43
Table 15 shows the pricing information, and Figure 14 shows a picture of the annular ball
bearing, which is used on the Chinook helicopter.

        Table 15. Sample 7 – Pricing Information for the Annular Ball Bearing
                                                                    Unit         Percent
                                      Date           Quantity     Cost/Price    Difference
   Boeing Quote From                3/3/2005            -
                                                                  to
                     (2006-
   2009)
                  Phase IIA Material Certification Cutoff Date 6/30/2005
   Boeing PO With                9/13/2005

   Boeing PO With                   9/13/2005

   Burdened Boeing Price
   (Weighted Average
   PO
   CCAD/Boeing Contract          2006 (8/8/2005)      150/54       9,022.30
   (Modification Date)           2007 (8/8/2005)     150/165       9,400.60
   Negotiated/Procured
                                2008 (11/1/2007)     188/186      10,737.98
   Quantities
                                2009 (11/1/2007)     198/237      11,363.08
   DCAA Review of Supplier         10/13/2004
   Firm Quotes
   (2006-2009 Average)
   Proposed Follow-On               2/1/2010          1,040       7,103.38 to
   Contract (2010-2014)                             (208/year)     7,351.60

                       Figure 14. Sample 7 – Annular Ball Bearing




                       Source: Defense Distribution Depot Red River, Texas




                              FOR OFFICIAL USE ONLY
                                        44
Sample 13 – Motor Armature (NSN 6105-00-463-4901) (Quantity and
Commercial Price Quote Issue)
Officials from AMCOM and Boeing negotiated a total price of $4.7 million for 968 motor
armatures from 2005 through 2009 on the CCAD/Boeing contract, and the Army procured
1,043 motor armatures at a weighted average unit price of $4,789.74. Boeing had historical
data from April 30, 2005, for procurements of only      parts at a unit price of         , and
  parts at a unit price of           Boeing also had a quoted price for a range of to
   commercial parts at a unit price of            that was used to support the negotiated
price. However, less than 3.5 months after the material certification cutoff date, Boeing
purchased        armature assemblies for delivery in 2006 and 2007 at a much lower unit price
of              The DCAA Southern New Jersey Branch reviewed commercial price quotes to
support the proposed contract price. Although the commercial quotes were in line with the
contract price, the quotes were      percent higher than the October 11, 2005, unit price that
Boeing negotiated with its supplier. We calculated that the Army paid Boeing $5.0 million
for the 1,043 motor armatures procured when it should have paid only                , or a
difference of               (   percent). Table 16 shows the pricing information for the
motor armature.

          Table 16. Sample 13 – Pricing Information for the Motor Armature
                                                                    Unit          Percent
                                      Date          Quantity      Cost/Price     Difference
 DCAA Review of Vendor             10/13/2004
 Quotes (2005-2009 Average)
            Price Quote            3/16/2005            to
 Boeing PO                        4/30/2005
 Boeing PO                        4/30/2005
                    Phase IIA Material Certification Cutoff Date 6/30/2005
 Boeing PO                        10/11/2005
 Burdened Boeing PO Price
 (Weighted Average)
 CCAD/Boeing Contract          2005 (8/8/2005)         29/0         4,384.56
 (Modification Date)            2006 (8/8/2005)      170/159        4,457.00
 Negotiated/Procured
                                2007 (8/8/2005)      170/332        4,525.78
 Quantities
                               2008 (11/1/2007)      289/272        4,993.36
                               2009 (11/1/2007)      310/280        5,093.88
 DLA Price (Honeywell)             7/30/2009          30 up         1,317.18
 DLA Standard Unit Price          11/20/2010           Any          1,790.80
 Proposed Follow-On                2/1/2010           1,290        3,009.08 to
 Contract (2010-2014)                               (258/year)      3,215.25




                               FOR OFFICIAL USE ONLY
                                         45
Figure 15 shows the motor armature, which is used on the Chinook helicopter.

                         Figure 15. Sample 13 – Motor Armature




                       Source: DLA Distribution Susquehanna, Pennsylvania

DLA Aviation has a long-term contract with Honeywell that uses a process called “one pass
pricing.” The one pass pricing process involves a group of DoD pricing experts providing
real-time advice to the DLA Aviation contracting officer reviewing the Honeywell cost data
used to support the proposed/negotiated price. The motor armature was also one of the parts
                                         included on a re-pricing event as part of a DoD Lean
      The DLA price for the              Six Sigma Project, “DLA/Honeywell Long-Term
                                         Contract Model Using One Pass Pricing for Sole-
       Honeywell motor is                Source Spare Parts.” As part of the re-pricing event,
      significantly less than            DLA Aviation was able to negotiate a lower unit
         the Boeing price.               price for the Honeywell motor from $1,317.18 to
                                         $888.31 (based on an economic order quantity of
30 and up and available through May 6, 2011). Using the FY 2011 DLA Aviation long-term
contract cost recovery rate of 39.9 percent, we calculated that the DLA standard unit price for
this part would be only about $1,242.75, if the parts were procured from DLA in 2011 or a
difference of almost 150 percent. The DLA price for the Honeywell motor is significantly
less than the Boeing price. Unfortunately, the new unit prices may never be realized because
DLA currently has stock on hand of 255 parts and a monthly consumption quantity of only
2.05 or about 25 parts per year. Therefore, DLA will not procure the part again for over
10 years, and AMCOM officials plan to meet CCAD requirements of 258 per year on the
follow-on CCAD/Boeing contract.




                               FOR OFFICIAL USE ONLY
                                         46
As shown in Table 17, over the next 5 years, the Army expects to buy 1,290 of the
Honeywell motors from Boeing and spend almost $2.3 million or 127.7 percent more
procuring the same Honeywell motor from Boeing that it can get from DLA. We commend
the DLA Aviation contracting officer and cost/price analyst for their ability to negotiate a
better price for the Honeywell motor as compared to Boeing.

        Table 17. Sample 13 – Proposed Boeing/CCAD Follow-On Contract Prices
                       and DLA Prices for the Honeywell Motor
                 Proposed CCAD/Boeing            DLA Standard
                     Contract Price               Unit Price               Total Difference
Year      Qty    Unit Price   Total Price   Unit Price    Total Price    Amount       Percent
2010      258    $3,009.08    $ 776,343      $1,790.80    $ 462,026     $ 314,316        68.0
2011      258     3,098.39       799,385      1,242.75       320,628       478,756      149.3
2012      258     3,124.60       806,147      1,256.16       324,090       482,057      148.7
2013      258     3,167.72       817,272      1,274.25       328,757       488,515      148.6
2014      258     3,215.25       829,535      1,292.60       333,491       496,044      148.7
Total    1,290                $4,028,680                  $1,768,992    $2,259,688      127.7

AMCOM officials need to procure or have Boeing procure this part from DLA Aviation to
save $2,259,688 over the next 5 years and help protect warfighter resources.
[Recommendation B.2.d]

Sample 200 – Nut and Bolt Retainer (NSN 5340-01-161-1199) (Quantity
Issue)
AMCOM officials procured 716 nut and bolt retainers from 2005 through 2009 on the
CCAD/Boeing contract at a total cost of $273,354; a weighted average unit price of
$381.78. Boeing used a firm-fixed-price range vendor pricing quote from           as
supporting documentation for the CCAD/Boeing contract price. The range pricing quote for
2009 shows a unit price of           for a quantity of to     and a much lower unit price of
        for quantities of more than     . We calculated that the Army overpaid           for
this part because the contract price was based on range pricing for a quantity of to    parts,
and when the contract quantity increased to more than 100 parts in 2008, Boeing did not
share the quantity discount offered by the supplier. Additionally,


                          DLA purchased 995 of the parts in November 2007 for only
$4.59 each and as of December 3, 2010, had stock on hand of 734 parts at a standard unit
price of $6.77 and annual consumption of only about 138 parts. The Boeing proposed unit
price of $52.93 on the follow-on contract is roughly 681.8 percent more than the DLA price.




                               FOR OFFICIAL USE ONLY
                                         47
Table 18 shows the pricing information, and Figure 16 shows a picture of the nut and bolt
retainer, which is used on the Apache helicopter.

       Table 18. Sample 200 – Pricing Information for the Nut and Bolt Retainer
                                                                     Unit        Percent
                                        Date          Quantity     Cost/Price   Difference
   Firm-Fixed-Price Vendor            5/17/2005
   Range Quote (
                    Phase IIA Material Certification Cutoff Date 6/23/2005
   DLA Procurement (Kampi           11/20/2007           995            4.59
   Components Co., Inc.)
   DLA Standard Unit Price           12/3/2010           Any            6.77
   Burdened Boeing Purchase          2005-2009
   Contract (        (Weighted
   Average)
   Boeing Purchase Contract          4/17/2009
   (                     )
   CCAD/Boeing Contract           2005 (8/8/2005)       15/15          90.56
   (Modification Date)            2006 (8/8/2005)       15/15        291.66
   Negotiated/Procured
                                 2007 (6/15/2007)       15/10        352.65
   Quantities
                                 2007 (6/15/2007)       15/60        371.77
                                 2008 (6/15/2007)      380/232       382.90
                                 2009 (6/15/2007)      480/384       398.32
   Proposed Follow-On Contract        2/1/2010          2,400        52.93 to
   (2010-2014)                                        (480/year)      78.51

                     Figure 16. Sample 200 – Nut and Bolt Retainer




                               FOR OFFICIAL USE ONLY
                                         48
We discussed this part with Boeing in June 2010, and the Boeing CCAD Program Business
Manager stated that contract modification P00089, June 15, 2007, added a special contract
requirement for fixed unit prices and estimated quantities. Specifically, the clause states:

               (a) Components for the new baseline (WLF 08) shall be procured by the
               Government on a fixed unit price/estimated quantity basis. Contractor shall
               provide the ordered parts at a fixed unit price using estimated quantities as
               prescribed below.
               (b) The Government shall provide Workload Forecasts as per H-11 for each
               option years requirement. The Contractor shall plan material support based
               upon these requirements which shall be reflected in modifications to
               attachments 9 & 10 part number quantities. All Workload Forecasts shall be
               reviewed/approved jointly between the Government and the Contractor.
               (c) Unit prices for changes in the Workload Forecast shall be fixed per
               attachments 9 & 10 as delineated in modification P00089 and quantities
               shall be adjusted at those fixed unit prices by modification to the
               contract. [emphasis added]

We take exception to the contract clause. It makes little sense to change quantities and not
change unit prices. The Army will lose significantly more than it gains in this situation.
Procuring parts in economic order quantities is a statutory requirement. Specifically,
10 U.S.C. § 2384a, “Supplies: economic order quantities,” states that agencies must procure
supplies in such quantity that will result in the most advantageous total cost and unit cost and
does not exceed the quantity reasonably expected to be required by the agency. However,
because the contract pricing was based on a lower quantity, Boeing benefitted from a
quantity discount while the Army paid a higher unit price. Boeing did not share the quantity
pricing with the Army because the contract is a firm-fixed-price contract. The AMCOM
contracting officer needs to ensure the follow-on contract does not include any clauses that
would prevent the Army from obtaining economic order quantity pricing.
[Recommendation B.2.e – Internal Control]

Sample 338 – Linear Actuating Cylinder Head (NSN 1650-00-955-9586)
(Quantity and Dealer Price Quote Issue)
Officials from AMCOM and Boeing negotiated a total price of $152,617 for 28 linear
actuating cylinder heads in 2008 and 2009; a weighted average unit price of $5,450.60.
Boeing used a price quote from                                                           as
support for the contract price. Less than 2 months after the material certification cutoff date,
Boeing purchased       parts from the OEM at a unit price of only            . The quoted unit
price,            for parts, was         percent more than the            unit price Boeing
paid the supplier. We calculated that the Army paid Boeing $70,862 when they should have
paid           a difference of         (       percent).




                                  FOR OFFICIAL USE ONLY
                                            49
Table 19 shows the pricing information, and Figure 17 shows the linear actuating cylinder
head, which is used on the Chinook helicopter.

 Table 19. Sample 338 – Pricing Information for the Linear Actuating Cylinder Head
                                                                    Unit        Percent
                                          Date       Quantity     Cost/Price   Difference
    Army Procurement (W&G              12/12/2007      60         $ 902.27
    Machine Co., Inc.)
    Boeing Quote (                       3/7/2007
       )
    DCMA Review of                      3/20/2007
    Noncompetitive Quote (2008-
    2009)
                    Phase IIB Material Certification Cutoff Date 4/24/2007
    Boeing PO                           6/13/2007
    Burdened Boeing PO Price
    CCAD/Boeing Contract                   2008         11/5        5,427.38
    (Modification Date)                (6/15/2007)
    Negotiated/Procured Quantities         2009         17/8        5,465.63
                                       (6/15/2007)

               Figure 17. Sample 338 – Linear Actuating Cylinder Head




                       Source: DLA Distribution Susquehanna, Pennsylvania

Costs for Boeing to Manufacture Parts Are Much More Than if
Boeing Purchased the Parts
We identified two Boeing-manufactured parts in our cost analysis sample with significantly
higher prices when compared to prices of other suppliers. In fact, Boeing’s decision to
manufacture these parts resulted in $3.2 million in contract costs, and we calculated that
these costs should have been only $438,503, a difference of $2.8 million or 630.0 percent.
We found no documented justification for these expensive “buy” to “make” decisions.



                               FOR OFFICIAL USE ONLY
                                         50
    Table 20. Boeing’s Contract Prices to Manufacture Parts Were Significantly Higher
                         Than Had Boeing Purchased the Parts
                                                        IG                   Difference
                                    Contract        Calculated
                                    Price for        Fair and
Sample                                Parts         Reasonable                                      Boeing
Number           NSN                Procured           Price           Amount         Percent      Refund1
   3         3120001384083         $2,924,329        $396,098         $2,528,2302      638.3       $164,535
  206        1680011056441            276,779          42,405            234,3732      552.7
 Total                             $3,201,1072       $438,503         $2,762,6042      630.0       $164,535
1
  After we issued the draft report, Boeing provided the Army a refund for sample 3.
2
  Totals do not add due to rounding.

The AMCOM contracting officer needs to document reasons for Boeing to manufacture parts
at significantly higher prices than what the prices would have been had the parts been
purchased parts. [Recommendation B.2.f – Internal Control]

Sample 3 – Sleeve Bushing (NSN 3120-00-138-4083) (Boeing Make Issue)
Officials from AMCOM and Boeing negotiated a 2007 to 2009 contract price totaling
$6.3 million for 1,483 of the sleeve bushings, and the Army procured 726 sleeve bushings at a
total price of $2.9 million; a weighted average unit price of $4,028.00. However, DCAA and
DCMA reviewed 2007 to 2009 supplier firm price quotes for this part that listed unit prices
ranging from            to         . Boeing officials stated that this part should not have been
proposed as a buy part because it had always been a Boeing manufactured part. Unfortunately,
the Boeing cost to manufacture the part was significantly higher than either the DLA standard
unit price or the vendor quotes reviewed by the DCAA Southern New Jersey Branch. Using
the DLA standard unit price, we calculated that the Army overpaid $2.5 million, or
638.3 percent more, for the 726 parts actually procured. We found no documentation that
supported the AMCOM decision to purchase the Boeing manufactured part at a significantly
higher price. In addition, according to AMCOM officials, there were no longer requirements
for this part because a decision was made to stop the repair program on the higher level
assembly part because it was not cost-effective. However, the person that made that decision
had since retired, and the analysis conducted to arrive at that determination was not
documented. Table 21 shows the pricing information for the sleeve bushing.

              Table 21. Sample 3 – Pricing Information for the Sleeve Bushing
                                                                                Unit        Percent
                                             Date              Quantity       Cost/Price   Difference
      DCAA Review of Vendor               10/13/2004                                  to
      Quotes
      Burdened Average Quotes
      DLA Standard Unit Price            11/20/2010               Any            545.59
      CCAD/Boeing Contract             2007 (6/19/2006)         375/375        3,845.36         604.8
      (Modification Date)              2008 (11/1/2007)         780/351        4,223.13         674.0
      Negotiated/Procured
                                       2009 (11/1/2007)          328/0         4,656.87         753.5
      Quantities

                                     FOR OFFICIAL USE ONLY
                                               51
Figure 18 shows a picture of the sleeve bushing, which is used on the Chinook helicopter.

                           Figure 18. Sample 3 – Sleeve Bushing




                        Source: Defense Distribution Depot Corpus Christi, Texas

As of April 2010, there were 1,276 of the sleeve bushings in inventory in the Army’s work-
in-process control account; inventory records show that 272 of the sleeve bushings, valued at
about $1.1 million, had been supplied by Boeing. Using the DLA standard unit price for the
                                               remaining 1,004 sleeve bushings, valued at
   CCAD inexplicably stopped $547,772, at CCAD, the total value of the
                                               inventory at CCAD was $1.7 million. DLA
     the repair program while                  also had 965 parts, valued at $526,494
     DoD still had $2.2 million                (8 monthly consumption), resulting in a total
               of inventory.                   excess DoD inventory valued at about
                                               $2.2 million. Boeing also had       of the sleeve
bushings in its inventory. According to CCAD officials, half of the quantity in the work-in-
process control account was unrestricted project stock, and the other half was restricted. We
question why CCAD inexplicably stopped the repair program while DoD still had
$2.2 million of inventory. AMCOM officials need to determine whether the suppliers that
produce the higher level assembly can use these parts as Government-furnished material
and, if not, determine whether it is more cost-effective to continue the repair program and
use the CCAD inventory, DLA inventory, and                        valued at more than
$2.2 million as part of the repair program. [Recommendation B.2.g]

Sample 206 – Manifold Tube Assembly (NSN 1680-01-105-6441) (Buy to
Make Issue)
Officials from AMCOM and Boeing negotiated a total price of $1.0 million for procurement
of 1,507 manifold tube assemblies from 2005 through 2009, and AMCOM officials procured
409 manifold tube assemblies at a total price of $276,779; a weighted average unit price of
$676.72. The Army procured 163 of the parts in 2009 at a unit price of $751.51. The Army
was previously buying the part from another manufacturer for only $82.91 per part. DoD
EMALL data shows a $103.68 standard unit price with stock on hand of 757 parts. The
annual consumption quantity for this part is 99 parts. The 2010 follow-on contract proposed
prices range from $351.16 to $407.93; however, it does not make sense for Boeing to

                                FOR OFFICIAL USE ONLY
                                          52
manufacture this part when the DoD EMALL price is $103.68. We calculated that the Army
paid Boeing $276,779 for the 409 manifold tube assemblies procured when it should have
paid only $42,405, or a difference of $234,373 (552.7 percent). Figure 19 shows the
manifold tube assembly, which is used on the Chinook helicopter.

                        Figure 19. Sample 206 – Manifold Tube Assembly




Costs for Some Parts Were In Line With Negotiated Contract Prices
Out of our cost analysis sample of 24 parts, 6 sample parts, valued at $11.3 million, were in
line with the negotiated contract amount. Although the Army consumed less parts and
Boeing was paid $220,735 less than the initial negotiated amount when compared to the fair
and reasonable price, Boeing technically did not lose money on these parts. Boeing applies a
   percent wrap rate to its parts to account for overhead costs and profit. Specifically,
Boeing’s profit percentage, included in the wrap rate, is percent. For Boeing to lose
money on these parts, the overall percent difference would have to be more than       percent.
For our sample parts, the actual price paid was 1.9 percent lower; therefore, we considered
these parts in line with the negotiated contract amount. Table 22 shows the sample parts that
had prices in line with the negotiated contract prices.

         Table 22. Parts That Had Prices In Line With Negotiated Contract Prices
                                                                IG              Difference
                                              Contract      Calculated
                                               Price for     Fair and
     Sample                                      Parts      Reasonable
     Number             NSN                   Procured        Price        Amount       Percent
         6          1615011994145            $ 4,827,152
                                                                                    *
         8          1615011987553               4,520,724
        67          1615012053921               1,072,971
        83          1560011153618                 605,314
       222          1620008689795                 305,486
       276          6105011204285                   3,266
      Total                                  $11,334,911*   $11,555,646   ($220,735)     (1.9)
    *
        Totals do not add due to rounding.

                                     FOR OFFICIAL USE ONLY
                                               53
Boeing’s Actual Costs Are Significantly Lower Than the
Estimates Used to Establish Firm-Fixed Prices
Because of the pricing problems identified in this report that consistently favored Boeing and
the fact that AMCOM does not have an experienced cost/price analysis group, we consider
the use of a firm-fixed-price contract to be too high risk. The audit showed that due to
Boeing’s business practices, there is a high probability that its actual costs were significantly
                                                 lower than the estimates used to establish
      Due to Boeing’s business                   firm-fixed prices. We believe the fixed-price
                                                 incentive is far more appropriate for use when
      practices, there is a high                 cost uncertainties are too great to use a firm-
      probability that its actual                fixed-price contract, when costs can be
    costs are significantly lower                identified and quantified to the extent that a
                                                 reasonable target can be established, and when
     than the estimates used to                  a price ceiling can be applied with confidence
     establish firm-fixed prices.                that it will not be breached. We also believe it
                                                 will be difficult for AMCOM officials to
negotiate an effective follow-on contract to address both the inventory and pricing issues
without outside technical support. Therefore, we are recommending that the Director,
Defense Procurement and Acquisition Policy, establish a “rapid improvement team” of
logistics and pricing experts to provide technical advice to the AMCOM contracting officer.
In addition, the Director, Defense Procurement and Acquisition Policy, should establish
policy showing a clear preference for the use of fixed-price incentive contracts on contracts
exceeding $100 million (including option years) unless the Government objective price was
developed by an experienced cost/price analysis group.

AMCOM officials need to negotiate a fixed-price-incentive contract for the follow-on
CCAD/Boeing contract so both parties may benefit from Boeing negotiating lower prices
with its suppliers. [Recommendation B.2.h – Internal Control]

The Director, Defense Procurement and Acquisition Policy, needs to establish a “rapid
improvement team” of logistics and pricing experts to provide technical advice to the
AMCOM contracting officer to address inventory and pricing issues on the follow-on
CCAD/Boeing contract. [Recommendation B.3.a] The Director also needs to establish
policy showing a clear preference for the use of fixed-price incentive contracts on contracts
exceeding $100 million (including option years) unless the Government objective price was
developed by an experienced cost/price analysis group. [Recommendation B.3.b]

Poor Communication Between CCAD Workers and Boeing
for Potential Nonconforming Parts at CCAD
During a visit to CCAD in September 2010, CCAD workers showed us three problem parts
that were requiring significant amounts of rework or were not usable. They also showed us a
bearing that had an expired lubrication date and required re-lubing in the CCAD bearing shop
at a cost of about $150 each. CCAD workers explained that the new direct selector sets and
linear actuating cylinder pistons, both swivel and pivot, were not working up to 50 percent of
the time. CCAD workers stated that they had mentioned the nonconforming parts issues to

                                FOR OFFICIAL USE ONLY
                                          54
Boeing, however no corrective action had been taken. During a September 2010 meeting,
Boeing officials stated that they were unaware of any issues regarding the parts. Boeing later
explained that they had some records in their archives regarding the parts and that Boeing
engineers were beginning to address the issues. See Appendix D, “Potential Nonconforming
Parts,” for details.

We contacted an engineer with the Army Aviation and Missile Research Development
Engineering Center who stated that he thought the problem with the direct selector sets and
the linear actuating cylinder pistons may relate to improper use of an anti-seize thread
compound. He stated that the problem had been ongoing for several years, but in his recent
testing of new and old parts, he had found the parts were not working about 5 percent to
8 percent of the time. The engineer stated that he wanted to try the anti-seize thread
compound first to determine if the part was nonconforming before involving Boeing
engineering support because he thought the problem may be a technique issue with how the
compound was applied. The engineer stated that he consulted Boeing engineering personnel
on his findings, and they provided technical suggestions, which were successful on three new
pistons and lockrings. He also stated that the Army depot maintenance work requirement
manual covered part of the technique, and he is modifying the manual to incorporate the
remainder of the new technique. The engineer stated that Boeing removed the second onsite
engineer, who previously assisted in such issues, from the Army Aviation and Missile
Research Development Engineering Command office at Corpus Christi Naval Air Station.

The CCAD/Boeing contract did not include language regarding nonconforming parts;
however, AMCOM officials are paying Boeing for engineering support; and therefore,
Boeing should be involved in determining whether parts are nonconforming. AMCOM
officials need to involve Boeing engineers in determining whether the direct selector sets and
linear actuating cylinder pistons are nonconforming parts and address the expiration dates
related to re-lubing bearings. [Recommendation B.2.i] AMCOM officials also need to
implement procedures to promptly notify Boeing and appropriate Government officials
regarding potential nonconforming parts. [Recommendation B.2.j]

According to the Director Aviation Logistics, AMCOM Contracting Center, when the
follow-on CCAD/Boeing contract is definitized, it will include a clause regarding
nonconforming parts. Specifically, the clause will require the Government to notify Boeing
upon discovery of nonconforming materials and require Boeing to support the return and
replacement of the affected parts at no additional cost to the Government.

Management Comments on the Finding and Our Response

Department of the Army Comments
The Commander, AMCOM, stated that the contracting officers used approved methodologies
in determining fair and reasonable prices based on the data available at the time of
negotiations, and that DCAA and DCMA also participated in reviewing the proposed bill of
materials. The Commander also stated that for the follow-on contract, 7 items were priced
lower than the IG recommendations and 10 items were in line. Additionally, he stated that in
addition to the DCAA audit process, DCMA and contracting teams intensely evaluated the

                               FOR OFFICIAL USE ONLY
                                         55
follow-on contract using price analysis techniques. Further, the Commander stated that
dynamic changes can occur to impact the depot workload, such as major program changes or
depot overhaul factor changes. He stated that these changes regularly result in fluctuations of
quantities of parts required and that the contract type needs to be flexible enough to allow for
these changes, recognizing that this may not lead to the lowest price solution by the partner.

Our Response
We commend the AMCOM contracting officer for obtaining lower contract prices for the
sample items on the follow-on contract. For the initial contract, the contracting officer may
have used “approved methodologies in determining fair and reasonable prices,” including
reviews by both DCAA and DCMA, but those methodologies could be improved. The
methodologies need to ensure that Boeing prepared a complete, current, and accurate
proposal and performed appropriate cost and price analysis of subcontractor proposals before
negotiations with the Government to prevent the blatant pricing problems identified in the
report. Additionally, when program changes result in significantly higher quantities of parts
being procured and lower costs to Boeing, we believe the discounts should be passed on to
the Government.

Recommendations, Management Comments, and Our Response

Revised Recommendation
As a result of management comments, we revised Recommendation B.3.a to clarify the
actions needed to address excess inventory and pricing issues.

B.1. We recommend that the Director, Defense Contract Management Agency, instruct
the Contractor Purchasing System Division Director to identify the purchasing system
at Boeing-Philadelphia as high risk and schedule a purchasing system review to
determine whether Boeing conducts subcontractor price and cost analyses before prime
contract negotiations and whether quantity discounts are being adequately passed on to
the Government.

Defense Contract Management Agency Comments
The Acting Executive Director, Contracts, DCMA, agreed stating that DCMA has identified
Boeing Philadelphia’s Purchasing Systems as high risk, and a Contractor Purchasing System
Review is scheduled for July 11, 2011. The Acting Executive Director stated that the review
will address the timing of subcontractor analysis and whether discounts are passed on to the
Government.

Our Response
The Acting Executive Director, Contracts, DCMA, comments are responsive. No further
comments are required.

B.2. We recommend that the Commander, Army Aviation and Missile Life Cycle
Management Command, instruct the contracting officer to:



                               FOR OFFICIAL USE ONLY
                                         56
       a. Obtain refunds from Boeing for the national stock numbers priced with
defective data (1680-00-245-1833, 3020-00-566-2521, 3120-00-834-1507, 3120-00-866-
6099, 1650-00-955-9588, 1560-00-409-4101); unnecessary pass-through costs (1650-00-
834-1430); and correct prices on the follow-on contract (1650-00-834-1430 and 3110-01-
136-9793).

Department of the Army Comments
The Commander, AMCOM, partially agreed. The Commander stated that he could not agree
with the allegation of defective data until DCAA completed a post award audit of the
contract. Specifically, the Commander disagreed with obtaining refunds for NSNs 3120-00-
834-1507 (sample 356) and 1650-00-955-9588 (sample 376) pending the results of the
DCAA defective pricing audit. The Commander stated that AMCOM has requested the
audit, and if defective pricing is identified, AMCOM will obtain appropriate adjustments. He
agreed, however, with accepting refunds for pricing anomalies for some parts.

The Commander stated that Boeing submitted a voluntary refund of $1,657,804.62 for five
parts: NSNs 1680-00-245-1833 (sample 5), 3020-00-566-2521 (sample 91), 3120-00-866-
6099 (sample 371), 1560-00-409-4101 (sample 398), and 5307-01-163-4676 (sample 110).
The Commander stated that Boeing was pursuing a refund from                 for the apparent
excessive markup on NSN 1650-00-834-1430 (sample 45) and Boeing will refund AMCOM
an appropriately adjusted amount upon recovery from                He also stated that the
follow-on contract quantity for this part will be supplied with Government-furnished material
in existing inventory. In addition, the Commander stated that the follow-on contract will use
DLA-supplied inventory for NSN 3110-01-136-9793 (sample 415).

Our Response
Although the Commander, AMCOM, partially agreed, the comments are responsive. We
agree with the Commander’s action to request a DCAA post award audit of the contract and,
if the audit identifies defective pricing, then contractor offsets should be addressed, as
required by statute. However, Boeing had information that was reasonably available before
the material certification cutoff dates that was not used to support contract prices. Although
the Commander did not agree with the allegation of defective data pending the results of the
DCAA post award audit, Boeing provided, and AMCOM accepted, refunds for pricing
anomalies of $1,657,804.62 that were in line with our calculations.

We disagree with AMCOM’s position on NSNs 3120-00-834-1507 (sample 356) and 1650-
00-955-988 (sample 376). The Commander stated that Boeing used a firm-price quote rather
than procurement history to establish the proposed price for sample 356, and that the
historical procurement quantities we used were not reasonably related to the firm price
Boeing used in its proposal. However, we based our calculation on a weighted average of
Boeing purchase orders that included quantities similar to contract requirements.
Specifically, the two most recent purchase orders (issued 2 and 8 months before the material
certification cutoff date) were for quantities similar to the contract requirements at unit prices
that were about         less than the contract price. Therefore, the Boeing contract price is not
supported by Boeing purchase history for this part. As the Commander states, the follow-on
contract pricing is in line with our calculation; therefore, our position remains that Boeing

                                FOR OFFICIAL USE ONLY
                                          57
should provide the Army a refund of            for this part. For sample 376, the Commander
stated that the procurement we used to calculate impact did not occur until more than 1 year
after agreement on contract price. We used a conservative weighted average of two purchase
orders that Boeing placed in 2003 and 2006; both were issued before the material
certification date of June 1, 2006. It remains our position that Boeing should provide the
Army a refund of            for this part. However, the DCAA defective pricing audit should
address these issues; therefore, no further comments are required.

      b. Procure national stock number 1650-00-834-1430 directly from the original
equipment manufacturer unless Boeing procures the part from the original equipment
manufacturer at a fair and reasonable price.

Department of the Army Comments
The Commander, AMCOM, agreed. He stated that for the follow-on contract, NSN 1650-
00-834-1430 will be supplied with Government-furnished material in existing inventory.

Our Response
The Commander, AMCOM, comments are responsive. No further comments are required.

       c. Request a refund from Boeing for the national stock numbers for which lower
prices were negotiated with suppliers shortly after prices were negotiated with the
Army (3110-01-356-0489, 6105-00-463-4901, 6105-00-251-2494, 1615-01-219-8666, 5340-
01-161-1199, 3120-00-881-0018, 1650-00-955-9586).

Department of the Army Comments
The Commander, AMCOM, disagreed. The Commander stated that because the contract is
firm-fixed-price, the bulk of the risk is inherently to Boeing. He stated that Boeing develops
pricing based on manufacturing and vendor prices for a five-year contract with initial
proposal submission, which adds risk based on a potentially changing economic
environment. In addition, he stated that the requirement for Boeing to provide 100 percent of
the material puts Boeing at risk of acquiring material that may never be used because of the
dynamic depot workload environment. The Commander stated that there is no justification
to request a refund for pricing of the seven parts in our sample because Boeing used quotes to
establish its proposed price, proposed quantities were based on input from CCAD, and our
calculations were based on prices that were dated after the material certification cutoff date.

Our Response
The Commander, AMCOM, comments are partially responsive. We recognize that the
contractor assumes risk in a firm-fixed-price contract. However, for the seven sample parts,
Boeing purchased parts using combined buys, resulting in lower unit prices than proposed.
For five of the seven parts, the Boeing quote used to establish the contract price was
significantly higher than the price that Boeing negotiated with its supplier within 3 months
after the material certification cutoff date. For another part, Boeing had a price quote with
quantity discounts but did not apply the discounted price when the contract quantity
increased. We found a recurring issue with the Government negotiating prices based on

                               FOR OFFICIAL USE ONLY
                                         58
vendor quotes that are much higher than the actual prices Boeing negotiates with its
suppliers. Our recommendation that the follow-on contract be fixed-price incentive instead
of firm-fixed-price (Recommendation B.2.h) was designed to address this issue. However, as
stated in our response to that recommendation, we recognize that there is an administrative
burden associated with a fixed-price incentive contract. Therefore, another option would be
to conduct an annual review of a limited selection of parts designed to identify instances
where vendor quotes were significantly higher than negotiated supplier prices and take action
to renegotiate prices before exercising future options. Although Boeing did not break the
rules in pricing the noted parts, we believe that when Boeing procures higher quantities of
parts, resulting in much lower prices, the discounts must be shared with the Army.

In a meeting subsequent to receiving the Commander’s comments, the Commander stated
that AMCOM contracting officials will perform an annual review of a sample of high-risk,
high-dollar parts to validate the individual prices before exercising follow-on orders. This
action, in addition to the defective pricing audit that the Commander stated he requested
DCAA to perform, meets the intent of the recommendation; therefore, no further comments
are required.

       d. Procure, or have Boeing procure, national stock number 6105-00-463-4901
from Defense Logistics Agency Aviation at the significantly lower price to save
$2,259,688 over the next 5 years.

Department of the Army Comments
The Commander, AMCOM, partially agreed. The Commander stated that stock is available
in the Boeing warehouse to support FY 2011 overhaul requirements. The Commander also
stated that AMCOM will direct Boeing to use DLA stock to support FY 2012 overhaul
requirements.

Our Response
The Commander, AMCOM, comments are responsive. We agree with the Army using
Boeing warehouse stock for FY 2011 overhaul requirements. However, going forward,
AMCOM should direct Boeing to use DLA stock to support not only FY 2012 overhaul
requirements, but future overhaul requirements as well. As shown in Table 17, AMCOM can
realize additional savings of $984,559 by procuring the part from DLA to meet FY 2013 and
FY 2014 overhaul requirements. In response to Recommendation A.3.a, the Commander
stated that the follow-on contract requires Boeing to use DLA as the preferred supplier for
DLA-managed items that are determined to be the best value to the Government in terms of
price, delivery, and quantity. Therefore, we would expect DLA to be the first source of
supply for this part in FY 2013 and FY 2014 to realize additional savings of $984,559. No
further comments are required.

      e. Ensure that the follow-on contract does not include any clauses that would
prevent the Army from obtaining economic order quantity pricing.




                               FOR OFFICIAL USE ONLY
                                         59
Department of the Army Comments
The Commander, AMCOM, agreed. He stated that the follow-on contract does not contain
any clauses or language that would preclude the Army from obtaining economic order
quantity pricing.

Our Response
The Commander, AMCOM, comments are responsive. No further comments are required.

        f. Document reasons for Boeing manufacturing parts at significantly higher
prices than what the prices would have been had the parts been purchased.

Department of the Army Comments
The Commander, AMCOM, stated that the recommendation does not require an agreement
or disagreement, and provided details of the two sample parts that Boeing manufactured.
Specifically, for NSN 3120-00-138-4083 (sample 3), the Commander stated that Boeing used
a firm quote to establish prices for this part even though Boeing’s system always coded this
part as a make part. The Commander further stated that Boeing’s supplier was unwilling to
price these parts for 2007 through 2009, citing fluctuating steel prices; and therefore, Boeing
revised its proposal using its estimate of the cost to make the item. The Commander
commented that during review of the item, Boeing officials realized they had miscalculated
the amount of raw material to manufacture the item, and therefore, submitted a refund to the
Army. For NSN 1680-01-105-6441 (sample 206), the Commander stated that Boeing priced
this part based on its manufacturing costs. He stated that the Boeing make-buy decision is a
function of Boeing’s production system, and not separate for each contract. The Commander
also stated that the qualification of parts purchased by DLA would need to be explored in
some detail before Boeing could commit to obtaining the parts from DLA.

Our Response
The Commander, AMCOM, comments are responsive. No further comments are required.

       g. Determine whether the suppliers that produce the higher level assembly for
national stock number 3120-00-138-4083 can use these parts as Government-furnished
material and if not, determine whether it is more cost-effective to continue the repair
program and use the Corpus Christi Army Depot inventory, Defense Logistics Agency
inventory, and                  valued at more than $2.2 million as part of the repair
program.

Department of the Army Comments
The Commander, AMCOM, stated that the recommendation does not require an agreement
or disagreement. The Commander also stated that the CCAD Chinook Horizontal Hinge Pin
program was initially canceled based on the extensive time required to process these for
repair through the depot. He stated that this was a business decision made by the AMCOM
Integrated Materiel Management Center senior management to ensure the depot met
readiness requirements. The Commander stated that AMCOM is providing pins as
Government-furnished material to the partnership contract. He further stated that as the

                               FOR OFFICIAL USE ONLY
                                         60
inventory is drawn down, AMCOM will take action to determine if it is economically
feasible to reinstate the processing of horizontal hinge pins at the depot and, if so, AMCOM
will take action to drawdown sleeve bushing inventory.

Our Response
The Commander, AMCOM, comments are responsive. No further comments are required.

       h. Negotiate a fixed-price incentive contract for the follow-on contract so both
parties would benefit from Boeing negotiating lower prices with its suppliers.

Department of the Army Comments
The Commander, AMCOM, disagreed. The Commander stated that due to the extreme
variations that regularly occur in the depot workload, a fixed-price incentive contract would
create a tremendous administrative burden and increase the probability of inaccuracies in
determining incentives earned. Instead, the Commander stated that the follow-on contract
will include an incentive to reduce the material consumed in depot production and/or price of
material, thereby reducing the total material cost to the depot.

Our Response
The Commander, AMCOM, comments are partially responsive. We recognize that a fixed-
price incentive contract is more of an administrative burden. Although we believe that a
fixed-price incentive contract would be best, another option would be to annually perform a
cost analysis on a limited sample of high-risk, high-dollar value parts and make changes to
prices as appropriate before exercising options. Our audit report on the partnership contract
with The Sikorsky Aircraft Corporation will address the effectiveness of the material cost
reduction clause in that contract.

In a meeting subsequent to receiving the Commander’s comments, the Commander stated
that AMCOM contracting officials will perform an annual review of a sample of high-risk,
high-dollar parts to validate the individual prices before exercising follow-on orders. This
action, in addition to the inclusion of the material incentive clause in the follow-on contract,
meets the intent of the recommendation; therefore, no further comments are required.

       i. Involve Boeing engineers in determining whether the direct selector sets and
linear actuating cylinder pistons are nonconforming parts and address the expiration
dates related to re-lubing bearings.

Department of the Army Comments
The Commander, AMCOM, agreed. The Commander stated that CCAD has initiated a
Corrective Action Request identifying the non-conformance of lubing and packaging for
bearings with recommended action required to correct the deficiencies. The Commander
also stated that CCAD is coordinating with personnel from CCAD Quality and the Army
Aviation and Missile Research Development Engineering Center to determine appropriate
action regarding the direct selector sets and liner actuating cylinder pistons.



                                FOR OFFICIAL USE ONLY
                                          61
Our Response
The Commander, AMCOM, comments are responsive. No further comments are required.

      j. Implement procedures to promptly notify Boeing and the Government
regarding potential nonconforming parts.

Department of the Army Comments
The Commander, AMCOM, agreed. The Commander stated that the follow-on contract
includes a clause to address non-conformance and misidentification of material. The
Commander also stated that CCAD Path Forward will develop and implement a Letter of
Instruction for processing and resolution of non-conforming material.

Our Response
The Commander, AMCOM, comments are responsive. No further comments are required.

B.3. We recommend that the Director, Defense Procurement and Acquisition Policy:

      a. Require that the Army Aviation and Missile Life Cycle Management
Command report on how inventory and pricing issues were improved on the follow-on
contract.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, partially agreed with the draft
report recommendation to form a rapid improvement team but stated that the team of
logistics and pricing experts should be assembled and led by the Army. The Director stated
that if the Army requires external support, his office will help them obtain expertise from
DCMA, DCAA, and other Defense Components. The Director requested that this
recommendation be redirected to the Army.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments are partially
responsive. The AMCOM Contracting Center definitized the follow-on contract on
December 31, 2010. Therefore, instead of forming a rapid improvement team, the Director
should require AMCOM officials to report to him on how they addressed the inventory and
pricing problems in the contract. Therefore, we revised the recommendation and request that
the Director provide additional comments on the revised recommendation in response to the
final report.

      b. Establish policy showing a clear preference for the use of fixed-price incentive
contracts on all contracts exceeding $100 million (including option years) unless the
Government objective price was developed by an experienced cost/price analysis group.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, partially agreed. The Director
stated that he agrees that fixed-price incentive contracts should be used when appropriate and

                               FOR OFFICIAL USE ONLY
                                         62
will issue a policy memorandum reminding contracting officers to do so. However, the
Director stated that a more appropriate solution is to ensure that adequate experienced pricing
resources are available to support all procurements regardless of dollar value. He stated that
he recently revised the Defense Federal Acquisition Regulation Supplement Policy,
Guidance, and Information 215.404-2, “Information to support proposal analysis,” to
increase the thresholds for field pricing audits to $100 million for cost-type proposals and
$10 million for fixed-price proposals. He stated that this will ensure that adequate DCAA
audit resources are available for higher risk work. In addition, the Director stated that the
Department is hiring a significant number of contract cost and price analysts, and
accordingly, in the future, there should be only limited cases where adequate pricing and
audit expertise is not available to analyze contractor proposals exceeding $100 million.

Our Response
Although the Director, Defense Procurement and Acquisition Policy, only partially agreed,
his comments are responsive. No further comments are required.




                               FOR OFFICIAL USE ONLY
                                         63
Finding C. Payments for Unachieved Repair
Turnaround Time Improvements
AMCOM officials overstated repair turnaround time (RTAT) improvements for Phase II of
the CCAD/Boeing contract. AMCOM officials calculated a 46.7 percent performance
improvement, but the actual RTAT performance improvement ranged from 26.1 percent to
36.9 percent.26 Therefore, AMCOM officials paid Boeing for performance improvements
that were not achieved. RTAT improvements were overstated because AMCOM officials
used inconsistent methodologies to calculate the Phase II RTAT contract baseline.
Specifically, baseline calculations included shiftwork, while the calculations for actual
contractor performance were based on days, with no regard for shiftwork. In addition,
AMCOM officials did not enforce the Phase III contract requirements for pursuing refunds
when Boeing did not meet RTAT metrics. As a result, we calculated that AMCOM officials
overpaid Boeing for Phase II RTAT improvements in the first 3 option years by $3.8 million
to $8.4 million, and Boeing owes the Army a refund of $2.4 million for the fourth option
year; for a total amount due to the Army of $6.3 million to $10.9 million.27 Boeing also
owes the Army an additional $538,688 for not meeting Phase III RTAT contract
requirements.

AMCOM RTAT Expectations
The acquisition plan for the CCAD/Boeing contract listed achieving a 50 percent reduction in
RTAT as one of the main goals of the partnership and stated that “in order to meet program
requirements and reduce operation and support costs, it is necessary that a 50 percent
reduction in RTAT be achieved.” Furthermore, the acquisition plan stated that reduced
RTAT would improve supply availability and provide for dollar savings in inventory,
warehousing, and management. Specifically, AMCOM officials expected a one-time savings
of $74 million due to a 50 percent reduction in RTAT. The business case analysis for the
CCAD/Boeing contract also listed reductions in RTAT as a goal of the partnership; however,
it cited higher expected cost savings in the “triple-digit millions” if Boeing achieved the
50 percent reduction in RTAT.

Contract Requirements Were Different From Baseline
The CCAD/Boeing contract included performance metrics for RTAT with the potential for
Boeing to earn incentives annually if it reduced RTAT beyond the stated contract
requirements. The contract also allowed for disincentives if Boeing did not meet the stated
contract requirements. The RTAT reductions for Phase II components were to be evaluated
separately from Phase III components.




26
   Boeing and AMCOM officials provided conflicting data to support the contract RTAT baseline calculations.
Original supporting documents used to develop the baseline were not available; therefore, we used both sets of
data and identified RTAT improvements as a range from 26.1 percent to 36.9 percent.
27
   Totals are rounded.

                                     FOR OFFICIAL USE ONLY
                                               64
Baseline Included Shiftwork for Phase II Components
Contract modification P00006, November 1, 2004, established the Phase II RTAT
requirements. The requirement was for Boeing to assist CCAD in reducing RTAT by
50 percent by the end of the 5-year performance period, October 31, 2009. The contract did
not include requirements for the base year but specified requirements for each of the 4 option
years. The RTAT definition for Phase II programs was the average of calendar days from the
date DLA delivered the component to be repaired to CCAD, to the date DLA picked up the
repaired component from CCAD.

Different Methodologies for Baseline and Actual Performance
The contract baseline for Phase II RTAT was 212 days. This figure was based on data
compiled from November 1, 2000 through October 31, 2004, and was calculated by dividing
the total number of cycle days worked on roughly 44 CCAD repair programs by the quantity
of end parts produced. Cycle days were calculated as the total number of repair days per end
part multiplied by the number of shifts reportedly worked by CCAD personnel. For example,
if it took 250 days to repair an end part and during that time CCAD personnel worked
two shifts, the number of cycle days used in the RTAT formula would be 500 days.
However, AMCOM officials used a different methodology to calculate the actual contractor
performance than it used for the baseline. AMCOM officials excluded all shiftwork from the
calculation of actual contractor performance, even though according to the CCAD line
managers that we interviewed, multiple shifts and overtime were still being worked on
Phase II repair programs during the performance period of the CCAD/Boeing contract. The
line managers also stated it would have been difficult to determine when multiple shifts were
used for the repair programs in the baseline calculation.

Table 23 shows an example of the baseline data that were evaluated for repairs that DLA
delivered to CCAD and accepted as repaired from CCAD from May 2002 through
August 2004 for NSN 1680-01-232-0038, a gearbox assembly used on the Apache
helicopter. According to the baseline data, two shifts were always worked on this program
during that time period. As shown in Table 23, when shifts were accounted for, the RTAT
was 168 days. However, if AMCOM officials were using this data to determine actual
performance, shifts would have been ignored, and the RTAT would be only 84 days.

               Table 23. Multiple Shifts Could Double the Baseline RTAT
                           Average            Total                     Total
             Quantity     Repair Days      Repair Days     Shifts     Cycle Days     RTAT
 Baseline      53             84              4,452          2          8,904         168
 Actual        53             84              4,452          0          4,452          84

Contract Baseline Compared to Boeing Performance
AMCOM officials reported a significant improvement in RTAT after the base year of the
contract using the inconsistent methodology between the baseline and actual contractor
performance RTAT calculations. Specifically, actual contractor performance during the base
year was 105 days instead of the contract baseline of 212 days; a 50.5 percent improvement.
However, the contract did not provide for incentive payments in the base year of the contract.

                               FOR OFFICIAL USE ONLY
                                         65
By the end of the 5-year performance period, the reported RTAT improvement had decreased
slightly to 46.7 percent. As shown in Table 24, AMCOM calculations show a 43.4 percent
RTAT improvement in the first option year and only a 46.7 percent improvement by the
fourth option year.28

              Table 24. Phase II Contract Requirements and Boeing Performance
                                    Reported by AMCOM
                                          First            Second              Third           Fourth
                         Baseline      Option Year       Option Year         Option Year     Option Year1
                                       Days     %2       Days    %           Days    %       Days    %
Contract
                            212        197        7.0     170      20.0      138      35.0    106       50.0
Requirement
Actual
                                       120      43.4      117      44.8      116      45.3    113       46.7
Performance
Performance
Improvement
                                                39.1               31.2               15.9             (6.6)
Over Required
Minimum
1
    RTAT data for the fourth option year were compiled only through April 30, 2009.
2
    Percentages are cumulative.

DoD IG Revised Baseline Compared to Boeing Performance
The methodologies for calculating the RTAT baseline and actual contractor performance
need to be consistent. By applying shiftwork adjustments to the baseline and not to actual
contractor performance, the baseline was overstated. Therefore, we recalculated the Phase II
RTAT baseline to exclude the shiftwork adjustment, consistent with how AMCOM officials
calculated actual contractor performance. Using baseline data provided by Boeing, we
eliminated shiftwork from the baseline calculation, which lowered the Phase II RTAT
baseline to 153 days instead of 212 days in the contract.

Keeping the same required annual percentage reduction requirements for RTAT
improvement that were detailed in the contract, we determined that Boeing improved RTAT
by 26.1 percent over the performance period versus the 46.7 percent improvement using the
overstated baseline. The improvement in the first option year was still significant,
21.6 percent, but about half of what AMCOM officials reported using the overstated
baseline.




28
  AMCOM officials compiled RTAT performance data for Phases II and III only through April 30, 2009,
instead of the contract required date of October 31, 2009, because of the implementation of LMP. Therefore,
the reported actual contractor performance data for the fourth option year is only for half of the year.

                                      FOR OFFICIAL USE ONLY
                                                66
If the baseline had been calculated consistently, Boeing would not have met contract
requirements in the third and fourth option years, as shown in Table 25.

            Table 25. Phase II Contract Requirements and Boeing Performance
                            With the DoD IG Revised Baseline
                                    First             Second               Third              Fourth
                    DoD IG       Option Year        Option Year         Option Year        Option Year1
                    Baseline
                                 Days     %2        Days    %          Days      %         Days     %
Contract
                       153         142       7.0     122       20.0      99        35.0     77     50.0
Requirement
Actual
                                   120      21.6     117       23.5      116       24.2    113     26.1
Performance
Performance
Improvement
                                            15.5                4.1               (17.2)          (46.8)
Over Required
Minimum
1
  RTAT data for the fourth option year were compiled only through April 30, 2009.
2
  Percentages are cumulative.

Revised AMCOM Baseline Compared to Boeing Performance
In response to a discussion draft report, AMCOM officials stated that Boeing provided us
incomplete baseline data. AMCOM officials also stated that the data provided by Boeing
were manually entered and that the system used to track RTAT had additional baseline data.
AMCOM officials eliminated shiftwork from the revised baseline data and calculated that the
contract baseline should have been 179 days. Using the revised AMCOM baseline, we
determined that Boeing improved RTAT by 36.9 percent over the contract performance
period. Boeing would not have exceeded the contract requirements in the third option year
and would not have met the contract requirements in the fourth option year, as shown in
Table 26.

            Table 26. Phase II Contract Requirements and Boeing Performance
                           With the Revised AMCOM Baseline
                                     First             Second              Third              Fourth
                    AMCOM         Option Year        Option Year        Option Year        Option Year1
                    Baseline
                                  Days     %2        Days    %         Days      %         Days     %
Contract
                        179         166       7.0     143      20.0      116      35.0      90     50.0
Requirement
Actual
                                    120      33.0     117      34.6      116      35.2     113     36.9
Performance
Performance
Improvement
                                             27.7              18.2               0.0             (25.6)
Over Required
Minimum
1
  RTAT data for the fourth option year were compiled only through April 30, 2009.
2
  Percentages are cumulative.



                                    FOR OFFICIAL USE ONLY
                                              67
Baseline Did Not Include Shiftwork for Phase III Components
Contract modification P00036, June 19, 2006, established the Phase III RTAT requirements.
The requirement was to reduce RTAT by 35 percent by October 31, 2009. The contract did
not include requirements for the base and first option year, but specified requirements for the
second, third, and fourth option years. The RTAT definition for Phase III programs was the
weighted average of calendar days from the date of DLA delivery of the component to be
repaired to CCAD, to DLA pickup of the repaired component from CCAD.

The contract baseline for Phase III RTAT was 121 days. This figure was based on data
compiled from October 1, 2003 through December 31, 2005, for roughly 119 CCAD repair
programs. AMCOM officials calculated the baseline and actual contractor performance
consistently for the Phase III programs; therefore, we did not recalculate the baseline as we
did for the Phase II programs. As shown in Table 27, Boeing improved RTAT for Phase III
programs by 18.2 percent over the 3 option years, but did not meet the contract requirements
for any of the option years. In fact, actual contractor performance during the second option
year was below the baseline.

              Table 27. Phase III Contract Requirements and Boeing Performance
                                                  Second                  Third                 Fourth
                                 Baseline       Option Year           Option Year            Option Year1
                                                Days     %2          Days        %          Days       %
Contract Requirement                121         113      7.0           97       20.0         79      35.0
Actual Performance                              123     (1.7)        114        5.8          99      18.2
Performance
Improvement Over                                          (8.9)                 (17.5)              (25.3)
Required Minimum
1
    RTAT data for the fourth option year were compiled only through April 30, 2009.
2
    Percentages are cumulative.


Incorrect Incentive Payments
After CCAD and Boeing agreed on the final RTAT reduction determination, the contracting
officer and Boeing were to identify the appropriate incentive achieved. Incentive payments
(awards or refunds) were based on a comparison of the actual contractor performance to the
contract requirements. Specifically, the contract stated:

                   For each percent of reduction achieved above the minimum RTAT (based
                   on the aggregate performance for all parts in the qualified population)
                   Boeing will receive an amount equaled to that percentage applied against
                   the value of the material CLIN(s) [contract line item number(s)] of the
                   specific Phase of contract for that same performance period not to exceed a
                   maximum of 5.25 percent for Phase II and +/- 3 percent for Phase III. For
                   each percentage of reduction below the minimum RTAT, Boeing’s profit
                   shall be reduced downward not to exceed a maximum reduction of
                   5.25 percent for Phase II and +/- 3 percent for Phase III.




                                      FOR OFFICIAL USE ONLY
                                                68
Incorrect Payments for Phase II Performance
Boeing was to receive an incentive payment of up to 5.25 percent of the material costs for
each percent achieved above the contract requirement. However, the opposite was also true,
and for every percent below the contract requirement, Boeing would owe a refund of up to
5.25 percent of the material costs. AMCOM officials paid Boeing incentive payments for
Phase II performance during the first 3 option years of the contract. However, Boeing did
not always achieve RTAT improvements above the contract requirement. Table 28
summarizes the percent improvement over the required minimum that Boeing achieved using
the inconsistent contract baseline, which included shiftwork, and the DoD IG and AMCOM
revised baselines, which eliminated shiftwork.

                      Table 28. Percent Improvement Over Required Minimum
                                  Contract                  AMCOM                       DoD IG
             Option               Baseline               Revised Baseline           Revised Baseline
              Year               (212 Days)                (179 Days)                 (153 Days)
               1                    39.1                       27.7                       15.5
               2                    31.2                       18.2                        4.1
               3                    15.9                        0.0                      (17.2)
               4*                   (6.6)                     (25.6)                     (46.8)
        *
            RTAT data for the fourth option year were compiled only through April 30, 2009.


AMCOM officials paid Boeing $9.7 million in incentive payments related to the overstated
RTAT improvements for the first 3 option years. However, using the DoD IG and AMCOM
revised baselines, AMCOM officials should have paid Boeing only $1.2 million to
$5.8 million. Therefore, AMCOM officials paid Boeing about $3.8 million to $8.4 million in
contract incentives for RTAT improvements that were not achieved during the first 3 contract
option years, as shown in Table 29.

                       Table 29. Phase II RTAT Incentive Payments/Refunds

                                   Payment or (Refund)                           Amount Due to Army
     Option
      Year                               AMCOM              DoD IG            AMCOM                  DoD IG
                        Actual            Revised           Revised             Revised              Revised
        1             $2,389,379         $2,389,379        $2,389,379         $         0        $         0
        2              3,449,437          3,449,437         2,693,846                   0            755,591
        3              3,835,367                  0        (3,835,367)          3,835,367          7,670,734
     Subtotal         $9,674,183         $5,838,816       $ 1,247,858         $3,835,367         $ 8,426,325
        4*                     0         (2,441,791)       (2,441,791)          2,441,791          2,441,791
      Total           $9,674,183         $3,397,025       $(1,193,933)        $6,277,158         $10,868,116
 *
  RTAT data for the fourth option year were compiled only through April 30, 2009. Therefore, we based
 our incentive payment calculation on the data that existed for the first half of the fourth option year. As of
 November 9, 2010, AMCOM officials had not paid any incentives to Boeing for the fourth option year.




                                       FOR OFFICIAL USE ONLY
                                                 69
Using actual contractor performance data for the first half of the fourth option year, Boeing
would not have met the contract requirements using either the overstated contract baseline or
the revised AMCOM and DoD IG baselines. According to the CCAD/Boeing Contract
Liaison, Boeing stated that it would have met the RTAT performance requirements for the
fourth option year had the entire year of performance been tracked. However, actual
contractor performance had improved by only 5.8 percent from the end of the first option
year through the middle of the fourth option year (decreased from 120 days to 113 days).
Therefore, indications are that Boeing would have missed the contract requirement by more
than 5.25 percent for the fourth option year. We calculated that Boeing would owe the Army
$2.4 million for the fourth option year, as shown in Table 29.

Because the RTAT contract baseline and actual contractor performance were calculated
inconsistently, AMCOM officials overpaid incentives to Boeing by $3.8 million to
$8.4 million for the first 3 option years of the contract, based on the overstated baseline. In
addition, using actual contractor performance data for the first half of the fourth option year,
we calculated that Boeing owes the Army an additional refund of $2.4 million, for a total of
$6.3 million to $10.9 million29 for Phase II RTAT performance. The contracting officer
should request payment from Boeing for the $3.8 million to $8.4 million overpayments
associated with the RTAT performance and finalize negotiations with Boeing to determine
the appropriate refund for the fourth option year. [Recommendations C.1 and C.2]

Refunds Not Requested for Phase III Performance
For the Phase III programs, Boeing was to receive an incentive payment or pay a refund of
up to 3.0 percent of the material costs for each percent achieved above or below the contract
requirement. However, AMCOM officials did not conform to the contract in relation to
Phase III RTAT performance. As previously discussed in Table 27, Boeing did not meet any
of the contract requirements for Phase III RTAT performance. Therefore, AMCOM officials
should have pursued a refund from Boeing in the amount of 3.0 percent of material costs for
the second and third option years. However, AMCOM officials did not pursue $382,694 in
refunds from Boeing for not meeting Phase III RTAT requirements. Furthermore,
indications are that Boeing would have also missed the Phase III contract requirement for the
fourth option year by more than 3.0 percent. Boeing owes the Army a refund of $382,694 for
not meeting RTAT contract requirements in the second and third option years. Using the
actual contractor performance data and material costs reported through April 30, 2009, we
calculated that Boeing would also owe the Army $155,994 for the fourth option year, for a
total of $538,688.




29
     Totals are rounded.

                                FOR OFFICIAL USE ONLY
                                          70
Table 30 shows that Boeing did not improve RTAT performance during Phase III of the
contract and, therefore, owes the Army $382,694 for the first 3 option years and an additional
$155,994 for the fourth option year.

                   Table 30. Phase III RTAT Incentive Payments/Refunds
                Percent Improvement                Actual
   Option          Over Required                  Payment           DoD IG Calculated            Amount Due
    Year             Minimum                      (Refund)          Payment (Refund)              to Army
     2                   (8.9)                       $0                $ (95,690)                 $ 95,690
     3                  (17.5)                        0                  (287,004)                 287,004
  Subtotal                                           $0                $(382,694)                 $382,694
     4*                   (25.3)                                         (155,994)                 155,994
   Total                                              $0               $(538,688)                 $538,688
 *
  RTAT data for the fourth option year were compiled only through April 30, 2009. Therefore, we based
 our incentive payment calculation on the data that existed for the first half of the fourth option year. As of
 November 9, 2010, AMCOM officials had not paid any incentives to Boeing for the fourth option year.


The contract states that “for each percentage of reduction below the minimum RTAT,
Boeing’s profit shall be reduced downward . . .”. Therefore, AMCOM officials should have
pursued a refund of $382,694 from Boeing or reduced Phase II incentive payments to Boeing
by the same amount for not meeting Phase III RTAT contract requirements in the second and
third option years. The contracting officer should request a refund of $382,694 from Boeing.
[Recommendation C.1] In addition, using actual contractor performance data for the first
half of the fourth option year, we calculated that Boeing owes the Army an additional refund
of $155,994, for a total of $538,688 for Phase III RTAT performance. The contracting
officer and Boeing need to finalize negotiations to determine the appropriate refund for the
fourth option year. [Recommendation C.2] We are not making a recommendation to initiate
an administrative review of AMCOM officials because the original AMCOM officials who
established the RTAT methodology are no longer with the program. In addition, the follow-
on CCAD/Boeing contract does not include RTAT performance metrics or incentive
payments.

Recommendations, Management Comments, and Our Response
C. We recommend that the Commander, Army Aviation and Missile Life Cycle
Management Command, instruct the contracting officer to:

       1. Request a refund of $4.2 million ($3,835,367 plus $382,694) to $8.8 million
($8,426,325 plus $382,694) from Boeing for overpayments on Phase II programs and for
not meeting contract requirements on Phase III programs during the first 3 option
years.

Department of the Army Comments
The Commander, AMCOM, disagreed, stating that the Army does not agree that Boeing
owes a refund for this portion of the contract. Specifically, the Commander stated that a
manual review process, instead of an automated process, was used to establish the RTAT

                                     FOR OFFICIAL USE ONLY
                                               71
baseline at the beginning of the contract, and experienced depot personnel applied judgment
factors in developing the baseline of 212 days. The Commander also stated that a review of
automated system data, excluding shifts, indicates a valid baseline of 179 days. In addition,
the Commander stated that using the 179 day baseline does not support obtaining a refund
from Boeing for years 1 through 3, but establishes an incentive due to Boeing of almost
$10 million based on the established contract terms. He further stated that the contract terms
state that the RTAT reduction percentage should be applied against the value of the material
contract line item. The Commander stated that the $9.7 million incentive AMCOM officials
paid to Boeing for the first 3 option years, which was based on material sold versus the value
of the material contract line item, is less than the revised calculation; and therefore, Boeing
does not owe the Army a refund.

Our Response
The Commander, AMCOM, comments are not responsive. We disagree with the
Commander’s calculation of an incentive payment of $10 million for the first 3 option years.
In the memorandum for record dated December 14, 2006, for the initial incentive payment, the
contracting officer stated that although Boeing assumed that the RTAT incentive would be
paid based on the total material contract line item, the Army “informed Boeing that they were
not willing to incentivize them on parts not ordered or sold.” Similarly, in the memorandum
for record dated May 20, 2008, for the second option year incentive payment, the contracting
officer told Boeing that AMCOM was “not willing to incentivize on excess material,” based
on the fact that AMCOM had to buy back excessive material. Now that the contract baseline
has been decreased from 212 days to 179 days, the Commander states that Boeing should be
paid on the entire material contract line item. The Commander’s comments contradict the
contracting officer’s position of calculating the incentives against only material sold during the
first 3 option years. The Commander also did not address Boeing not meeting contract
requirements for Phase III programs. We request that the Commander reconsider his position
and provide additional comments in response to the final report.

       2. Negotiate with Boeing to determine the appropriate refund for not meeting
repair turnaround time contract requirements for Phase II and Phase III programs
during the fourth option year calculated at $2.6 million ($2,441,791 plus $155,994).

Department of the Army Comments
The Commander, AMCOM, did not agree or disagree and stated that a detailed review of the
fourth option year incentive data is in process. The Commander stated that verifiable data
available for only 6 months of the year does not provide an accurate determination as to
Boeing’s potential to achieve the contract RTAT reductions. He stated that the review
should be completed by March 31, 2011.

Our Response
The Commander, AMCOM, comments are responsive. AMCOM is reviewing available data
for the fourth option year to determine the RTAT incentive payment or refund, which meets
the intent of the recommendation. As of the date of this report, the review had not been
completed. We request that the Commander, AMCOM, provide us with the results of the
review when completed.

                                FOR OFFICIAL USE ONLY
                                          72
Finding D. Splitting Requirements for
Consumable Items Was Not Cost-Effective
The CCAD/Boeing contract was splitting instead of consolidating procurement and material
sustainment responsibilities for consumable items. Consequently, Boeing and either DLA or
the Army were procuring and managing the same items. Specifically, Boeing was
responsible for procuring and managing consumable items used at CCAD (includes
depot-only and depot-and-field replaceable items); while either DLA or the Army had
responsibility for procuring and managing consumable items to meet field-use requirements
or foreign military sales. This occurred because:

      the Army and DLA had not developed an effective procurement and material
       management strategy that addressed the most cost-effective source of supply for
       consumable items; and

      DoD had inadequate policies and procedures for consolidating procurement and
       management responsibilities for consumable items, and the strategy of using different
       sources to procure and manage the same items clearly reduced the ability to obtain
       economic order quantities and increased overall procurement and material
       management costs.

As a result, the procurement and material management consolidation goals and associated
savings of the consumable item transfer of the 1990s and the 2005 BRAC supply and storage
recommendations were not being achieved. The CCAD/Boeing contract was basically
contracting out the DLA mission and will decrease competition and the effective use of DLA
assets, increase excess capacity, and make DLA increasingly more inefficient, unless DoD
develops an effective strategy to procure and manage consumable items. Using the DoD
EMALL, we identified that DLA had sufficient inventory to satisfy annual contract
requirements for 1,635 parts on the follow-on CCAD/Boeing contract and that the contract
price for these parts was $8.0 million, or 51.2 percent, higher than the DLA price. We
identified another 431 parts in which the contract price was $10.0 million, or 43.2 percent,
higher than the DLA price, but DLA did not have enough inventory to meet contract
requirements. We also identified 757 parts in which the contract price was $14.4 million less
than the DLA price. In addition, from 2007 through 2009, Boeing made an excessive
            profit on $3.1 million of spare parts purchases from DLA for CCAD
requirements.

Consolidation Goals for Consumable Items Not Being Met
The intent of the inventory control point consolidation and the 2005 BRAC supply and
storage recommendations were to make DLA the single, integrated consumable item
procurement manager to leverage DoD’s buying power. However, the CCAD/Boeing
contract was splitting instead of consolidating procurement and material sustainment
responsibilities for consumable items. Consequently, Boeing and either the Army or DLA
were procuring and managing the same items. Using more than one entity to supply the


                               FOR OFFICIAL USE ONLY
                                         73
same parts is contradictory to the consolidation goals of the consumable item transfer of the
early 1990’s and the 2005 BRAC supply and storage recommendations.

Consumable items are identified as not economically repairable but used and discarded when
worn out or broken. Consumable items include common usage, low-cost supplies and minor
parts; such as gaskets, materials, and fasteners; and high-priced, sophisticated spare parts;
such as precision valves, micro switches, and miniature components that are vital to
operating major weapon systems.

Consolidation of Inventory Control Points
Historically, DLA and the Services had inventory control points managing consumable
items. On July 3, 1990, the Deputy Secretary of Defense approved the recommendation in
Defense Management Report Decision 926, “Consolidation of Inventory Control Points,” to
transfer item management responsibility for approximately one million consumable items
from the Services to DLA. The report concluded that the transfer of consumable items to
DLA was both cost-effective and desirable, and would produce estimated recurring annual
savings of between $45 million to $49 million (FY 1989 dollars) beginning in FY 1995. The
intent of the transfer was to consolidate the management of consumable items based on the
premise that DLA could manage the items with fewer resources than the Services.
Consolidating the Services requirements would also enable DoD to achieve economic order
quantities when procuring consumable items. The consolidation was also designed to
eliminate the duplicate management of consumable items within DoD.

2005 BRAC Recommendations
The supply and storage recommendations of the 2005 BRAC were generally in line with the
intentions of the consumable item transfer during the early 1990’s. Specifically, the
2005 BRAC recommendations directed the Services to realign or relocate management and
related support functions for the procurement of depot-level repairables to DLA and to
relocate consumable item management to DLA to consolidate missions and reduce excess
capacity. The realignment was designed to make DLA the single, integrated Army item and
DLA consumables procurement manager to leverage DoD’s buying power. The 2005 BRAC
recommendations suggest consolidating requirements of certain items to DLA by
September 30, 2011. 2005 BRAC Recommendation #176, “Depot-Level Repairable
Procurement Management Consolidation,” relates to procuring and managing aviation depot-
level repairables and consumable items and realigning functions from AMCOM to DLA.
Specifically, Recommendation #176 states:

               Realign Redstone Arsenal, AL, as follows: relocate the Budget/Funding,
               Contracting, Cataloging, Requisition Processing, Customer Services, Item
               Management, Stock Control, Weapon System Secondary Item Support,
               Requirements Determination, and Integrated Materiel Management
               Technical Support Inventory Control Point functions for Aviation
               Consumable Items to Defense Supply Center Richmond, VA, and
               reestablish them as Defense Logistics Agency Aviation Inventory Control
               Point functions; disestablish the procurement management and related
               support functions for Aviation depot-level repairables and designate them as
               Defense Supply Center Richmond, VA, Aviation Inventory Control Point
               functions; . . .

                                  FOR OFFICIAL USE ONLY
                                            74
CCAD/Boeing Contract Acquisition Strategy
The April 28, 2004, justification and approval for other than full and open competition on the
CCAD/Boeing contract stated that there was no procurement history available on an
integrated effort for services and parts to support CCAD in the overhaul and repair of the
Apache and Chinook weapon systems. Historically, parts were procured by placing
individual orders, through sole-source or competitive procedures, with contractors based on
material requisitions by CCAD. The justification and approval stated that an integrated effort
of material, engineering, and technical services was required in order for the depot to gain
capacity as it focused on production processes and improved aircraft readiness. It further
stated that AMCOM and other DoD suppliers would continue to support customers other
than CCAD, including field units, foreign military sales customers, specialized repair
activities, and other Services through the normal supply system, using individual orders on a
sole-source or competitive basis. The December 23, 2009, justification and approval for
other than full and open competition on the follow-on CCAD/Boeing contract also states that
AMCOM and DLA would continue to serve as the National Inventory Control Point using
traditional support methods for customers other than CCAD.

Figure 20 shows the material flow on the CCAD/Boeing contract. Under the contract,
Boeing was responsible for supplying consumable items to meet depot requirements at
CCAD (includes depot-only and depot-and-field replaceable items).

                   Figure 20. Material Flow on the CCAD/Boeing Contract

                    Awards Contract




        AMCOM                                Boeing
                                      (Integrated Supplier)                                             Boeing Technical
                                                                                                       Engineering Support
        Purchase Parts                                            Manufacture Parts                      (On-Site CCAD)




      Manufacturers or                                 Boeing Mesa and
                                 DLA
         Vendors                                         Philadelphia

                                                                                                Parts Needed
                                                                   Ship Parts
                                                                                                 for Repair




                                                                            CCAD Building 1217             CCAD Repair
                                                                            (Boeing Warehouse)              Operations




                                                                                      Repaired Items




                         Warfighter                           DLA Depot
                                                                                             Indicates movement of parts



                                         FOR OFFICIAL USE ONLY
                                                   75
AMCOM and DLA Purchases
Historically, either AMCOM or DLA procured different consumable items that were used to
meet CCAD, depot-replaceable, field-replaceable, and foreign military sales requirements.
AMCOM officials notified DLA in February 2004 that it intended to bundle the CCAD
requirements for the overhaul of the Apache and Chinook weapon systems. However, DLA
would still procure the field-replaceable items and satisfy those requirements for field users.
Meanwhile, in addition to the items that AMCOM procured on the CCAD/Boeing contract to
meet depot requirements, AMCOM officials continued to procure the same items to meet its
responsibility for field users, foreign military sales, and other needs, such as special repair
programs.

Figure 21 shows the material flow for the consumable items managed by either AMCOM or
DLA to meet field replaceable, foreign military sales, and other requirements, such as special
repair programs.

                                 Figure 21. AMCOM and DLA Purchases




       AMCOM
   Contracting Officer                                                              Foreign Military
                                                          Repaired Items                 Sales

              Awards Multiple
                Contracts




                            Ship Parts                   Parts Needed for Repair




                                             DLA Depot
    Manufacturers or
                                                                                     CCAD Special
       Vendors
                                                                                    Repair Programs

               Awards Multiple
                 Contracts




                                                                                        Warfighter
                                                                                   (Field Requirements)
      DLA Contracting
          Officer

                                                                              Indicates movement of parts




                                         FOR OFFICIAL USE ONLY
                                                   76
DoD Needs an Effective Strategy for Procuring
Consumable Items
DoD did not have an effective material management strategy for consumable items that
promotes economic order quantities and competition between contractors and DLA. The
consumable items transfer and the 2005 BRAC recommendations were supposed to give
more buying leverage to DLA through the transfer of procurement management and related
support functions. However, because Boeing, AMCOM, and DLA were procuring different
quantities of the same items, leverage cannot be fully realized.

Economic Order Quantities
Procuring items in economic order quantities is a statutory requirement. Specifically,
10 U.S.C. § 2384a, “Supplies: economic order quantities,” states that agencies must procure
supplies in such quantity that will result in the most advantageous total cost and unit cost and
does not exceed the quantity reasonably expected to be required by the agency. Having more
than one entity procuring the same parts generally is not a best business practice and
frequently does not allow DoD to take advantage of economic order quantities. Table 31
shows some additional examples of our sample items in which economic order quantities
affect prices. Finding B also shows numerous examples of economic order quantity issues.

       Table 31. Procuring Economic Order Quantities Would Save DoD Money
                  2009 Boeing                    Historical                       Price
     Sample        Contract       Boeing        Procurement      Historical     Difference
     Number        Quantity      Unit Price       Quantity       Unit Price*    (percent)
                       DLA Price Was More Than Boeing Contract Price
        46          2,400          $ 237.45       155        $ 458.96               93.3
        62             960            564.67       25         2,693.95             377.1
       262             120          1,079.94       58         2,855.29             164.4
                       Boeing Contract Price Was More Than DLA Price
        344             11         13,751.02       72         6,797.61             102.3
        356            207            367.98      766           134.30             174.0
        361              9         15,770.17       50         5,107.02             208.8
   *
     Includes DLA cost recovery rate.

Using the DoD EMALL is a Valuable Pricing Tool and Can Stimulate
Competition Between DLA and Boeing
We compared the 2010 prices on the follow-on CCAD/Boeing contract with 2010 DoD
EMALL prices (DLA standard unit price). We identified 1,635 parts on the follow-on
contract that cost $23.6 million, but the DLA price was only $15.6 million; a difference of
$8.0 million or 51.2 percent (186.2 percent median) and DLA had sufficient inventory of the
parts to satisfy annual contract requirements. The median difference was 186.2 percent
primarily because many of the parts had economic order quantity issues and many were low-
dollar parts. For example, the DoD EMALL shows that for NSN 5315-00-823-8682, a
straight pin, DLA annual consumption was 603 and DLA had 37,352 on hand at a standard

                                FOR OFFICIAL USE ONLY
                                          77
unit price of $0.04, while the 2010 CCAD/Boeing contract requirement was 3 pins at a unit
price of $71.01, or a 177,475.0 percent difference. We see no reason for Boeing not to
procure these items from DLA to meet CCAD requirements. We identified another 431 parts
priced at $33.2 million, but the DLA price was only $23.2 million; a difference of
$10.0 million or 43.2 percent (76.9 percent median). However, DLA did not have enough
inventory to meet contract requirements. We also identified 757 parts for which the contract
price was only $24.7 million, and the DLA price was $39.1 million; a difference of
$14.4 million or 58.1 percent (43.8 percent median). AMCOM officials could make a case to
procure these parts from Boeing after excess DLA inventory is depleted. As shown in
Table 32, DLA had thousands of parts in inventory that could satisfy CCAD/Boeing contract
requirements at significantly lower prices.

      Table 32. Parts in DLA Inventory That Could Satisfy CCAD Requirements
                                   ($ in millions)
                            Number         DLA           2010 Total Price         Difference
        Description         of NSNs Inventory Contract               DLA Amount Percent
               DLA had sufficient inventory to satisfy annual contract requirements
 Contract unit price is       1,635       $ 64.3          $ 23.6    $15.6      $ 8.0       51.2
 higher than DLA price                                                         Median     186.2
              DLA had insufficient inventory to satisfy annual contract requirements
 Contract unit price is         431            7.8          33.2      23.2     $10.0       43.2
 higher than DLA price                                                      Median       76.9

 DLA price is higher than       757         56.1         24.7      39.1     $14.4        58.1
 contract unit price                                                        Median       43.8

 Comparable data were
 not available                1,166         12.8         28.0

  Total                       3,989       $141.0       $109.5

The DoD EMALL was an extremely effective tool in performing a basic price analysis of
contract prices and determining whether DLA had the best price and sufficient inventory to
                                                 meet contract requirements or whether the
   DoD needs to adopt a strategy contractor                 had a better price. DoD needs to
                                                 adopt a strategy that allows DLA to compete
     that allows DLA to compete                  with contractors for the Services’
       with contractors for the                  requirements. Using the DoD EMALL
                                                 would have also highlighted many of the
        Services requirements.                   pricing problems identified in Finding B.
                                                 The Director, Defense Procurement and
Acquisition Policy, needs to alert the acquisition community of the value of the DoD EMALL
for performing basic price analyses. [Recommendation D.1.a – Internal Control] The
Services also appear to be moving supply operations and material management functions for
consumable items from DLA to the private sector. Therefore, the Director needs to issue

                               FOR OFFICIAL USE ONLY
                                         78
guidance that requires the Services to use the DoD EMALL to evaluate prices for
consumable items on contractor logistics support and performance-based logistics contracts
to determine whether those parts could be supplied by DLA at lower prices. In addition, the
Director needs to develop a strategy to use DLA as the first source of supply when cost-
effective and practical. [Recommendation D.1.b – Internal Control]

Boeing Already Purchased Consumable Items From DLA
The CCAD/Boeing contract encouraged Boeing to use DLA as a source of supply.
Specifically, contract section H-28, “Government Source of Supply,” stated:

               Boeing is encouraged to utilize Defense Logistics Agency (DLA) as the
               preferred supplier for DLA managed items that are determined to be the
               best value to the Government in terms of price, delivery, and quality. Any
               acquisitions from DLA will be a direct transaction between Boeing and
               DLA.

According to data provided by Boeing, Boeing procured $3.1 million in parts from DLA to
satisfy CCAD contract requirements from 2007 through 2009. Because of the nature of the
firm-fixed-price contract, Boeing charged the Army the negotiated contract price for the
parts, regardless of the price Boeing paid DLA for the parts. Therefore, Boeing charged the
Army $4.2 million for the parts. The Boeing CCAD Partnership Program Manager stated
that Boeing profited on some purchases from DLA and suffered losses on others. However,
based on the data Boeing provided us, Boeing made a              profit on the parts that it
bought from DLA. Consequently, Boeing, not the Army, profited when DLA was used as
the source of supply. AMCOM officials need to use the DoD EMALL and compare
CCAD/Boeing follow-on contract prices with DLA standard unit prices and determine the
most cost-effective source of supply.

AMCOM officials need to include a contract clause that addresses an appropriate markup on
items that Boeing obtains from DLA and negotiate an appropriate refund for the $1.1 million
profit that Boeing made on purchases from the DLA. [Recommendation D.2.a] The AMCOM
contracting officer also needs to include a contract clause that requires Boeing to use DLA as
the first source of supply when cost-effective and practical. [Recommendation D.2.b]

Management Comments on the Finding and Our Response

Department of the Army Comments
The Commander, AMCOM, stated that Department of the Army/AMC policy requires a
business case analysis in order to support procurement of items outside of the normal
inventory control point designation and, in accordance with the requirement, AMCOM
validated a business case analysis to support the partnership arrangement. The Commander
also stated that the business case analysis projected savings based on a RTAT reduction,
increased parts availability, improved processes, enhanced performance, reduced acquisition
cycle time, and improved readiness and reliability. The Commander stated that the
partnership has achieved these goals. Specifically, he stated that the partnership has met the
goals of reducing RTAT in that a minimum of 36 percent RTAT reduction was achieved. He
stated that this was achieved through increased parts availability and improved processes,
                                 FOR OFFICIAL USE ONLY
                                           79
and contributed to a readiness increase of 10.9 percent for both the Apache and Chinook
platforms. The Commander also stated that the business case analysis established DLA as a
preferred provider for DLA-managed items that were determined to be the best value to the
Government in terms of price, delivery, and quality. However, he stated that there are issues
with DLA support because that the partnership concept requires buying ahead of demand and
DLA’s business model does not currently support this concept. The Commander further
stated that Boeing projects items/quantities required and buys ahead of demand to support the
depot production schedule.

Our Response
As a result of this audit, the Office of the Secretary of Defense and the Department of the
Army have issued policy memoranda addressing the use of existing inventories (Army and
DLA items) before procuring items from commercial supply sources. Additionally, the
memorandum of agreement that is being established between the AMCOM Integrated
Materiel Management Center, CCAD, DLA, and Boeing should alleviate the Commander’s
issues with DLA support because the memorandum will require DLA to set aside available
inventory for use on the partnership contract.

Recommendations, Management Comments, and Our Response
D.1. We recommend that the Director, Defense Procurement and Acquisition Policy:

      a. Alert the acquisition community of the value of the DoD EMALL for
performing basic price analyses.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, agreed and stated that he will
issue a policy memorandum advising the acquisition community of the value of the DoD
EMALL for conducting market research.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments are responsive, and no
further comments are required. We agree with the Director’s plan to issue a policy
memorandum regarding the value of the DoD EMALL. However, we also believe that the
DoD EMALL is a valuable tool that should be used beyond market research, such as when
prime contractors and responsible Government officials are performing price analyses and
researching inventory levels.

Department of the Army Comments
Although not required to comment, the Commander, AMCOM, stated that the AMCOM
acquisition community is aware of the DoD EMALL and reviews the data in the system. The
Commander stated that the DoD EMALL is one tool available in conducting price analysis
on material and can be used in conjunction with other price analysis techniques.




                              FOR OFFICIAL USE ONLY
                                        80
Our Response
We agree that the DoD EMALL is just one tool that can be used for price analysis; however,
it is important for AMCOM to include this step in its approved analysis methodologies so
that it is not overlooked.

        b. Issue guidance that requires the Services to use the DoD EMALL to evaluate
prices for consumable items on contractor logistics support and performance-based
logistics contracts to determine whether those parts could be supplied by Defense
Logistics Agency at lower prices and develop a strategy to use the Defense Logistics
Agency as the first source of supply when cost-effective and practical.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, agreed. As stated in response to
Recommendation D.1.a, the Director will issue a policy memorandum discussing the value of
the DoD EMALL. The Director also stated that in accordance with existing policy, he will
direct the Services to use on hand and due-in Government inventory. He also stated that
stocking objectives should be adjusted accordingly if the performance-based logistics or
contractor logistics support acquisition strategy results in a determination that use of a
commercial source is more effective than relying on Government material.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments are responsive, and no
further comments are required. The December 20, 2010, Office of the Assistant Secretary of
Defense for Logistics and Materiel Readiness memorandum directs the Services to use on
hand and due-in Government inventory on all performance-based logistics arrangements and
partnering agreements.

Department of the Army Comments
Although not required to comment, the Commander, AMCOM, stated that the DoD EMALL
is just one tool available for use in conducting price analysis on material, but it does not
provide full fidelity for total pricing comparisons. The Commander stated that the AMCOM
Integrated Materiel Management Center is working on a strategy with CCAD, DLA, and
Boeing for using DLA inventory when available and cost-effective.

Our Response
We commend AMCOM for working on a strategy to use DLA inventory when available and
cost-effective. We believe that the strategy should include a step to use the DoD EMALL for
evaluating prices for consumable items on contractor logistics support and performance-based
logistics contracts to determine whether those parts could be supplied by DLA at lower prices.




                               FOR OFFICIAL USE ONLY
                                         81
D.2. We recommend that the Commander, Army Aviation and Missile Life Cycle
Management Command, instruct the contracting officer to:

        a. Include a contract clause that addresses an appropriate markup on items that
Boeing obtains from the Defense Logistics Agency and negotiate an appropriate refund
for the $1.1 million profit that Boeing made on purchases from the Defense Logistics
Agency.

Department of the Army Comments
The Commander, AMCOM, disagreed. The Commander stated that Boeing purchased more
than $3.1 million of material (29,653 items) from DLA to support CCAD requirements and
sold just under $3.1 million of material (21,943 items) to CCAD. The Commander also
stated that Boeing sold some items at a gain and some items at a loss, but in aggregate,
Boeing made a              profit on the items. He stated that as of the end of 2009, Boeing
still had          of material               on the shelf that it had purchased from DLA, and
because



The Commander also stated that based on current DLA policy, Boeing has not been able to
establish a long-term agreement with DLA to use them as a firm source of supply for specific
depot items on a recurring basis, which inhibits Boeing’s ability to ensure parts availability
and creates risk for Boeing in meeting its contractual responsibility to meet depot parts
demands. He further stated that as a result, Boeing must ensure its supply chain stands ready
to provide parts if DLA is unable to supply the parts. The Commander stated that AMCOM
considers this, along with the cost of holding the excess inventory purchased from DLA, as
“consideration” for some price increase applied to DLA purchased items. He also stated that
one goal of the partnership contract is to provide flexibility to ensure that parts are available
when required, which may not always reflect the lowest unit price for the individual material;
however, the total value of the costs versus benefits of the total contract is validated. The
Commander stated that AMCOM will continue to review this issue to ensure that Boeing’s
overall prices are not excessive when using DLA as a source of supply under the contract.

Our Response
The Commander, AMCOM, comments are partially responsive. The memorandum of
agreement between the AMCOM Integrated Materiel Management Center, CCAD, DLA, and
Boeing that will require DLA to fence, or set aside, available inventory for use on the
partnership contract should address the risk Boeing assumes when using DLA as a source of
supply. Although the Commander stated that AMCOM will continue to review Boeing
purchases from DLA to ensure that overall prices are not excessive, AMCOM still needs to
address, through contract language, an appropriate markup on items that Boeing obtains from
DLA. We request that the Commander reconsider his position and provide additional
comments in response to the final report.




                                FOR OFFICIAL USE ONLY
                                          82
      b. Require Boeing to obtain consumable items from the Defense Logistics
Agency as the first source of supply when cost-effective and practical.

Department of the Army Comments
The Commander, AMCOM, agreed. The Commander stated that the follow-on contract
requires Boeing to use DLA as the preferred supplier for DLA-managed items that are
determined to be the best value to the Government in terms of price, delivery, and quality.
However, he stated that DLA policy does not currently support “fencing” parts; therefore,
Boeing could potentially be at risk in its contractual responsibility to meet depot parts
demand.

Our Response
The Commander, AMCOM, comments are responsive. As previously stated, memoranda
issued by the Office of the Secretary of Defense and the Department of the Army require that
existing inventories (Army and DLA) be addressed before purchasing from commercial
supply sources. Additionally, in response to Recommendation A.3.a, the Commander stated
that a memorandum of agreement is being established between the AMCOM Integrated
Materiel Management Center, CCAD, DLA, and Boeing that will require DLA to fence, or
set aside, available inventory for use on the partnership contract. This agreement should
alleviate AMCOM and Boeing concerns regarding parts availability. No further comments
are required.




                               FOR OFFICIAL USE ONLY
                                         83
Appendix A. Scope and Methodology
We conducted this performance audit from November 2009 through January 2011 in
accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

Interviews and Documentation
We met with the Principal Deputy Assistant Secretary of Defense (Logistics and Materiel
Readiness); the Director, Defense Procurement and Acquisition Policy; the Deputy Assistant
Secretary of the Army for Acquisition Policy and Logistics; the Executive Deputy to the
Commander, AMC; the Director, Support Operations, AMC; and the Commander, AMCOM.
We interviewed and obtained information regarding the August 1, 2008, consumable item
transfer and planned 2005 BRAC transfers from officials of the DLA Headquarters, Fort
Belvoir, Virginia; Defense Supply Center Richmond, Virginia; Defense Supply Center
Columbus, Ohio; and Defense Logistics Information Service Battle Creek, Michigan.

We interviewed and obtained cost support documentation from personnel of the DCAA
Southern New Jersey Branch Office; DCAA Arizona Branch Office; DCMA-Boeing
Philadelphia, Pennsylvania; and DCMA-Boeing Mesa, Arizona. We interviewed and
obtained demand and inventory information for the Apache and Chinook weapon systems
from officials of the AMCOM Integrated Materiel Management Center, Redstone Arsenal,
Alabama; CCAD, Texas; the Defense Distribution Depot Corpus Christi, Texas; and the
Defense Distribution Depot Red River, Texas. We interviewed and obtained RTAT
information from officials of CCAD, Texas and AMCOM, Redstone Arsenal, Alabama.
We interviewed and obtained acquisition planning documentation from personnel of the
AMCOM Contracting Center, Redstone Arsenal, Alabama. In addition, we interviewed and
obtained documentation from Boeing personnel in Mesa, Arizona, and Philadelphia,
Pennsylvania.

We reviewed the United States Code, FAR, and Defense Federal Acquisition Regulation
Supplement for guidance on acquisition planning, contract pricing, and inventory. We used
the Electronic Document Access system to obtain and review the initial CCAD/Boeing
contract, W58RGZ-04-C-0203, and modifications issued from June 2004 through
September 2010, and the follow-on CCAD/Boeing unpriced contract action,
W58RGZ-10-D-0027, and associated delivery orders and modifications issued from
February 2010 through October 2010. We took pictures of spare parts and inventory at the
Defense Distribution Depot Corpus Christi, Texas; Defense Distribution Depot Red River,
Texas; and CCAD, Texas. Officials from the Defense Distribution Depot Corpus Christi,
Texas; Defense Distribution Depot Red River, Texas; and DLA Distribution Susquehanna,
Pennsylvania, provided us with additional pictures of spare parts and inventory.




                               FOR OFFICIAL USE ONLY
                                         84
Nonstatistical Sample Selection
We selected the audit sample from the 2008 and 2009 material attachments for the Apache
and Chinook weapon systems on the initial CCAD/Boeing contract, W58RGZ-04-C-0203.
The material attachments for both years totaled $288.9 million. We identified material with a
2008 to 2009 extended value of $100,000, which equated to 437 parts, valued at
$245.8 million; 85 percent of the universe value. The follow-on CCAD/Boeing contract,
W58RGZ-10-D-0027, included 399 of the initial 437 sample parts on the material
attachments. The 2010 contract value of these parts was $92.7 million; 85 percent of the
total dollar value of material Boeing was required to furnish in the 2010 contract year.
We used the Haystack Gold System (Haystacks) to determine whether the parts were
managed by the Army or DLA. Of the sample of 399 parts on the follow-on contract, we
identified 98 Army-managed parts, valued at $24.1 million; 120 DLA-managed CITs that
were transferred by the Army in August 2008 as part of a 2005 BRAC consumable item
transfer, valued at $41.7 million; and 168 DLA-managed parts, valued at $24.6 million. We
were unable to identify procurement history for the remaining 13 parts, valued at
$2.3 million. See the table in the Background section of this report for a detailed breakout of
the sample parts.

Inventory Analysis
We reviewed the initial and follow-on CCAD/Boeing contracts to identify contract
requirements for using Government-furnished material and existing DLA inventory before
buying new material. We reviewed the follow-on contract material attachments for the
Apache and Chinook weapon systems to identify planned workload requirements and
proposed contract pricing. To determine the potential costs avoided by using existing DoD
inventory prior to procuring new parts from Boeing, we applied the unit prices in the follow-
on contract. If the unit price was zero because the Army planned to offer Boeing
Government-furnished material, we applied the previous year’s contract price. For example,
if the FY 2010 workload requirement for a part was 10, but the Army was offering that
amount to Boeing as Government-furnished material, the FY 2010 contract unit price would
be $0.00. Therefore, we applied the 2009 contract unit price to calculate the amount that
could be saved by using existing inventory instead of procuring the part from Boeing.

To determine the quantity of existing CITs and DLA-managed parts in inventory that could
be used to meet CCAD requirements, we reviewed inventory and demand level data obtained
in April 2010 from the DLA Office of Resource and Research Analysis. For example, if
DLA had 200 of a part in inventory, and a 2009 annual demand of 10, we subtracted 30 (for
the 3-year contingency stock retention calculation) or 50 (for the 5-year contingency stock
retention calculation) and applied the remaining quantity to meet annual contract
requirements. We also used DoD EMALL to identify stock on hand and consumption data
for 3,484 of the 3,989 NSNs on the follow-on CCAD/Boeing contract. We obtained data
from the Apache and Chinook item managers in April 2010 to identify the demand outside of
the CCAD/Boeing contract and inventory levels for the Army-managed parts, and applied a
similar methodology as the CITs and DLA-managed parts to calculate the amount of
inventory that could be used to meet CCAD/Boeing contract requirements.



                               FOR OFFICIAL USE ONLY
                                         85
Cost and Price Analysis
We obtained prior procurement history from Haystacks and April 2010 prices from the DLA
Office of Resource and Research Analysis for the DLA-managed parts and used the
Electronic Document Access system to identify prior acquisition prices for the Army-
managed parts and CITs. For parts that had delivery dates prior to October 2009, we used
the Bureau of Labor Statistics producer price index for aircraft parts, PPI 3728, to inflate the
previous acquisition prices to October 2009. We compared contract unit prices on the initial
and follow-on CCAD/Boeing contracts to previous acquisitions to identify parts with
significant pricing differences between previous acquisitions and CCAD/Boeing contract
prices. We judgmentally selected a non-statistical sample of 43 parts. We ensured that our
sample represented Army-managed parts, CITs, and DLA consumables. Specifically, the
sample consisted of 14 Apache parts and 29 Chinook parts.

We requested that Boeing provide us with supporting documentation for the contract prices.
Boeing provided supporting documentation, such as memoranda of agreement, memoranda
of understanding, quotes, and/or POs. We also requested data on the analysis of the proposed
bills of material conducted by the DCAA Southern New Jersey Branch Office and DCMA-
Boeing Philadelphia, and the DCAA Arizona Branch Office and DCMA-Boeing Mesa. We
reviewed data provided by DCAA and DCMA, to include spreadsheets of quote prices, audit
reports on the proposed bills of material, contractor purchasing system reviews, and PO
history details. We compared the supporting documentation Boeing provided, the DCAA
and DCMA analysis of quoted prices and audit reports, prior procurement history, and the
AMCOM price negotiation memorandums to determine if contract prices for the sample parts
that we reviewed were fair and reasonable. After analyzing the preliminary supporting
documentation, our sample consisted of 24 parts because we determined 19 parts were in line
with negotiated contract amounts. Upon further analysis, we determined that of the 24 parts,
18 had issues while 6 were in line with negotiated contract amounts.

RTAT Analysis
We reviewed the initial CCAD/Boeing contract to identify RTAT contract requirements. We
obtained supporting data for the Phase II and Phase III baseline RTAT calculations from
Boeing. We obtained supporting data for the Phase II and Phase III RTAT actual contractor
performance calculations, material costs, and incentive payments from AMCOM. Because
of the implementation of LMP in May 2009, AMCOM officials provided actual performance
data only through April 30, 2009. We compared the data to identify discrepancies in the
methodology of calculating performance; specifically, the baseline RTAT calculation
included shiftwork and the actual performance RTAT calculation did not include shiftwork.
We revised the Phase II RTAT baseline, removing shiftwork from the calculation to be
consistent with actual performance calculations. Towards the end of the audit, AMCOM
officials provided revised baseline data that did not include shiftwork. We compared actual
contractor performance to the DoD IG and AMCOM revised baselines and applied the
contract requirements to determine the appropriate amount of incentive payments or refunds.
We compared the actual incentives paid by AMCOM with the recalculated payments to
determine if Boeing owed the Army a refund for overpayment due to overstated RTAT
performance or for not meeting contract requirements.


                                FOR OFFICIAL USE ONLY
                                          86
Consumable Item Acquisition Analysis
We reviewed the 2010 CCAD/Boeing follow-on contract prices and compared them to
September 2010 DoD EMALL prices to determine whether the DLA or the follow-on
contract prices were more cost effective. Specifically, we compared prices for 2,823 of the
3,989 parts on the CCAD/Boeing follow-on contract. The unit of issue was not comparable
or data was not available within the follow-on contract or DoD EMALL system for
1,166 parts. We compared the 2009 Boeing contract quantities and unit prices to the
historical procurement quantities and unit prices to determine if purchasing parts in greater
quantities resulted in lower unit prices. We reviewed Boeing purchases from DLA to
compare the prices Boeing paid DLA with the prices Boeing charged the Army.

Use of Computer-Processed Data
We relied on computer-processed data from DoD, DLA, and commercial sources. We used
data from the Electronic Document Access system to identify previous procurement
quantities and prices of the sample items. We also obtained the procurement history for the
sample items from Haystack, a commercial system. We obtained data from the DLA Office
of Resource and Research Analysis to include inventory, demand, and pricing data. In
addition, we used DoD EMALL to obtain stock on hand, consumption data, and DLA
standard unit prices of 3,484 of the 3,989 NSNs on the follow-on contract. To track Boeing’s
material part purchase history, we obtained purchase orders prior to May 2, 2005, from the
Material Procurement System and purchase orders after May 2, 2005, from the Network
Procurement System. We also obtained inventory and RTAT data from the Standard Depot
System, the Army’s former inventory and depot maintenance operations system.

We have compared procurement history information obtained from the Haystack system to
contract documents information obtained from the EDA system and determined this data to
be reliable. In addition, we used Haystack for the past several audits and have not found any
material errors or discrepancies. We also validated inventory levels for a sample of 20 parts
at the Defense Distribution Depot Corpus Christi, Texas, and 20 parts at the Defense
Distribution Depot Red River, Texas. During our review, we did not find any material errors
or significant differences in the data. We used consumption or sales quantities provided by
Boeing to calculate the amount of excessive prices. DCAA reported no significant
deficiencies or internal control weaknesses related to firm-fixed-price contracts with
Boeing’s billing or accounting system; therefore, we consider the data reliable. We did not
find errors that would preclude the use of the computer-processed data to meet the audit
objectives or that would change the conclusions reached in this report.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DoD IG, and the
Army Audit Agency (AAA) have issued several reports related to the management of spare
part inventories and DoD public-private partnership agreements with private firms for depot
maintenance. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/.

                               FOR OFFICIAL USE ONLY
                                         87
GAO
GAO Report No. GAO-10-469, “Defense Logistics Agency Needs to Expand on Efforts to
More Effectively Manage Spare Parts,” May 11, 2010

GAO Report No. GAO-10-461, “Actions Needed to Improve Implementation of the Army
Logistics Modernization Program,” April 30, 2010

GAO Report No. GAO-09-703, “DoD Needs to Update Savings Estimates and Continue to
Address Challenges in Consolidating Supply-Related Functions at Depot Maintenance
Locations,” July 9, 2009

GAO Report No. GAO-08-902R, “Depot Maintenance: DoD’s Report to Congress on Its
Public-Private Partnerships at Its Centers of Industrial and Technical Excellence (CITEs) Is
Not Complete and Additional Information Would Be Useful,” July 1, 2008

DoD IG
DoD IG Report No. D-2010-067, “Public-Private Partnerships at Air Force Maintenance
Depots,” June 10, 2010

DoD IG Report No. D-2010-063, “Analysis of Air Force Secondary Power Logistics
Solution Contract,” May 21, 2010

Army
AAA Report No. A-2008-0058-ALM, “Benefits of Public-Private Partnerships,” February 7,
2008




                               FOR OFFICIAL USE ONLY
                                         88
Appendix B. Additional Examples of
Excess Inventory
The following are some additional examples of parts that had a significant amount of DoD
inventory that could be used to satisfy current and future CCAD requirements, as discussed
in Finding A.

Sample 14 – Direct Selector Set (NSN 1650-01-117-4160)
AMCOM officials spent $1,271,641 to procure a quantity of 362 direct selector sets from
Boeing in 2009 through the CCAD/Boeing contract; the unit price per part was $3,512.82.
The planned requirement on the follow-on contract is for 1,353 more during the 5-year
performance period, at a total value of $4,410,146, or an average unit price of $3,259.53. As
of November 2009, the Defense Distribution Depot Corpus Christi, Texas, had 318 in
inventory. Based on June 2010 Federal Logistics Information System data, the value of this
inventory was about $826,800 or $2,600.00 each. According to AMCOM data, the annual
demand requirement outside of the CCAD/Boeing contract for this part is zero. Figure B-1
shows the direct selector set, which is used on the Chinook helicopter, in storage at the
Defense Distribution Depot Corpus Christi, Texas.

                       Figure B-1. Sample 14 – Direct Selector Set




Sample 18 – Linear Actuating Cylinder Piston (1650-01-
310-5860)
AMCOM officials spent $1,276,588 to procure a quantity of 194 linear actuating cylinder
pistons from Boeing in 2009 through the CCAD/Boeing contract; the unit price per part was
$6,580.35. The planned requirement on the follow-on contract is for 702 more during the
5-year performance period, at a total value of $3,819,522, or an average unit price of
$5,440.91. As of November 2009, the Defense Distribution Depot Corpus Christi, Texas,
had 236 in inventory. Based on June 2010 Federal Logistics Information System data, the
value of this inventory was about $1,242,540, or $5,265.00 each. According to AMCOM
data, the annual demand requirement outside of the CCAD/Boeing contract for this part is
zero.

                               FOR OFFICIAL USE ONLY
                                         89
Figure B-2 shows the linear actuating cylinder piston, which is used on the Chinook
helicopter, in storage at the Defense Distribution Depot Corpus Christi, Texas.

               Figure B-2. Sample 18 – Linear Actuating Cylinder Piston




Sample 119 – Inner Bearing Ring (NSN 3110-01-163-4609)
AMCOM officials spent $326,443 to procure a quantity of 660 inner bearing rings from
Boeing in 2009 through the CCAD/Boeing contract; the unit price per part was
$494.61. AMCOM officials plan to procure 3,300 more of this part during the 5-year
performance period of the follow-on CCAD/Boeing contract at a total value of
$2,669,245, or an average unit price of $808.86. As of April 2010, DLA had 1,851 in
inventory valued at $563,741, or a unit price of $304.56, based on June 2010 Federal
Logistics Information System data. According to DLA data, only 15 of the parts were
requisitioned from DLA in 2009; therefore, DoD has more than 100 years of inventory of this
part. Figure B-3 shows the inner bearing ring, which is used on the Apache helicopter.

                      Figure B-3. Sample 119 – Inner Bearing Ring




                       Source: Defense Distribution Depot Corpus Christi, Texas




                              FOR OFFICIAL USE ONLY
                                        90
Appendix C. Sample Parts With Pricing Issues
The following are some additional examples of the pricing issues (defective data and Boeing
negotiated better prices) that we identified during our review of the 24 high-dollar sample
parts discussed in Finding B. See Appendix E for detailed calculations of the cost impact.

Additional Examples of Defective Data
As shown in the following examples, Boeing had information that was reasonably available
before the material certification cutoff dates that was not used to support CCAD/Boeing
contract prices.

Sample 356 – Rod End Plain Bearing (NSN 3120-00-834-1507)
(Quote Issue – Better Data Available Before Material Certification
Cutoff Date)
Officials from AMCOM and Boeing negotiated a total contract price of $210,221 for 632 rod
end plain bearings for 2005 through 2009, and the Army procured 447 rod end plain bearings
at a total price of $140,724; a weighted average unit price of $314.82. Boeing used historical
data from its MES showing a weighted average unit price of                 , based on quantities
ranging from to , to support the 2006 CCAD/Boeing negotiated unit price of $133.10.
However, Boeing then decided to update the 2007 through 2009 contract prices and used a
vendor quote with prices ranging from                to          to support CCAD/Boeing
negotiated prices of $387.28 in 2007, $369.92 in 2008, and $367.98 in 2009. The material
certification cutoff date for the 2007 through 2009 prices was June 1, 2006. Using a
weighted average of the five Boeing POs issued before the material certification cutoff date
that Boeing should have used to support its proposed price, we calculated that the correct
proposed unit cost should have been              , resulting in a burdened Boeing price to CCAD
of           or                the price Boeing negotiated with AMCOM. Boeing needs to
provide AMCOM a refund of                 for this part.




                                FOR OFFICIAL USE ONLY
                                          91
Table C-1 shows the pricing information for the rod end plain bearing, which is used on the
Chinook helicopter.
     Table C-1. Sample 356 – Pricing Information for the Rod End Plain Bearing
                                                                       Unit        Percent
                                          Date         Quantity      Cost/Price   Difference
  AMCOM Procurement (RBC                5/29/2007        766          $ 84.60
  Transport Dynamics Corporation)
  Boeing MES Average Price             2003-2005
                                       6/24/2005                             to
  Price Quote
  Boeing PO                             4/30/2005
  Boeing PO                             4/30/2005
  Boeing PO                             6/24/2005
  Boeing PO                            10/25/2005
  Boeing PO                            04/11/2006
  Burdened Boeing PO Price
  (Weighted Average)
                     Phase III Material Certification Cutoff Date 6/1/2006
  CCAD/Boeing Contract                    2005            15/0          130.94
  (Modification Date)                  (8/8/2005)
  Negotiated/Procured Quantities          2006           90/113         133.10
                                       (8/8/2005)
                                          2007          132/135         387.28
                                      (6/15/2007)
                                          2008           188/89         369.92
                                      (6/15/2007)
                                          2009          207/110         367.98
                                      (6/15/2007)
  DCAA Review of MES Averages
  (2005-2009)
  Proposed Follow-On Contract           2/1/2010          690        147.42 to
  (2010-2014)                                          (138/year)      161.31

Sample 376 – Linear Actuating Cylinder Piston (NSN 1650-00-955-
9588) (Quantity and Quote Issue—Better Data Available Before
Material Certification Cutoff Date)
Officials from AMCOM and Boeing negotiated a total price of $146,734 for 60 linear
actuating cylinder pistons from 2007 through 2009, and the Army purchased 42 linear
actuating cylinder pistons for a total price of $104,104; a weighted average unit price of
$2,478.66. Boeing provided a range pricing quote from
             as supporting documentation for the contract price. Boeing used the quoted prices
to support the negotiated contract price; however, on March 30, 2006, about 2 months before
the material certification cutoff date, Boeing awarded PO            to
                               FOR OFFICIAL USE ONLY
                                         92
                       for    parts at a unit price of             This PO should have been used
to support the negotiated price. On June 6, 2007, about a year after the material certification
cutoff date but before the parts were actually placed on the CCAD/Boeing contract, Boeing
switched vendors and procured          linear actuating cylinder pistons at a unit price of only
          Using the higher PO data that were available before the material certification cutoff
date, we calculated that the correct price for the 42 linear actuating cylinder pistons procured
should have been           , or a difference of       percent. Boeing needs to provide AMCOM
a refund of          for this part. Table C-2 shows the pricing information, and Figure C-1
shows the linear actuating cylinder piston, which is used on the Chinook helicopter.

Table C-2. Sample 376 – Pricing Information for the Linear Actuating Cylinder Piston
                                                                       Unit         Percent
                                            Date        Quantity     Cost/Price    Difference
   DLA Procurement (Royberg, Inc.)        1/7/2002        277        $ 90.00
   Boeing Quote for 2007 price           6/23/2005
   Boeing Quote for 2008 price           6/23/2005
   Boeing Quote for 2009 price           6/23/2005
   Boeing PO                             3/30/2006
   Burdened Boeing PO Price
   (Weighted Average)
                      Phase III Material Certification Cutoff Date 6/1/2006
   Boeing PO            (Awarded          6/6/2007
   After Material Certification Cutoff)
   CCAD/Boeing Contract                     2007           6/8         2,445.70
   (Modification Date)                   (6/15/2007)
   Negotiated/Procured Quantities           2008          30/11        2,367.30
                                         (6/15/2007)
                                            2009          24/23        2,543.38
                                         (6/15/2007)
   Proposed Follow-On Contract            2/1/2010         105         1,256.25
   (2010-2014)                                          (21/year)    to 1,327.31

               Figure C-1. Sample 376 – Linear Actuating Cylinder Piston




                        Source: DLA Distribution Susquehanna, Pennsylvania

                                FOR OFFICIAL USE ONLY
                                          93
Additional Examples of Boeing Negotiating Better Prices
As shown in the following examples, Boeing obtained quantity discounts and negotiated
lower prices that were not passed on to the Army.

Sample 20 – Alternating Current Motor (NSN 6105-00-251-2494)
(Quantity and Quote Issue)
Officials from AMCOM and Boeing negotiated a total price of $2.1 million for
386 alternating current motors in 2008 and 2009, and procured 211 alternating current motors
at a total price of $1.1 million; the weighted average unit price was $5,421.56. To support
the negotiated prices Boeing used a March 8, 2006, quote from                for quantities of
    to at unit prices of               for 2008 and             for 2009. On January 23, 2008,
Boeing combined buys and procured              alternating current motors from            at a
substantial savings to Boeing, but not the Army. We calculated that the Army paid Boeing
$1.1 million for the 211 alternating current motors that should have cost the Army only
            or a difference of           (      percent). Table C-3 shows the pricing
information for the alternating current motor.

    Table C-3. Sample 20 – Pricing Information for the Alternating Current Motor
                                                                                Percent
                                   Date          Quantity       Unit Price     Difference
    Boeing Quote from            3/8/2006
              (2009 Range
    Price)
                     Phase III Material Certification Cutoff Date 6/1/2006
    Boeing PO With               1/23/2008
              (PO         )
    Burdened Boeing PO
    Price
    CCAD/Boeing Contract           2008            203/96         5,261.62
    (Modification Date)         (6/15/2007)
    Negotiated/Procured            2009           183/115         5,555.07
    Quantities                  (6/15/2007)
    DCAA Review of              10/13/2004
    Vendor Quotes
    (2008-2009 Average Unit
    Price)
    Proposed Follow-On           2/1/2010          Range         1,868.96 to
    Contract (2010-2014)                        62-142/year       1,929.14




                               FOR OFFICIAL USE ONLY
                                         94
Figure C-2 shows the alternating current motor, which is used on the Chinook helicopter.

                   Figure C-2. Sample 20 – Alternating Current Motor




Sample 167 – Aircraft Centrifugal Clutch Assembly (NSN 1615-01-
219-8666) (Quantity Issue)
AMCOM officials procured 60 aircraft centrifugal clutch assemblies from Boeing in 2008
and 2009 at a weighted average unit price of $5,111.30, for a total price of $306,678. The
negotiated prices were based on a May 5, 2006, price quote with range pricing for to parts
at a unit price of           and range pricing for to parts at a unit price of
Boeing had historical PO data from April 23, 1990, showing a unit price of               for
both a quantity of parts (PO              and a quantity of   parts (PO             that were
not used. On June 6, 2007, less than 2 months after the material certification cutoff date of
April 24, 2007, Boeing awarded a PO to its supplier at a unit price of            for     parts
(PO            ). We calculated that the Army paid $306,678 for the 60 aircraft centrifugal
clutch assemblies procured when it should have only paid             , a difference of          ,
or       percent.

Sample 324 – Sleeve Bushing (NSN 3120-00-881-0018) (Quantity
and Material Estimating System Issue)
Officials from AMCOM and Boeing negotiated a total price of $328,129 for 839 sleeve
bushings from 2005 through 2009, and the Army procured 658 sleeve bushings at a total
price of $258,676; a weighted average unit price of $393.13. Boeing based the contract
prices on historical data from its MES for 5 procurements of     each with prices ranging
from           to          The DCAA Southern New Jersey Branch reviewed the prices from
the Boeing MES. The material certification cutoff date for this part was June 30, 2005. Less
than a month later, on July 14, 2005, Boeing purchased      sleeve bushings at a unit price of
        , and then on September 8, 2005, Boeing purchased        sleeve bushings at a unit
price of           We calculated that the Army paid Boeing $258,676 for the 658 sleeve
bushings procured when they should have paid only             a difference of            or
       percent.



                                FOR OFFICIAL USE ONLY
                                          95
Table C-4 shows the pricing information, and Figure C-3 shows the sleeve bushing, which is
used on the Chinook helicopter.

         Table C-4. Sample 324 – Pricing Information for the Sleeve Bushing
                                                                     Unit       Percent
                                      Date           Quantity
                                                                     Price     Difference
    Historical Boeing MES        2/13/1995 to                             to
    Data                          2/16/2005
    DCAA Review of MES            10/13/2004
    Averages
                    Phase IIA Material Certification Cutoff Date 6/30/2005
    Boeing PO                     7/14/2005
    Boeing PO                      9/8/2005
    Burdened Boeing PO
    Price (Weighted Average)
    CCAD/Boeing Contract        2005 (8/8/2005)        150/0         367.91
    (Modification Date)         2006 (8/8/2005)       140/150        373.99
    Negotiated/Procured
                               2007 (6/15/2007)       140/100        379.76
    Quantities
                               2008 (6/15/2007)       205/204        399.69
                               2009 (6/15/2007)       204/204        407.18
    Proposed Follow-On             2/1/2010            Range        39.45 to
    Contract (2010-2014)                                134-         40.83
                                                      174/year

                        Figure C-3. Sample 324 – Sleeve Bushing




                               FOR OFFICIAL USE ONLY
                                         96
Appendix D. Potential Nonconforming Parts
The following is detailed information regarding the nonconforming parts discussed in
Finding B.

Sample 14 – Direct Selector Set (NSN 1650-01-117-4160)
The planned requirement on the follow-on CCAD/Boeing contract is for 1,353 direct selector
sets, valued at $4.4 million, from 2010 to 2014. The direct selector connects to a swash
plate, which controls the pivot and swivel of the propeller blades. CCAD workers stated that
the threading on the direct selector set often is not correct and to remove the part, it must be
broken out. When breaking out this part, up to three other parts are broken, leaving CCAD
workers with additional parts to replace.

Figure D-1 shows the direct selector set, which is used on the Chinook helicopter. The
arrows in the second picture indicate the defective area.

                        Figure D-1. Sample 14 – Direct Selector Set




                                FOR OFFICIAL USE ONLY
                                          97
Samples 18 and 25 – Linear Actuating Cylinder Pistons
(NSNs 1650-01-310-5860 and 1650-01-311-2580)
CCAD workers stated that the linear actuating cylinder pistons are used as a swivel and pivot
and also connect to the swash plate, which controls the propeller blades. They found that the
linear actuating cylinder pistons are nonconforming because the lock ring does not insert
flush into the cylinder piston and therefore cannot be used. CCAD workers identified
problems with both parts and showed us a stack of parts that needed to be returned to Boeing,
as shown in Figure D-2. The arrow in the second picture identifies the lock ring that is not
inserted flush with the piston.

     Figure D-2. Samples 18 and 25 – Defective Linear Actuating Cylinder Pistons




From 2010 through 2014, AMCOM officials plan to purchase 702 of sample 18, valued at
$3.8 million, and 868 of sample 25, valued at $4.1 million. We mentioned the parts to
Boeing representatives who originally stated there had been no reported issues for the parts
but later indicated that there may have been some reported problems.




                               FOR OFFICIAL USE ONLY
                                         98
Expired Bearings
CCAD workers stated that bearings go through a lubrication process to prepare them for use
and when packaged, the manufacturer marks each part with an expiration date. The typical
shelf life of a bearing is 3 years, and after 3 years the bearing needs to be relubed. According
to CCAD workers, many of the bearings that Boeing provides are expired when CCAD
receives them. The CCAD workers provided NSN 3110-01-271-5982 as an example of the
expired bearings. Figure D-3 shows a picture of the label on a box from a Boeing supplier
with a lube date of November 2006, meaning that the bearing expires 3 years later in
November 2009; and a picture of the same box with Boeing’s label on it, which has a
package date of July 29, 2010, almost 1 year after the bearing expired.

 Figure D-3. Bearing With an Expired Manufacturer Label and Current Boeing Label




According to CCAD workers, to use the expired bearings provided by Boeing, they must
rework the parts to ensure compliance with the proper standards before being installed. This
part has a 2010 contract price of $19.41; however, the cost to rework a bearing is generally
$150.00 per bearing. CCAD workers use large quantities of bearings—up to 1,000 per
month—therefore, the expired bearings provided by Boeing created even more work and
increased the overall cost for the Army.




                               FOR OFFICIAL USE ONLY
                                         99
                        Appendix E. Calculation of Cost Impact on Sample Parts*
                                                                       Boeing Cost/ Price               CCAD/Boeing Contract Price             DoD IG            Total Difference
                        Sample Number/NSN/
                                                     Year                              Burdened                                               Calculated
                           Part Number                          Qty      Unit Cost                     Qty     Unit Price       Total Price                  Amount         Percent
                                                                                       Unit Price                                             Total Price1
                        Pricing Errors/Better Data Available Before Certification/Pass-Through Part
                        5                            2005      WA2       $              $                0     $58,949.85
                                                     2006                                                0      20,692.89
                        1680002451833
                                                     2007                                                6      22,101.31        $132,608      $             $
                        114VS800-3                   2008                                               16      22,595.53         361,528
                                                     2009                                                3      23,093.82          69,281
                        Subtotal                                                                        25     $22,536.71        $563,418      $             $
                                                3
                        Boeing Credit Issued                                                                                                                 $376,635




         100
                        91                           2006      WA2           $              $            0
                                                     2007                                              267       $595.91         $159,108       $            $
                        3020005662521
                                                     2008                                              267        615.60          164,365




FOR OFFICIAL USE ONLY
                        BRYG-180                     2009                                              457        644.75          294,651
                        Subtotal                                                                       991       $623.74         $618,124       $            $
                        Boeing Credit Issued3                                                                                                                $556,006




                        *
                            Subtotals and totals in Appendix E do not always add exactly due to spreadsheet rounding factors.
                                                             Boeing Cost/ Price            CCAD/Boeing Contract Price       DoD IG            Total Difference
                        Sample Number/NSN/
                                                Year                         Burdened                                      Calculated
                           Part Number                 Qty     Unit Cost                  Qty   Unit Price   Total Price                  Amount         Percent
                                                                             Unit Price                                    Total Price1
                        110 (Apache)            2009           $             $            168    $3,369.48    $566,073      $             $

                        5307011634676

                        7-311411045-3
                        Subtotal                                                          168    $3,369.48    $566,073      $             $
                        Boeing Credit Issued                                                                                              $324,616

                        356                     2005   WA       $             $             0    $130.94
                                                2006                                      113     133.10      $ 15,040       $
                        3120008341507
                                                2007                                      135     387.28        52,283
                        114CS118-2              2008                                       89     369.92        32,923
                                                2009                                      110     367.98        40,478




         101
                        Subtotal                                                          447    $314.82      $140,724       $            $
                        Boeing Credit Issued

                        371                     2005   WA        $            $             0
                                                2006                                      154    $271.02     $ 41,737        $            $




FOR OFFICIAL USE ONLY
                        3120008666099
                                                2007                                      168     337.64       56,724
                        114R3116-30             2008                                       20     355.35        7,107
                                                2009                                      188     362.01       68,058
                        Subtotal                                                          530    $327.60      $173,626       $            $
                        Boeing Credit Issued3                                                                                             $159,164
                                                                Boeing Cost/ Price            CCAD/Boeing Contract Price       DoD IG                Total Difference
                        Sample Number/NSN/
                                                Year                            Burdened                                      Calculated
                           Part Number                   Qty      Unit Cost                  Qty   Unit Price   Total Price                  Amount             Percent
                                                                                Unit Price                                    Total Price1
                        376                     2006              $             $             0
                                                2007     WA2                                  8     $2,445.70    $ 19,566       $                $
                        1650009559588
                                                2008                                         11      2,367.30      26,040
                        114H4704-2              2009                                         23      2,543.38      58,498
                        Subtotal                                                             42     $2,478.66    $104,104       $                $
                        Boeing Credit Issued

                        398                     2008                $               $        18     $1,533.82    $27,609           $             $

                        1560004094101

                        114S6706-1
                                                2009                                         32      1,678.61        53,716




         102
                        Subtotal                                                             50     $1,626.49    $81,324           $             $
                        Boeing Credit Issued3                                                                                                    $76,849

                             Total                                                                              $2,247,392     $             $




FOR OFFICIAL USE ONLY
                        Pass-Through Part
                        45                      2006    Army*     $6,066.00     $             0
                                                2007               6,066.00                   5    $21,303.56    $106,518      $             $
                        1650008341430
                                                2008               6,066.00                   4     21,447.24      85,789
                        4067-189                2009               6,066.00                  20     21,849.21     436,984
                        Subtotal                *Reflects 11/2008 Army price                 29    $21,699.69    $629,291      $             $
                        Boeing Credit Issued3                                                                                                Pending

                             Total                                                                               $             $             $
                                                                Boeing Cost/ Price            CCAD/Boeing Contract Price       DoD IG            Total Difference
                        Sample Number/NSN/
                                                  Year                          Burdened                                      Calculated
                           Part Number                    Qty     Unit Cost                  Qty   Unit Price   Total Price                  Amount         Percent
                                                                                Unit Price                                    Total Price1
                        Price Not Correct for Follow-On Contract Proposal

                        45                      2010 Army*         $6,066.00    $            20    $31,164.51   $ 623,290      $             $
                                                2011                6,066.00                 16     31,604.34     505,669
                        1650008341430
                                                2012                6,066.00                 16     31,726.57     507,625
                        4067-189                2013                6,066.00                 16     31,992.27     511,876
                                                2014                6,066.00                 16     32,253.53     516,056
                        Subtotal                *Reflects 11/2008 Army price                 84    $31,720.45   $2,664,518     $             $

                        415                      2010                  $            $         60    $301.68      $ 18,101          $         $
                        3110011369793            2011                                         90     305.94        27,535
                        934390                   2012                                         90     307.12        27,641
                                                 2013                                         90     309.69        27,872




         103
                                                 2014                                         90     312.22        28,100
                        Subtotal                                                             420    $307.73      $129,248          $         $

                             Total                                                                              $2,793,766     $             $




FOR OFFICIAL USE ONLY
                        Quantity Issues
                        7                        2006    WA2       $            $             54   $ 9,022.30   $ 487,204     $              $
                                                 2007    WA2                                 165     9,400.60    1,551,099
                        3110013560489
                                                 2008    WA2                                 186    10,737.98    1,997,264
                        114RS308-2               2009    WA2                                 237    11,363.08    2,693,050
                        Subtotal                                                             642   $10,480.71   $6,728,618    $              $
                                                          Boeing Cost/ Price             CCAD/Boeing Contract Price        DoD IG                Total Difference
                        Sample Number/NSN/
                                             Year                         Burdened                                        Calculated
                           Part Number              Qty     Unit Cost                  Qty     Unit Price   Total Price                  Amount             Percent
                                                                          Unit Price                                      Total Price1
                        13                   2005           $             $               0
                                             2006   WA2                                 159    $4,457.00    $ 708,663     $              $
                        6105004634901
                                             2007                                       332     4,525.78     1,502,559
                        39449-7              2008                                       272     4,993.36     1,358,194
                                             2009                                       280     5,093.88     1,426,286
                        Subtotal                                                       1,043   $4,789.74    $4,995,702    $              $


                        20                   2008           $             $             96     $5,261.62    $ 505,116      $             $
                                             2009                                      115      5,555.07      638,833
                        6105002512494

                        AM1528M2
                        Subtotal                                                       211     $5,421.56    $1,143,949     $             $




         104
                        167                  2008   WA2     $             $              6     $6,624.62     $ 39,748      $                 $

                        1615012198666
                                             2009                                       54      4,943.15      266,930
                        114DS672-2




FOR OFFICIAL USE ONLY
                        Subtotal                                                        60     $5,111.30     $306,678      $                 $

                        200 (Apache)         2005   WA2         $             $         15      $ 90.56      $ 1,358          $              $
                                             2006                                       15       291.66         4,375
                        5340011611199
                                                                                        10       352.65         3,527
                        7-113100127          2007                                       60       371.77        22,306
                                             2008                                      232       382.90        88,833
                                             2009                                      384       398.32       152,955
                        Subtotal                                                       716      $381.78      $273,354         $          $
                                                               Boeing Cost/ Price             CCAD/Boeing Contract Price       DoD IG            Total Difference
                        Sample Number/NSN/
                                                Year                           Burdened                                       Calculated
                           Part Number                   Qty     Unit Cost                   Qty   Unit Price   Total Price                   Amount        Percent
                                                                               Unit Price                                     Total Price1
                        324                     2005    WA2       $              $             0
                                                2006                                         150    $373.99      $ 56,099         $          $
                        3120008810018
                                                2007                                         100     379.76        37,976
                        114L2433-1              2008                                         204     399.69        81,537
                                                2009                                         204     407.18        83,065
                        Subtotal                                                             658    $393.13      $258,676         $          $

                        338                     2007              $            $
                                                2008                                          5     $5,427.38    $27,137          $              $
                        1650009559586
                                                2009                                          8      5,465.63     43,725
                        114H4715-2
                        Subtotal                                                             13     $5,450.92    $70,862          $              $




         105
                            Total                                                                               $13,777,838   $              $


                        Boeing Make Issue
                        3                       2005    DLA*                       $545.59




FOR OFFICIAL USE ONLY
                                                2006                                545.59     0
                        3120001384083
                                                2007                                545.59   375    $3,845.36   $1,442,010     $204,596      $1,237,414      604.8
                        114R2197-4              2008                                545.59   351     4,223.13    1,482,319      191,502       1,290,817      674.0
                                                2009                                545.59     0
                        Subtotal                *DLA 10/2010 Standard Unit Price             726    $4,028.00   $2,924,329     $396,098      $2,528,230      638.3
                        Boeing Credit Issued3                                                                                                 $164,535
                                                             Boeing Cost/ Price              CCAD/Boeing Contract Price       DoD IG            Total Difference
                        Sample Number/NSN/
                                                Year                         Burdened                                        Calculated
                           Part Number                   Qty   Unit Cost                    Qty   Unit Price   Total Price                   Amount        Percent
                                                                             Unit Price                                      Total Price1
                        206                     2005    DLA*                  $103.68         2    $700.54      $ 1,401          $ 207      $ 1,194         575.7
                                                                                103.68       12      50.24           603           1,244        (641)       (51.5)
                        1680011056441
                                                2006                            103.68       87     674.99        58,724           9,020      49,704        551.0
                        145R2190-5              2007                            103.68      145     645.20       93,554           15,034      78,520        522.3
                                                2008                               103.68     0     721.38
                                                2009                               103.68   163     751.51       122,496          16,900        105,596     624.8
                        Subtotal                *DLA 10/2010 Standard Unit Price            409    $676.72      $276,779         $42,405    $234,373        552.7

                            Total                                                                              $3,201,107     $438,503      $2,762,604      630.0


                        Parts In Line with Negotiated Contract Amount
                        6                       2005             $            $




         106
                                                2006                                          0
                        1615011994145
                                                2007                                         32   $38,093.81   $1,219,002    $
                        114R2050-35             2008                                         35    42,890.71    1,501,175
                                                2009                                         47    44,829.25    2,106,975




FOR OFFICIAL USE ONLY
                        Subtotal                                                            114   $42,343.43   $4,827,152    $              $

                        8                       2005             $            $
                                                2006                                          0
                        1615011987553
                                                2007                                         45   $37,033.38   $1,666,502    $
                        114R2050-36             2008                                         34    41,680.28    1,417,130
                                                2009                                         33    43,548.24    1,437,092
                        Subtotal                                                            112   $40,363.60   $4,520,724    $
                                                          Boeing Cost/ Price            CCAD/Boeing Contract Price       DoD IG            Total Difference
                        Sample Number/NSN/
                                             Year                         Burdened                                      Calculated
                           Part Number              Qty     Unit Cost                  Qty   Unit Price   Total Price                  Amount         Percent
                                                                          Unit Price                                    Total Price1
                        67                   2005           $             $              0
                                             2006                                        0
                        1615012053921
                                             2007                                        4   $ 9,762.80   $    39,051   $              $
                        234R2088-1                                                       9     9,338.66        84,048
                                             2008                                       29    10,079.96       292,319
                                             2009                                       62    10,605.69       657,553
                        Subtotal                                                       104   $10,317.03   $1,072,971    $

                        83                   2006           $             $              2    $2,711.99    $ 5,424       $
                                             2007                                       90     2,737.40     246,366
                        1560011153618
                                             2008                                       24     3,097.00      74,328
                        145R2053-1           2009                                       86     3,246.46     279,196




         107
                        Subtotal                                                       202    $2,996.60    $605,314      $             $

                        222                  2005   WA2     $             $             0
                                             2006                                      15     $4,705.73    $ 70,586         $
                        1620008689795
                                             2007                                       2      5,295.67      10,591




FOR OFFICIAL USE ONLY
                        114L2325-2           2008                                      29      5,414.19     157,012
                                             2009                                      12      5,608.06      67,297
                        Subtotal                                                       58     $5,266.99    $305,486      $
                                                                     Boeing Cost/ Price                 CCAD/Boeing Contract Price               DoD IG               Total Difference
                        Sample Number/NSN/
                                                   Year                              Burdened                                                   Calculated
                           Part Number                        Qty      Unit Cost                      Qty      Unit Price     Total Price                           Amount         Percent
                                                                                     Unit Price                                                 Total Price1
                        276                         2007               $             $                 0
                                                    2008                                               1       $3,266.33        $3,266             $
                        6105011204285
                                                    2009                                               0
                        FYLM-73800-5
                        Subtotal                                                                       1       $3,266.33        $3,266             $

                           Total                                                                                             $11,334,911        $11,555,646        ($220,735)        (1.9)


                        Total for Sample                                                                                     $33,984,305        $21,338,681        $12,645,624       59.3
                        Total Boeing Credits
                                                                                                                                                                     $1,657,805
                        Issued
                        1
                          The DoD IG Calculated Total Price represents the Boeing Burdened Unit Price multiplied by the CCAD/Boeing Contract Quantity.




         108
                        2
                          WA: Weighted Average.
                        Note: We burdened Army prices with Boeing’s percent wrap rate. We did not burden DLA prices with Boeing’s percent wrap rate because the prices
                        already reflected a markup.
                        3
                          After we issued the draft report, Boeing provided the Army refunds for samples 3, 5, 91, 371, and 398, and stated that it was pursuing a refund for sample 45.




FOR OFFICIAL USE ONLY
Office of the Assistant Secretary of Defense (Logistics and
Material Readiness) Comments




                    Click to add JPEG file




                         FOR OFFICIAL USE ONLY
                                  109
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              110
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              111
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              112
Defense Procurement and Acquisition Policy Comments

                                                        Final Report
                                                         Reference




                                                      Revised
                  Click to add JPEG file




                       FOR OFFICIAL USE ONLY
                                113
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              114
Department of the Army Comments




                   ick to add JPEG file




                      FOR OFFICIAL USE ONLY
                               115
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              116
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              117
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              118
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              119
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              120
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              121
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              122
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              123
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              124
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              125
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              126
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              127
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              128
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              129
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              130
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              131
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              132
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              133
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              134
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              135
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              136
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              137
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              138
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              139
Defense Logistics Agency Comments




                       oa




                      FOR OFFICIAL USE ONLY
                               140
Defense Contract Management Agency Comments




                          DEFENSE CONTRACT MANAG E MENT AGENCY
                                       6350 WALKER LANE. SUITE 300
                                      ALEXANDRIA, VIRGIN IA 22310-3241




                                                                         February 14, 2011


      MEMORANDUM FOR DIRECTOR OF PRJClNG AND LOGISTICS ACQUIS ITION,
                       ACQUIS IT ION AND CONTRACT MANAGEMENT, OFF ICE OF
                       THE INSPECTOR GENERAL, DEPARTMENT OF
                       DEF ENSE

      SUBJECT: Response to FOUO Draft Department of Defense Office of In spector General
               (OoDIG) Audit Report "Excess Inventory and Contract Pricing Problems Jeopardize
               the Army Contract With Boeing to Support the Corpus Christi Army Depot," dated
                    January 11,2011

      Reference: (Project No. D20IO-DOOOCH-0077.000)

              We have attached the Headquarters, Defense Contract Management Agency's comments
      to the recommendations as requested in the subject draft report.




      Attachment:
      As stated




                                             FOR OFFICIAL USE ONLY
                                                      141
Click to add JPEG file




     FOR OFFICIAL USE ONLY
              142
